<html>
<title> - EMERGENCY WARNING SYSTEMS: WAYS TO NOTIFY THE PUBLIC IN THE NEW ERA OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]


 
                       EMERGENCY WARNING SYSTEMS:
                    WAYS TO NOTIFY THE PUBLIC IN THE
                      NEW ERA OF HOMELAND SECURITY

=======================================================================

                                HEARING


                                 of the

           SUBCOMMITEE ON EMERGENCY PREPAREDNESS AND RESPONSE

                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2004

                               __________

                           Serial No. 108-58



    Printed for the use of the Select Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
26-275                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012006


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
David Dreier, California             Barney Frank, Massachusetts
Duncan Hunter, California            Jane Harman, California
Harold Rogers, Kentucky              Benjamin L. Cardin, Maryland
Sherwood Boehlert, New York          Louise McIntosh Slaughter, New 
Joe Barton, Texas                    York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas                 Ben Chandler, Kentucky
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

          Subcommittee on Emergency Preparedness and Response

                    John Shadegg, Arizona, Chairman

Curt Weldon, Pennsylvania            Bennie G. Thompson, Mississippi, 
W.J. ``Billy'' Tauzin, Louisiana     Ranking Member
Christopher Shays, Connecticut       Jane Harman, California
Dave Camp, Michigan                  Benjamin L. Cardin, Maryland
Lincoln Diaz-Balart, Florida         Peter A. DeFazio, Oregon
Peter King, New York                 Nita M. Lowey, New York
Mark Souder, Indiana                 Eleanor Holmes Norton, District of 
Mac Thornberry, Texas                Columbia
Jim Gibbons, Nevada                  Bill Pascrell, Jr., New Jersey
Kay Granger, Texas                   Donna M. Christensen, U.S. Virgin 
Pete Sessions, Texas                 Islands
Christopher Cox, California, ex      Bob Etheridge, North Carolina
officio                              Ken Lucas, Kentucky
                                     Jim Turner, Texas, ex officio

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John B. Shadegg, a Representative in Congress From 
  the State Arizona, and Chairman, Subcommittee on Emergency 
  Preparedness and Response......................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Subcommittee 
  on Emergency Preparedness and Response.........................     2
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................     3
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, and Ranking Member, Select Committee on 
  Homeland Security..............................................    22
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    25
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    31
The Honorable Eleanor Holmes Norton, a Delegate in Congress From 
  the District of Columbia.......................................    33
The Honorable Curt Weldon, a Representative in Congress From the 
  State of Pennsylvania..........................................    27

                               WITNESSES
                                Panel I

Mr. James. Dailey, Director of Homeland Security, Federal 
  Communications Commission:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. Kathleen Henning, Certified Emergency Manager, International 
  Association of Emergency Management:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Reynold N. Hoover, Director of National Security 
  Coordination, Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7

                                Panel II

Ms. Patricia McGinnis, President and CEO, Council for Excellence 
  in Government:
  Oral Statement.................................................    51
  Prepared Statement.............................................    53
Mr. Frank Lucia, Vice Chairman, Washington, D.C. Emergency Alert 
  System Committee Member, Public Communications & Safety Working 
  Group, Media Security and Reliability Council:
  Oral Statement.................................................    45
  Prepared Statement.............................................    47
Dr. Peter L. Ward, Founding Chairman, Partnership for Public 
  Warning, U.S. Geological Survey (Retired):
  Oral Statement.................................................    35
  Prepared Statement.............................................    37

                             FOR THE RECORD

Mr. Reynold Hoover Responses to Questions........................    63
Mr. Frank Lucia Responses to Questions...........................    84
Ms. Patricia McGinnis Responses to Questions.....................    65
Dr. Peter Ward Responses to Questions............................    68


                       EMERGENCY WARNING SYSTEMS:
                    WAYS TO NOTIFY THE PUBLIC IN THE
                      NEW ERA OF HOMELAND SECURITY

                              ----------                              


                     Wednesday, September 22, 2004

                          House of Representatives,
                     Select Committee on Homeland Security,
                     Subcommittee on Emergency Preparedness
                                              and Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2261, Rayburn House Office Building, Hon. John Shadegg 
[chairman of the subcommittee] presiding.
    Present: Representatives Shadegg, Weldon, Camp, Cox (ex 
officio), Thompson, DeFazio, Lowey, Norton, Etheridge, Lucas 
and Turner (ex officio).
    Mr. Shadegg. Good morning. The committee will come to 
order.
    I would like to ask unanimous consent that opening 
statements be limited to the subcommittee and full committee 
chairman and the ranking members of the subcommittee and the 
full committee. Is there any objection?
    Without objection, so ordered.
    You may not be aware of this, but September is National 
Preparedness Month, an effort to heighten the importance of 
American families and businesses to be better prepared for 
emergencies, especially in this new era of Homeland Security. 
As a part of that effort, today we will be focusing on the 
emergency warnings communication system, that is, how we can 
get the best information to the public on what steps they 
should take to protect themselves in the event of an emergency.
    You know, it was Paul Revere and his partner who is less 
well known, Robert Newman, who pioneered unknowingly the first 
emergency warning system in our country. Newman was the 
individual who hung lanterns. Of course, Paul Revere was the 
one who made the famous ride. One if by land and two if by sea, 
as well as a midnight ride warning that the British were 
coming, were effective means of spreading the word in the 18th 
century. However, in the 21st century, in a new war on 
terrorism and a new era of Homeland Security and technology, we 
must look at the most modern and effective ways to get 
emergency warnings to our citizenry.
    Consider, for example, these statistics. There are 169 
million cell phone users in the United States. There are 28 
million high-speed Internet lines always on. There are 107 
million households, well over 90 percent of those in the 
country, that have telephone service, and there are over 11 
million paging units in service. More and more, technology is 
becoming ubiquitous, and it would be foolish not to capitalize 
on these potential conduits for informing Americans about what 
to do in an emergency so that they can make an educated 
decision about how best to protect themselves.
    Think about a potential release, for example, of a bio-
agent or a dirty bomb. Based on global positioning technology, 
GPS technology, a cell phone user could receive a text message 
based on which cell towers he was closest to advising him of 
the event. Linked with plume modeling technology, an individual 
could be advised further as to whether to shelter where they 
are in place or to evacuate. And this sort of technology is 
already put into place.
    For example, the States of Washington and my home State of 
Arizona have launched a multi-State AMBER alert web portal 
which has the ability to notify thousands of subscribers 
through e-mail, cell phones, pagers, and other devices that a 
child has been abducted. Fourteen additional States are set to 
join, including the State of Mississippi. This is a partnership 
of State, law enforcement, private companies, and the broadcast 
media.
    But there are also questions when we start discussing 
notification systems. Keep in mind, for example, that the 
Emergency Alert System was never activated on September 11th. 
We need to consider who will control the content of the 
message? How will we know that it is completely accurate? Will 
it be nimble enough in order to take action in a timely manner? 
Will local law enforcement be willing to share information with 
the media? Will there be information overload? And, what 
happens if electricity is lost?
    An efficient and effective all hazards alert system must 
bring together all available information in an accessible and 
reliable manner and disseminated to Americans in a timely 
manner via multiple technologies. In our examination, it is 
likely that we will learn that no single solution exists. 
Rather, we will have to rely on multiple modes and built-in 
redundancy.
    Today, we will hear from Federal officials from the 
Department of Homeland Security as well as the FCC, the Federal 
Communications Commission; and we will be particularly 
interested in what the Department is doing to coordinate and 
build upon the message from seven different warnings systems 
that currently exist for all hazards and emergency notice and 
its latest emergency communication demonstration project in the 
National Capital Region.
    Our FCC witness will provide perspective on the 
Commission's latest notice of proposed rulemaking on changes to 
the Emergency Alert System as well as the role of the media. Do 
local broadcasters have enough guidance from local, State, and 
Federal Government to operate an effective warning system?
    And our second panel will provide insight on what 
technologies are available and other issues that should be 
addressed when considering emergency communications systems.
    I would now call upon the Ranking Member, Mr. Thompson, for 
his opening statement.
    Mr. Thompson. Thank you, Mr. Chairman.
    I join the Chairman in welcoming the witnesses to this 
hearing, and I look forward to hearing your testimony on this 
important topic.
    When our hearing concludes today, I think it will be very 
clear that our Nation does not have an effective warning 
system. More than 3 years after the attacks of September 11th, 
we still depend on a warning system that was created by 
President Truman in the 1950s. And while it is true that this 
system's technology has been upgraded over the years, the 
simple facts are these: We are still dependent upon the 
broadcast industry to distribute warnings; State and local 
governments do not have the authority to require broadcasters 
to distribute warning messages; and the current warning system 
reaches only the limited audience that is listening to 
broadcast radio or watching broadcasts on cable television at 
the exact time that emergency announcement is made.
    It seems to me when we face the very real threat of more 
terrorist attacks within our homeland that this warning system 
is wholly unsatisfactory and demonstrates a huge gap in the 
administration's preparedness strategy. We can provide our 
first responders with all the training and equipment they need, 
but if we do not have an effective way to warn the public and 
provide them with the information that will help them to 
protect themselves and their families, we will fail in our 
duties to save lives in the aftermath of the next attack.
    This is not a new problem created by the September 11th 
attacks. Numerous studies and reports have demonstrated that 
our warning system is not adequate. Yet, even after 9/11, 
nothing has been done to change the system.
    Based on prior recommendations of several of today's 
witnesses, we know what an effective warning system should do. 
First, the system must distribute warnings through as many 
communication channels as practicable, including telephone, 
cell phone, and pagers. Second, the actual warning message must 
be a single, consistent, and easily understood language that 
can be used as a standard across all hazards and situations. 
Finally, ownership of and accountability for the system must be 
clear. Today, no one government agency is in charge of the 
system, resulting in outdated warning plans, missing 
communication links, and a lack of training and equipment for 
emergency managers.
    The administration must devote the resources to implement 
these changes. We cannot wait for the next attack to 
demonstrate the shortfalls of our warning systems. The Federal 
Communications Commission has initiated this process by issuing 
a notice of proposed rulemaking on the Emergency Alert System. 
This notice raises some very important questions about the 
adequacy of the current system and the alternative systems that 
we should be considering. I hope the Commission uses this 
opportunity to make real changes in the alert system and does 
not simply patch an outdated approach to public warning.
    Again, I thank the witnesses for appearing before this 
subcommittee, and I look forward to your testimony.
    Mr. Shadegg. I thank the gentleman.
    The Chairman of the full committee, Mr. Cox, is now 
recognized for his opening statement.
    Mr. Cox. Thank you, Mr. Chairman; and thank you to the 
Ranking Member.
    Good morning to our witnesses. Let me, too, commend you for 
your prepared testimony which you provided and for the wisdom 
that I know you are about to share with us.
    I will be brief. I agree with my colleagues that it is 
imperative that our Nation address the question of how to 
upgrade and modernize our emergency communication systems. 
There are a lot of questions that attend to that. Of course, I 
will always, forever have stuck in my mind the emergency 
broadcast system test that we grew up with that puzzled us all. 
What the hell is that thing for? Because it has never been 
used. It is supposed to transmit Presidential messages to the 
Nation in time of emergency, never used.
    We can do a lot better than that. We are doing a lot better 
than that. That system has been modernized and updated itself 
several times. Now it is known as the Emergency Alert System. 
But its origins are certainly reminders of another time and 
another place when we didn't have anything like wireless or 
digital or the Internet.
    There are flaws in our current system. The Emergency Alert 
System itself, as I mentioned, hasn't been used. So in addition 
to upgrading the technology, we have got to ask ourselves, what 
are the circumstances precisely under which we are going to use 
these systems? Only half of the Nation's 14,000 broadcasters 
are voluntarily carrying warnings and alerts through this 
system. On September 11th, 2001, it wasn't activated, it wasn't 
used. One wonders what kind of emergency is necessary before we 
would find any use for that system. My home, California, has 
never used the system to warn people when their lives and their 
property are threatened by fires that are, if not predictable 
entirely, that are certainly frequent occurrences.
    This Emergency Alert System is probably the best known, but 
there are seven distinct Federal warning and alert systems that 
I hope we will discuss here this morning.
    The national warning system operated by FEMA disseminates 
emergency information to 22,000 national and regional State and 
local emergency management offices. The National Weather 
Service has several systems, weather alert systems, designed to 
report through the news media. The AMBER alert web portal 
provides actionable intelligence on a geographic basis to 32 
States, two thirds of the country, to help them identify and 
track missing children. Each of these systems is designed for 
its own specific purpose, and I am quite certain that some 
overlap and some redundancy is not only unavoidable but 
desirable.
    No single warning alert system is guaranteed to reach 
everyone, and so we can ask this morning how much overlap ought 
we to have in these systems. When we deploy them, are we 
properly focused on questions such as what if the telephone 
lines were done? What if the power lines are down? What if the 
cable TV is disabled? What about people with disabilities? What 
if you are hearing impaired? What if you are blind? How should 
the alerts be tailored to avoid unnecessary panic?
    We have discussed this in other hearings, in other ways, 
with the national color coded warning system. Will frequent 
warnings desensitize the public to actual danger? How should 
instructions on what to do be effectively conveyed to the 
public? When precisely should an alert be transmitted? Will the 
Federal system provide more meaningful information than is 
available through the 24/7 news media? And, if not, are we 
wasting a lot of resources on some of these systems? What role 
should the Department of Homeland Security play?
    I know we are about to make some progress in answering 
these questions at this morning's hearing, so let me close as I 
began, by thanking you all for being here; and thank you, Mr. 
Chairman and Mr. Thompson, for being here.
    Mr. Shadegg. I thank the gentleman for his statement.
    The Ranking Member of the full committee, Mr. Turner, is 
not with us at the moment. Should he join us, I will be happy 
to afford him an opportunity to make an opening statement.
    At this point, I would like to introduce our first panel so 
we can begin the testimony and proceed.
    Our first witness, Mr. Reynold Hoover, is the Director of 
the Office of National Security Coordination and the Emergency 
Preparedness and Response Directorate within the Department of 
Homeland Security; our second witness, Mr. Jim Dailey, is the 
Homeland Security Director for the Federal Communications 
Commission; and our third witness, Ms. Kathleen Henning, is a 
Certified Emergency Manager and a member of the International 
Association of Emergency Management.
    You will each have 5 minutes to make your opening 
statement. We won't hold you strictly to that. Your entire 
written statement will be made a part of the record, and so you 
will know that your full statement is in the record if you 
choose to just summarize it in your oral statement.
    Mr. Shadegg. With that, Mr. Hoover, would you begin?

 STATEMENT OF REYNOLD N. HOOVER, DIRECTOR OF NATIONAL SECURITY 
         COORDINATION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Hoover. Good morning. Thank you, Mr. Chairman.
    Good morning, Chairman Shadegg and members of the 
committee. My name is Reynold Hoover. I am the Director of the 
Office of National Security Coordination within the Federal 
Emergency Management Agency, FEMA. Thank you for the 
opportunity to appear before you today to discuss the role and 
activities of the Department of Homeland Security and FEMA to 
support the important mission of public alert and warnings.
    I would like to ask, as you mentioned, Mr. Chairman, that 
my full written statement be included in the record.
    FEMA, through our office, serves as the lead agent for the 
Federal Government's Executive Branch Continuity of Operations 
and Continuity of Government Programs. We also serve as the 
executive agent for the development, operations, and 
maintenance of the national-level Emergency Alert System known 
as EAS and are responsible for implementation of the national 
level activation of EAS tests and exercises. To carry out that 
function, we serve as the EAS program manager within FEMA and 
work in close cooperation with the Information Analysis and 
Infrastructure Protection, the IAIP, Directorate for All 
Hazards Alert and Warning. I should also note that we work 
closely with the Federal Communications Commission, the FCC, 
and the National Oceanic and Atmospheric Administration, NOAA, 
which is a primary EAS user.
    The Department is grateful for the alert and warning funds 
Congress provided to IAIP this year and look forward to passage 
of the President's 2005 budget which provides $2 million 
additional dollars for EAS. Your funding will help provide 
Americans with critical and timely information alerts and 
warnings that will save lives and property.
    This morning I would like to take a few moments to tell you 
about EAS and the Department's efforts toward improving and 
building our capability to provide a nationwide alert and 
warning system.
    The current EAS was established in 1994 and is essentially 
a cascade, trickle-down distribution system from the FEMA 
operations centers to 34 designated primary entry point, or 
PEP, radio broadcast stations. At the request of the President, 
we distribute a Presidential level message to the PEP stations, 
which in turn rebroadcast the signal to monitoring stations 
downstream which then broadcast the message over TV and radio. 
This Presidential message is mandatory and must take priority 
over other messages and must preempt other messages already in 
progress. All other broadcasts of emergency messages are 
voluntary. Nevertheless, State and local emergency managers 
can, and do, activate the EAS for State and local alert and 
warning messages such as AMBER alerts, hazardous material 
incidents and weather warnings. NOAA and the National Weather 
Service serve as the originator of emergency weather 
information and play a significant role in the implementation 
of EAS at the State and local levels.
    But as efficient and useful as EAS has been, we in FEMA and 
the Department of Homeland Security realize that the alert and 
warning system that so many millions of people depend upon is 
not everything to everyone all of the time. With the alert and 
warning funding provided this year, FEMA and IAIP are making 
great progress in our ability to reach more of the people more 
of the time.
    For example, we look forward to signing a cooperative 
agreement with the Association of Public Television Stations to 
launch a digital emergency alert system pilot project in the 
National Capital Region. This pilot will demonstrate how the 
capabilities of America's public broadcasters can be utilized 
to dramatically enhance the ability to provide the American 
people with critical and lifesaving information. This project 
will also provide the Department with an improved mechanism for 
distributing EAS and alert warning messaging via digital 
television and satellite to an expanded range of retransmission 
media such as cell phone service providers, computers, PDAs, 
and other wireless devices.
    Through the use of a geo-targeted alerting system which 
uses reverse 911 technology, we will also test the ability to 
provide targeted warning down to the individual household or 
business. This proven technology will be conducted in the 
National Capital Region in cooperation with NOAA's Forecast 
Systems Laboratory and the Department of Homeland Security's 
National Capital Region Office.
    But while conducting proof of concept pilots, we are 
simultaneously beginning to upgrade and expand the primary 
entry point broadcast stations from a ground-based dial-up 
system to satellite transmissions. This upgrade will ensure 
their survivability in the event of a catastrophic attack on 
the homeland.
    We recognize that there is no single solution set that will 
meet everyone's alert and warning requirements. That is why 
FEMA, IAIP, and the Department has teamed up with NOAA, the 
FCC, and the private sector to find the most appropriate 
interoperable solutions to develop an Integrated Public Alert 
and Warning System that we are calling IPAWS. We believe that 
IPAWS, using digital technology in combination with upgraded 
primary entry point EAS capabilities, will provide Federal, 
State, and local emergency managers and leaders with the tools 
they need to protect America from both manmade and natural 
disasters.
    Mr. Chairman, these are just a few of the examples of how 
FEMA and the Department of Homeland Security have taken 
seriously its responsibility to provide quick and accurate 
dissemination of alert and warning information to our homeland 
security partners and the American public. Thank you for your 
invitation to speak, for your support of the Department's 
mission, and for your interest in the Emergency Alert System; 
and I will be pleased to answer what questions you may have.
    Mr. Shadegg. Thank you very much.
    [The statement of Mr. Hoover follows:]

                Prepared Statement of Reynold N. Hoover

    Good afternoon, Chairman Shadegg and members of the Committee. I am 
Reynold N. Hoover, the Director of the Office of National Security 
Coordination (ONSC) within the Federal Emergency Management Agency 
(FEMA). Thank you for the opportunity to appear before you today to 
discuss the role and activities of the Department of Homeland Security 
and FEMA to support the important mission of public alert and warning.
    FEMA, through my office, serves as the Lead Agent for the Federal 
Executive Branch's Continuity of Operations (COOP) and Continuity of 
Government (COG) programs, in accordance with Presidential Decision 
Directive (PDD) 67, Enduring Constitutional Government and Continuity 
of Government Operations. We also serve as the Executive Agent for the 
development, operations and maintenance of the national--level 
Emergency Alert System (EAS) and are responsible for implementation of 
the national level activation of EAS tests and exercises. To carry out 
that function, we serve as the EAS Program Manager within FEMA and work 
in close cooperation with the Information Analysis and Infrastructure 
Protection (IAIP) Directorate for All Hazards Alert and Warning. I 
should also note that we work closely with the Federal Communications 
Commission (FCC) which generally prescribes EAS technical standards, 
procedures and protocols, and the National Oceanic & Atmospheric 
Administration (NOAA) which is a primary EAS user.
    The Department is grateful for the Alert and Warning funds Congress 
provided to IAIP this year and look forward to passage of the 
President's 2005 budget which provides 2 million additional dollars for 
EAS. Your funding will help to provide Americans with critical and 
timely information alerts and warning that will save lives and 
property. This morning I would like to take a few moments to tell you 
about the EAS and the Department's efforts toward improving and 
building our capability to provide nationwide alert and warning.
    The current EAS was established in 1994 and is essentially a 
cascade, trickle down, distribution system from the FEMA Operations 
Centers to 34 designated Primary Entry Point (PEP) radio broadcast 
stations. At the request of the President, we distribute a Presidential 
level message to the PEP stations, which in turn re-broadcast the 
signal to monitoring stations down stream which then broadcast the 
message over TV and radios. The system is designed to provide the 
President the capability to transmit within ten minutes from any 
location at any time. This Presidential message is mandatory, must take 
priority over any other message and must preempt other messages in 
progress. All other broadcasts of emergency messages are voluntary. 
Nevertheless, State and local emergency managers can, and do, activate 
the EAS for state and local public alert and warning messages--such as 
AMBER alerts, hazardous material incidents and weather warnings. NOAA, 
and the National Weather Service, serve as the originator of emergency 
weather information, and play a significant role in the implementation 
of EAS at the state and local level. While FEMA tests on a weekly basis 
the connectivity to the 34 PEP stations, the national level EAS has 
never been fully activated.
    As you are well aware, the tragic events three years ago on 
September 11th caused a paradigm shift in how we think about homeland 
security and, in particular, alert and warning. As efficient and useful 
as the EAS has been, we in FEMA and the Department of Homeland Security 
realize that the alert and warning system that so many millions of 
people depend upon is not everything to everyone all of the time. With 
the alert and warning funding provided this year, FEMA and IAIP are 
making great progress in our ability to reach more of the people, more 
of the time. We believe in a very short period, using existing digital 
and other cutting edge technologies, the Department will be able to 
provide All Hazards alerts and warning to the greatest number of 
people, all of the time. This includes persons with disabilities and 
individuals for whom English is a second language.
    For example, we look forward to signing a cooperative agreement 
with the Association of Public Television Stations to launch a digital 
emergency alert system pilot project in the National Capital Region. 
This pilot will demonstrate how the capabilities of America's public 
broadcasters can be utilized to dramatically enhance our ability to 
provide the American people with critical, and lifesaving, information. 
Utilizing open, non-proprietary architectures and applications, this 
project will provide the Department with an improved mechanism for 
distributing EAS and alert and warning messaging via digital television 
and satellite to an expanded range of re-transmission media such as 
cell phone service providers, computers, PDAs and other wireless 
devices.
    Through the use of a Geo-Targeted Alerting System (GTAS), which 
uses reverse 911 technology, we will also test the ability to provide 
targeted warning down to the individual household or business. This 
proven technology will be conducted in the National Capital Region in 
cooperation with NOAA's Forecast Systems Laboratory and DHS's National 
Capitol Region Office.
    While conducting proof of concept pilots for improving alert and 
warning capabilities, we are simultaneously beginning to upgrade and 
expand the Primary Entry Point broadcast stations from a ground-based 
dial-up system to satellite transmission. This upgrade will expand the 
location of entry point receiver stations and will ensure their 
survivability in the event of a catastrophic attack on the homeland.
    We recognize that there is no single solution set that will meet 
everyone's alert and warning requirements, that is why FEMA, IAIP and 
the Department has teamed up with NOAA, the FCC, and the private sector 
to find the most appropriate interoperable solutions to develop an 
Integrated Public Alert and Warning System (IPAWS). We believe that 
IPAWS, using digital technology in combination with upgraded Primary 
Entry Point EAS capabilities, will provide Federal, state and local 
emergency managers and leaders with the tools they need to protect 
America from both man--made and natural disasters. At the same time we 
are aware of the concerns of our state partners who have invested in 
their own alert and warning systems. With that in mind, IPAWS is 
intended to be fully interoperable with those systems using common 
alerting protocols
    Mr. Chairman, these are just some examples of how FEMA and the 
Department of Homeland Security has taken seriously its responsibility 
to ensure the quick and accurate dissemination of alert and warning 
information to our homeland security partners and the American public.
    Thank you again for the invitation to speak, for your support of 
the Department's mission, and for your interest in the Emergency Alert 
System. I will be pleased to answer any questions you may have.

    Mr. Shadegg. Mr. Dailey.

   STATEMENT OF JAMES DAILEY, DIRECTOR OF HOMELAND SECURITY, 
               FEDERAL COMMUNICATIONS COMMISSION

    Mr. Dailey. Good morning, Mr. Chairman and distinguished 
members of the subcommittee. I am James Dailey, Director of the 
Enforcement Bureau's Office of Homeland Security at the Federal 
Communications Commission, and I appreciate the opportunity to 
come before you today to talk about the Emergency Alert System.
    For over 50 years, the United States has had a mechanism in 
place for the President to communicate with the public in the 
event of a national emergency. Throughout this time, it has 
been the FCC's responsibility to ensure that the broadcast 
media had the capability to deliver Presidential emergency 
notification. That mechanism is the Emergency Alert System.
    In general, the Commission's rules prescribe technical 
standards for EAS, procedures for radio and television stations 
and cable systems to follow in the event EAS is activated, and 
the EAS testing protocols. The current Emergency Alert System 
requires radio, television, and cable systems to deliver a 
Presidential activation of EAS, but their use of EAS and in 
response to State and local emergencies, while encouraged, is 
only voluntary.
    Though the Cold War is behind us, we face a new homeland 
security threat, and the Commission is acutely aware of the 
importance to the American public of timely and effective 
emergency warnings. Exciting changes are occurring in all 
communications medium as the digital migration continues to 
sweep across the technological landscape. As a result of these 
changes, EAS has recently been the subject of extensive 
examination. A broad range of issues have been raised by 
citizens, the Commission's own Federal Advisory Committee, the 
Media Security and Reliability Council, public and private 
partnerships such as the Partnership of Public Warning, and our 
Federal and State partners.
    To ensure that we do our part to contribute an efficient 
and up-to-date public alert and warning system, last month the 
Commission released a Notice of Proposed Rulemaking. The NPRM 
seeks comment on whether EAS is the most effective way to warn 
the American public of an emergency and, if not, how the system 
can be improved.
    In the NPRM, the Commission raises broad questions about 
whether the technical capabilities of EAS are consistent with 
the Commission's mission to ensure that public warning take 
full advantage of current and emerging technologies. The NPRN 
also addresses the issue of the permissive nature of EAS at the 
State and local level and seeks comment on whether the 
voluntary nature of State and local EAS participation is 
appropriate in today's world.
    Additionally, there are other various issues upon which the 
Commission seeks comment. For example, what the respective 
roles of the Federal departments and agencies involved in the 
implementation of EAS should be, how the delivery pipeline for 
public warning can be made more secure and how it can be 
tested, how both emergency managers and the public can utilize 
a public warning system in the most effective manner, and how a 
public warning system can most effectively provide warnings to 
the disabled community and communities for whom English is a 
second language. Indeed, a key focus is how to reach each and 
every citizen with the right emergency alert and warning 
information at the right time.
    The FCC has and will continue through the NPRM proceeding 
to coordinate with DHS, FEMA, NOAA, and others. We anticipate 
that our Federal partners will be active participants in the 
proceedings. In addition to seeking comments from all 
interested individuals and Federal entities, we specifically 
seek the participation of State and local emergency management 
agencies and other interested parties; and, finally, we seek 
input from all elements of the communications sector interested 
in developing a more effective alert and warning 
infrastructure.
    As Chairman Powell noted in his statement supporting the 
EAS Notice of Proposed Rulemaking, the NPRN is, quote, one of 
many vehicles by which we collectively explore the most 
effective mechanism for warning the American public of an 
emergency and the role of EAS as we move further into our 
digital future, unquote.
    We look forward to working with Congress, Federal, State, 
and local emergency managers, industry, the public, and others 
to ensure that we can provide such a warning system to the 
American people. I thank you, Mr. Chairman, for the opportunity 
to appear before you today, and I will pleased to answer any 
questions you and the members may have.
    Mr. Shadegg. Thank you very much, Mr. Dailey.
    [The statement of Mr. Dailey follows:]

                 Prepared Statement of James A. Dailey

             EXECUTIVE SUMMARY OF JAMES DAILEY'S STATEMENT

    Since the Cold War era, the United States has had a mechanism in 
place for the President to communicate with the public in the event of 
a national emergency. Throughout this time it has been the FCC's role 
to ensure that our licensees have the capability to deliver a 
Presidential level activation. Under the current Emergency Alert 
System, (known as EAS) all analog broadcast radio, television and cable 
systems are required to deliver a Presidential level activation of EAS, 
but their use of EAS in response to State and local emergencies, while 
encouraged, is voluntary.
    Though the cold war is behind us, we still face homeland security 
threats and are acutely aware of the importance of timely and effective 
warnings. In addition, there are exciting changes in our communications 
medium as the digital migration continues to sweep across our country. 
As a result of these changes, EAS has recently been the subject of much 
examination. A broad range of issues have been raised by citizens, the 
Commission's federal advisory group the Media Security and Reliability 
Council, public/private partnerships such as the Partnership for Public 
Warning, and our federal and state partners. To ensure that we do our 
part to contribute to an efficient and technologically current public 
alert and warning system that can alert each and every citizen the 
Commission recently released a Notice of Proposed Rulemaking (NPRM) 
that seeks comment on whether the current EAS is the most effective way 
to warn the American public of an emergency and, if not, how the system 
can be improved.
    In the NPRM, the Commission raises broad questions about whether 
the technical capabilities of EAS are consistent with the Commission's 
mission to ensure that public warning take full advantage of current 
and emerging technologies, particularly digital broadcast media. In the 
NPRM, the Commission also addresses the issue of the permissive nature 
of EAS at the state and local level and seeks comment on whether the 
voluntary nature of the state and local EAS structure is appropriate in 
today's world. Additionally, there are various miscellaneous issues 
upon which the Commission seeks comment. For example, what the 
respective roles of the federal government departments and agencies 
involved in the implementation of EAS should be, how the delivery 
pipeline for public warning can be made more secure and how it can be 
tested, how both emergency managers and the public can use and respond 
to a public warning system in the most effective manner, and how a 
public warning system can most effectively provide emergency warnings 
to the disabled community and communities for whom English is a second 
language. Indeed, a key focus is how to reach each and every citizen.
    The issues addressed in the NPRM have been coordinated with the 
Department of Homeland Security (DHS) and its component, the Federal 
Emergency Management Agency, (FEMA), and with the National Oceanic and 
Atmospheric Administration (NOAA) and its component, the National 
Weather Service (NWS). The Commission values these agencies' continued 
participation in our review of EAS.
    As Chairman Powell noted in his statement supporting the EAS Notice 
of Proposed Rulemaking, the EAS NPRM is ``one of many vehicles by which 
we collectively explore the most effective mechanism for warning the 
American public of an emergency and the role of EAS as we move further 
into our digital future.'' We look forward to working with Congress, 
our colleagues at other Federal and State agencies, and the public to 
ensure that we can provide such a warning system to our citizens. 
Written Statement of James A. Dailey

INTRODUCTION
    Mr. Chairman, Ranking Member, and Members of the Subcommittee:
    Good morning. I am James A. Dailey, Director of the Enforcement 
Bureau's Office of Homeland Security at the Federal Communications 
Commission. I welcome this opportunity to appear before you to discuss 
the Emergency Alert System (known as EAS).
    As Chairman Powell recently testified before the Senate Committee 
on Commerce, Science and Transportation, the FCC is committed to play 
our part in protecting our homeland and has designated Homeland 
Security as one of the Commission's six strategic goals, with 
particular attention to public safety and private sector readiness. The 
Commission is well aware that an effective public alert and warning 
system is an essential element of emergency preparedness, and that such 
a system is impossible without effective private sector participation. 
Accordingly, the Commission has been working with other Federal 
agencies and the private sector to ensure that the American public is 
provided with a robust, efficient and technologically current alert and 
warning system. This morning, I will provide you with a brief history 
of EAS and review the Commission's recent efforts to enhance and 
improve the system.

BACKGROUND
    Since the early days of the Cold War, it has been the policy of the 
United States to ensure a mechanism exists whereby the President can 
notify the American Public in the event of a national emergency. This 
mechanism began in 1951 when President Truman established CONELRAD, 
which stands for Control of Electromagnetic Radiation. This early 
system had a two-fold purpose: one, to warn the public of an imminent 
attack; and two, to limit broadcasting and thus restrict the ability of 
enemy missiles to use broadcasters as targeting beacons. Subsequent 
systems, such as CONELRAD's replacement, the Emergency Broadcast 
System, established in 1963 by President Kennedy, and the current 
Emergency Alert System were not designed to thwart attack, but were 
still based on the perceived need to have a sole, last resort method 
for the President to contact the American public in time of emergency, 
when other communication channels may be unavailable. The national 
Presidential message that is the foundation of EAS relies on delivery 
through analog radio and television broadcast stations and wired and 
wireless cable systems, and when activated, would override all other 
broadcasts or cable transmissions, national and local, to deliver an 
audio message from the White House. This system, mandatory at the 
national level, is also available on a voluntary basis for states and 
localities to deliver local emergency notification.

CURRENT OPERATION OF THE EAS SYSTEM
    The Federal Communications Commission, in conjunction with the 
Federal Emergency Management Agency (FEMA) and the National Weather 
Service (NWS), implements EAS at the federal level. The respective 
roles currently are based on a 1981 Memorandum of Understanding between 
FEMA, NWS, and the Commission, on a 1984 Executive Order, and on a 1995 
Presidential Statement of Requirements.
    EAS mandates only delivery of a ``Presidential message'' and the 
Commission's EAS rules primarily are concerned with the implementation 
of EAS in this national role. In general, the Commission's rules 
prescribe: (1) technical standards for EAS; (2) procedures for radio 
and television broadcast stations and cable systems to follow in the 
event EAS is activated; and (3) EAS testing protocols. Under the rules, 
national activation of EAS for a Presidential message is designed to 
provide the President the capability to transmit within ten minutes 
from any location at any time, and must take priority over any other 
message and preempt other messages in progress. Commission rules 
mandate EAS obligations only for analog radio and television stations, 
and wired and wireless cable television systems. Other systems, 
including, for example, low earth orbit satellite systems, paging, 
direct broadcast satellite (DBS), digital television (DTV), satellite 
Digital Audio Radio service (satellite DARS), and In-Band-On-Channel 
Digital Audio Broadcasting (IBOC DAB) currently have no EAS 
requirements.
    Activation of the national-level EAS rests solely with the 
President. The Robert T. Stafford Disaster Relief and Emergency 
Assistance Act authorizes the President to make provisions for 
emergency preparedness communications and dissemination of warnings to 
governmental authorities and the civilian population in areas 
endangered by disasters. This authority has been delegated to the 
Department of Homeland Security's (DHS) Undersecretary for Emergency 
Preparedness and Response as director of FEMA. FEMA acts as the White 
House's executive agent for the development, operations, and 
maintenance of the national level EAS and is responsible for 
implementation of the national level activation of EAS, as well as EAS 
tests and exercises. Further, the National Oceanic and Atmospheric 
Administration, through the National Weather Service, makes extensive 
use of EAS to report weather and other emergencies.
    EAS is essentially a hierarchal distribution system. FEMA has 
designated 34 radio broadcast stations as Primary Entry Point (PEP) 
stations. At the request of the President, FEMA distributes 
``Presidential Level'' messages to these PEP stations. As the entry 
point for national level EAS messages, the PEP stations are monitored 
in turn by other stations in the hierarchical chain. Broadcast stations 
and cable systems are required to monitor at least two EAS sources for 
Presidential alerts, as specified in their state EAS plans. Initiating 
an EAS message, whether at the national, state, or local level, is 
accomplished via dedicated EAS equipment. The EAS equipment provides a 
method for automatic interruption of regular programming and is capable 
of providing warnings in the primary language that is used by the 
station or cable system.
    State Emergency Communications Committees and Local Emergency 
Communications Committees, comprised of emergency management personnel 
and volunteers from industry, may be established in each state and 
territory to prepare coordinated emergency communications systems and 
to develop state and local emergency communications plans and 
procedures making use of the EAS protocol and other Public Alert and 
Warning systems the state may use in combination with EAS. These 
committees also establish authentication procedures and the date and 
time of the required monthly EAS tests. FCC rules accommodate these 
state and local alert codes--such as the Amber alert code adopted by 
the FCC in 2002.
    Along with its primary role as a national public warning system, 
EAS--and other emergency notification mechanisms--are part of an 
overall public alert and warning system, over which FEMA exercises 
jurisdiction. EAS use as part of such a public warning system at the 
state and local levels, while encouraged, is merely voluntary. Thus, 
although Federal, state, and local governments, and the consumer 
electronics industry are taking steps to ensure that alert and warning 
messages can be delivered by a responsive, robust and redundant system, 
at the state and local level the voluntary nature of EAS has resulted 
in an inconsistent application of EAS as a component of an overall 
public alert and warning system for the American public. The public 
receive most of their alert and warning information through the 
broadcaster's and cable systems' voluntary activations of the EAS 
system on behalf of state and local emergency managers.

CURRENT ISSUES
    The communications landscape is now drastically different from the 
Cold War era when EAS and its predecessors were originally conceived. 
Thus, the top down, one size fits all EAS approach may no longer be 
appropriate. Also, the introduction of wireless and digital 
technologies has broadened significantly the media through which public 
alert and warning can be delivered.
    Under Chairman Powell's leadership in the period after the tragic 
events of 9/11, the Commission, through the Homeland Security Policy 
Council, and more recently, the Enforcement Bureau's Office of Homeland 
Security, has worked to provide leadership to the industries the 
Commission regulates to evaluate and strengthen the Communications 
infrastructure. One of the most visible results of this effort is the 
Media Security and Reliability Council (known as MSRC), a Federal 
Advisory Committee created by the Commission in March 2002, and 
comprised of leaders from the radio, television, multi-channel video, 
public safety and disabled communities.
    In March 2004, the MSRC's Public Communications and Safety Working 
Group reported on the efficacy of EAS as a public warning mechanism. 
The Partnership for Public Warning (known as PPW), a not-for-profit, 
public-private partnership incorporated in January 2002, with the goal 
of promoting and enhancing effective, integrated dissemination of 
public warnings, provided another analysis. Both MSRC's Working Group 
and PPW advocate upgrading, not replacing, EAS. In particular, PPW 
asserts that any new public warning system design should take advantage 
of the existing EAS infrastructure and should be able to accommodate 
existing EAS equipment, noting that it would be difficult to replace or 
rebuild such a capability today at a reasonable cost.

RULEMAKING PROCEEDING
    Based in large part on the recommendations of the MSRC Working 
Group and PPW, the Commission, on August 4, 2004 adopted a Notice of 
Proposed Rulemaking (NRPM) to treat, in a comprehensive fashion, the 
efficacy of EAS and the role of EAS as part of an overall public alert 
and warning structure. The NPRM seeks comment on whether EAS as 
currently constituted is the most effective and efficient public 
warning system that best takes advantage of appropriate technological 
advances and best responds to the public's need to obtain timely 
emergency information. The NPRM also seeks comment on rules the 
Commission may adopt to enhance the effectiveness of EAS. The 
Commission encourages commenters to take into account MSRC's and PPW's 
recommendations.
    One of the central issues on which the Commission seeks comment is 
the current role of EAS in an age when the communications landscape has 
evolved from what it was when EAS predecessors--and EAS itself--were 
originally conceived. In the NPRM, the Commission also seeks comment on 
the future roles of the federal government departments and agencies 
involved in the implementation of EAS.
    The NPRM asks questions about the technical capabilities of EAS. 
New technologies, such as digital television, cellular technology, and 
personal digital assistants are rapidly redefining the communication 
and broadcast landscape, making available to the public warning 
technologies that are far more flexible and effective than the analog 
mechanism currently employed by EAS. Because EAS relies almost 
exclusively on delivery through analog radio and television broadcast 
stations and cable systems, the NPRM asks whether EAS is outdated, how 
it could be made more efficient, and whether it should it be phased out 
in favor of a new model. Further, the Notice queries: If a new model 
were to be adopted, what legal and practical barriers must be overcome 
to ensure its implementation and effectiveness? What technologies 
should serve as the basis for such a model? Alternatively, should EAS 
requirements be extended to other services, such as digital TV, digital 
audio broadcast, digital audio radio, or cellular telephones? The NPRM 
also seeks comment on security issues relevant to EAS and on the 
important question of how best to supply an effective public warning 
system to the disabled community and non-English speakers.
    The FCC already has begun--and will continue throughout this 
proceeding--to coordinate with DHS and its component, FEMA, and the 
Department of Commerce and its component, the National Oceanic and 
Atmospheric Administration's National Weather Service. We anticipate 
these federal partners will be active participants in the proceeding. 
In addition to seeking comments from all interested individuals and 
federal entities on the issues raised in the NPRM, we specifically seek 
the participation of state and local emergency planning organizations 
and solicit their views. Finally, we seek input from all 
telecommunications industries concerned about developing a more 
effective EAS. Comments are due October 29, 2004; reply comments are 
due November 29, 2004.

CONCLUSION
    As Chairman Powell noted in his statement the EAS NPRM is ``one of 
many vehicles by which we collectively explore the most effective 
mechanism for warning the American public of an emergency and the role 
of EAS as we move further into our digital future.'' We look forward to 
working with Congress, our colleagues at other Federal and State 
agencies, and the public to ensure that we can provide such a warning 
system to our citizens.
    The FCC is also aware that the Congress is taking an active 
interest in the issue of public alert and warning, and would welcome 
Congressional guidance in this area that would bring added certainty to 
the industry. The Commission stands ready to provide whatever technical 
assistance that the Congress would find helpful in this regard.
    I thank you, Mr. Chairman, for the opportunity to appear before you 
today. This concludes my testimony and I would be pleased to answer any 
questions you or the other members may have.

    Mr. Shadegg. Ms. Henning.

 STATEMENT OF KATHLEEN HENNING, CERTIFIED EMERGENCY MANAGEMENT 
       INTERNATIONAL ASSOCIATION OF EMERGENCY MANAGEMENT

    Ms. Henning. Thank you. Thank you, Chairman Shadegg, and 
Ranking Member Thompson and the distinguished members of the 
committee for allowing me the opportunity to testify on 
emergency warning for public responders and the public from the 
perspective of emergency managers.
    I am Kathleen Henning. I am President of K.G. Henning & 
Associates. I am a board certified emergency manager. I have 
recently retired from Montgomery County Maryland after 29 and a 
half years of service as the emergency manager; and I am here 
today to testify on behalf of the International Association of 
Emergency Managers, Daryl Spiewak, our President, and the 2,800 
city and county emergency managers that make up our 
association. I appreciate your holding this hearing on what is 
a very important issue to us, and I would like for my full 
statement to be made a part of the record.
    As they say, life is very short, and we should eat dessert 
first, so I am going to actually begin my statement with some 
of the things that I have put in my summary document.
    There is clearly a role for the media, for government, for 
private and public partnerships when it comes to emergency 
warning, and we need to employ a comprehensive system, but we 
also need to make sure that it is integrated and that it is 
coordinated with State and local officials. While there are 
sirens that may work for some communities around nuclear power 
plants or chemical facilities, sirens are not going to be very 
effective in other jurisdictions, in large communities with 
multi-hazards. Weather radios--the NOAA weather radios work 
very well in most of the country, but the problem is that the 
citizens are not really using these radios to the best 
advantage. We really need to have a concerted national effort 
to get these important tools into vulnerable institutions such 
as hospitals and nursing homes and our schools and essential 
government facilities.
    The EAS system clearly needs some work and has not been 
effectively utilized across the country. We need to have 
improved coordination with State and local officials, and we 
need to have mandatory capabilities for overriding and putting 
in emergency messages.
    We are also challenged by the mobility of our communities 
today. People move across jurisdictional lines. As responders, 
we have to go across jurisdictional lines. So it is very 
important that we take advantage of all the technologies that 
are out there--the cell phones, the telephones, the reverse 911 
systems, the automated notification systems, the blackberries 
and other technologies that are out there and must be made 
available on a 24/7 basis. We need to look at all of these 
systems, but the systems, in order to be effective, have to be 
reliable, effective, redundant, and appropriate to our 
community needs.
    Some of the things that we would like to emphasize in 
looking at these systems are to make sure that we use an all 
hazards approach and that we stay connected. After September 
11th, we as a community looked at homeland security issues. We 
need to stay connected with our Federal officials, need to stay 
connected with our State officials, need to stay connected with 
our local officials, need to stay connected, most importantly, 
with the clients we serve, who are the citizens. We have to not 
say ``what if'' but anticipate that there will be major 
disruptions to power and have systems that can work despite 
that.
    We are facing new challenges. I was part of the EOC that 
responded to the sniper attacks that affected Washington, D.C., 
and one of the things that was very important to us and that 
was successful was getting messages out to the schools to make 
sure that they could lock down quickly.
    We have already experienced the problems of bioterrorism, 
the anthrax attacks, for example. There were public health 
officials who couldn't talk to other public health officials 
directly across lines. And that is one of the areas, for 
example, where you are not going to be very effective if you 
are only using sound bites. You really are going to need to put 
out more detailed information to be able to share that 
information.
    I have mentioned the mobility of our citizens and that FEMA 
is asking us to look at warning issues through mutual aid 
agreements and other plans. I think we need to improve our 
public partnerships.
    The State Director of Emergency Management in Florida, 
Craig Fugate, said last year, you can purchase a lot of 
equipment, you can train your emergency managers, but if you 
can't reach the people at 3:00 in the morning, you are just not 
going to effectively improve the outcome. And that is what we 
need to do. We need to have a system that can reach our people 
24 hours a day and that is integrated with State and local 
officials.
    I want to thank you very much for the opportunity to come 
and testify today, and I am glad to answer any questions that 
you have at the end of our statements. Thank you very much.
    Mr. Shadegg. Thank you very much for your opening 
statement.
    [The statement of Ms. Henning follows:]

                 Prepared Statement of Kathleen Henning

Introduction
    Thank you Chairman Shadegg and Ranking Member Thompson, and 
distinguished members of the Committee for allowing me the opportunity 
to provide you with testimony on Emergency Warning Systems, and ways to 
notify the public from the perspective of the Emergency Management 
community.
    I am Kathleen Henning, President of K.G.Henning & Associates, a 
certified emergency manager, and retired Program Coordinator of 
Montgomery County, Maryland Office of Emergency Management. I retired 
last February as the Emergency Manager after 29 1/2 years of service to 
the County. I am here today representing IAEM President Daryl Spiewak 
of Waco, Texas, and the International Association of Emergency Managers 
(IAEM). Currently, I am a member of the IAEM Governmental Affairs 
Committee and I come before you today to represent the 2800 city and 
county emergency management professionals in the 50 states and the U.S. 
territories who are its core members. IAEM's members are responsible 
for emergency preparedness, mitigation, response and recovery 
activities and report to elected officials to ensure the public is 
warned in times of emergency. We appreciate your holding this hearing 
and focusing attention on this important issue.

All Hazards Approach
    The International Association of Emergency Managers takes the 
position that the focus for public alerts and warnings must maintain an 
All-Hazards Approach. We have all been reminded of the importance of 
warnings for hurricanes, floods, and tornadoes by Hurricanes Charley, 
Francis, and Ivan. IAEM President Daryl Spiewak, CEM, reminds us that 
in addition to dealing with these deadly and destructive storms, our 
emergency managers continue to deal with other all hazard issues such 
as extreme summer heat, wildland fires, power losses, early winter 
storms, hazardous materials events, transportation and utility 
disruptions, as well as terrorist threats and activities.

Need to Stay Connected
    In a post September 11th world, where citizen populations and 
public infrastructure may increasingly be targets for acts of violence, 
it is critically important to remain connected to both federal and 
local sources of information.
    Disruptions to power and utilities, whether from severe weather--or 
from threats to homeland security--require redundant emergency alert 
and warning systems.

New Era of Homeland Security
    Citizens are facing new challenges on the home front. During the 
Sniper Attacks in the National Capital Region, Montgomery County, 
Maryland, relied on a number of means to alert its citizens. The 
Emergency Operations Center was activated as information was collected 
and evaluated from Police and Fire officials. Especially important was 
the existing emergency management partnership with the schools which 
allowed rapid dissemination of alert information to school officials to 
warn elementary and secondary schools to lock down. Federal Bureau of 
Investigation officials and County Police held televised joint press 
conferences to ensure information was shared among agencies and 
consistent information was given to citizens. Citizens and government 
officials relied on the broadcast industry for detailed coverage of the 
unfolding event. In addition government officials used the media to 
convey warnings about potential suspects and important safety 
information. The Sniper Attacks demonstrated how coordination would be 
handled across jurisdictional lines.

Bioterrorist Event
    Similarly, in the event of a bioterrorist attack there would need 
to coordination among health officials and various governmental 
organizations. Quarantine and isolation measures might need to be 
quickly implemented to stop the rapid spread of diseases such as 
smallpox. Specific and detailed information would need to be promptly 
delivered to millions of individuals for certain public strategies such 
as quarantines to be effective.

Mobility and Interoperability Challenges
    Warning information is important not only to the individuals in 
harm's way, but also to their families, employers, and others who 
travel through the area. Our citizens are highly mobile and often move 
between jurisdictions. Information about what is happening in other 
jurisdictions is also important to local responders. The efforts of the 
Department of Homeland Security and the Federal Emergency Management 
Agency to increase the use of mutual aid agreements make it critically 
important that there be a broader and more rapid sharing of emergency 
information among the jurisdictions which may be involved. The need to 
maintain readiness without compromising our capability to respond to 
threats of terrorism means this information may need to be rapidly and 
effectively exchanged in a secure environment among emergency 
management organizations. Some communities have the capability to 
provide warnings to their citizens from a broad range of hazards. But 
statewide warning systems are often incomplete or non-existent. Part of 
the warning system must include the ability of counties and large 
cities to provide rapid information to smaller municipalities and 
townships where appropriate. We need to expand our capability to 
activate cell phones, pagers, Blackberries, and call telephones on a 
twenty-four hour basis. As noted before, it is time to look to new 
technologies to meet the needs of our citizens.

Tools of the Trade
    Local governments through their Offices of Emergency Management are 
accountable for warning the public of imminent danger and should have 
the tools to do the job. These tools vary and may include: partnerships 
with the National Weather Service and local broadcast stations; use of 
the Internet and World Wide Web access alert systems; automated 
notification systems; outdoor warning systems like sirens; and. when 
needed--door-to-door notifications by Police, Fire and other public 
safety officials. While sirens may work in some communities well versed 
in a single hazard such as a nuclear power plant, a chemical plant, or 
tornadoes, they are not effective for multiple hazards. A high degree 
of public awareness is vital to the success of sirens. It is time to 
look to new technologies to meet the needs of our citizens. Warning 
systems need to be reliable, effective, redundant, and appropriate to 
local needs with clearly devised messages. An integration of several 
systems is still the most effective overall strategy for warning 
systems.

NOAA Weather Radios and Vulnerable Groups
    IAEM supports the partnership of NWS and the Emergency Alerting 
System (EAS), but encourages improvements to the current system. NOAA 
Weather Radio remains the NWS's primary input to EAS. The NWS provides 
weather, hydrologic and climate forecasts and warnings for the United 
States and its territories. Because we are linked so closely together 
as a country, our economy is impacted by weather and events that happen 
across state lines and on opposite sides of the country, and as such, 
it is important to maintain this national information source. State and 
local authorities want the ability to input messages for all types of 
hazardous events on EAS and be able to remotely access the equipment at 
all hours of the day. Craig Fugate, Director of Emergency Management 
for the State of Florida has said ``You can purchase a lot of equipment 
and do a lot of training for first responders, but if you can't warn 
the public at 3:00AM, you haven't really improved the outcome of the 
event.'' To support state and local officials, there is an immediate 
need for mitigation and prevention funds to support the purchase of 
NOAA Weather Radios for elementary and secondary schools, vulnerable 
facilities, and for essential governmental buildings. Some communities 
have used FEMA mitigation funds to purchase radios for schools 
throughout their district while others, such as the State of Maryland, 
used the FEMA mitigation funds to provide radios for schools throughout 
the state. In Kansas City, Project Community Alert partnered with a 
major grocery chain to sell over 30,000 radios to the community and 
used mitigation funds for three Kansas and five Missouri counties to 
purchase the radios for high risk facilities. We would like to see 
these types of programs expanded with partnerships with private 
industry to encourage the use of NOAA radios in all schools, day cares, 
nursing homes, hospitals, public safety buildings, and general public 
facilities. A concerted national commitment is needed to expand the use 
of these radios in all occupied structures but especially in vulnerable 
institutions and essential government buildings.

NOAA for Homeland Security Events
    We would like to see the use of NOAA Weather Alert Radios as a 
major method of alerting the public on homeland security events. The 
Department of Homeland Security has been working with NOAA to designate 
them as a means of public warning and we would encourage the expansion 
and support of that project. Reaching vulnerable populations is 
critically important. NOAA radios provide the added protection of round 
the clock 24/7 immediate notice.

EAS
    Emergency Managers need a fast, reliable way to inject messages 
into the Emergency Alert System (EAS). At this time no single technical 
solution has been federally mandated or funded to do this. Local 
jurisdictions adopt warning systems customized to meet their own needs. 
Decentralization has resulted in a lack of standardization of messages 
and confusion in public awareness. But there can be benefits to 
multiple interfaces. For example, using multiple interfaces with the 
NWS's Weather Forecast Offices? Advanced Weather Interactive Processing 
System (AWIPS) provides redundancy if a primary system goes down due to 
hurricanes or other severe weather. Having multiple centers on 
different servers can also provide a degree of protection from computer 
viruses and hackers. Another issue for EAS is the need for improved 
coordination and integration with state and local resources. While 
Homeland Security would clearly dictate the need to activate the 
system, there are numerous smaller events that warrant its use. Without 
more frequent use and testing, the system's inadequacies will not be 
corrected for use with homeland security. Improvements are needed for 
Emergency Operations Center and Public Safety Dispatch center 
installations, as well as training of personnel on its use.

Internet Access
    Use of the Internet and World Wide Web is especially valuable in 
the preparedness phase of an emergency to advise citizens to update 
family emergency notification lists, restock disaster kits, and ensure 
special needs are handled. More importantly state and local emergency 
management and government websites provide specific and more detailed 
information customized for local needs. This includes evacuation and 
egress routes, site-specific data about environmental conditions, road 
closings, or hazardous conditions. The Internet provides access to 
Doppler Weather Radar, satellite imagery, and hazardous weather 
conditions critical to the safety of first responders, if the 
information can get to the responders in a timely fashion.

Media Role and Evacuations
    There is a role for media broadcasters, especially in helping to 
educate the public. A positive role is providing pre-event storm 
messages to the public on the differences in meaning from weather 
advisories, watches, and warnings. Similarly they can assist in 
encouraging preparedness measures. However, during emergencies it is 
critically important that the media carefully coordinate with local 
officials for announcements about protective actions. This coordination 
is vital to avoid confusing the public with contradictory messages on 
important issues. In addition, images of newscasters standing on 
beaches during high winds may send conflicting messages about the 
safety of seeking shelter or following evacuation orders. Studies have 
indicated that people consider a wide variety of factors in making 
their evacuation decision. According to a study by Dr. Kirstin Dow 
``the media--especially the Weather Channel--is viewed as the most 
reliable information source? and is highly influential in making 
evacuation decisions. This points out how important the partnership 
must be between the media and city and county officials who are issuing 
evacuation orders.

NWS IT Interface
    Among the diverse strategies available for warning is the National 
Weather Service's effort to implement a centralized point of collection 
for non-weather related emergency messages. These would be broadcast 
over existing NWS dissemination systems. The NWS is working on an All-
Hazards Emergency Message Collection System called HazCollect IT 
system, expected to be released in the fall of 2005. HazCollect will 
provide an IT interface between state and local systems such as EMnet 
and the NWS Advanced Weather Interactive Processing System (AWIPS) 
through FEMA's Disaster Management Interoperability Services.

Cable Access
    Due the changes in viewing habits, more and more citizens now watch 
cable and direct satellite programming, and it is equally important to 
reach this audience with EAS messages. In the past IAEM has objected to 
the practice of cable systems overriding broadcaster's programming of 
state and local Emergency Alert System messages. Mandatory messages 
would improve the early warning system.

Rural Communities
    A great many communities across this country are sparsely 
populated, rural, and with limited financial resources. Among the 
resources they lack is a full-time dedicated emergency management 
agency director and emergency alert systems capable of reaching 
isolated populations. IAEM supports increases to the Emergency 
Management Performance Grants (EMPG)--the only source of all hazard 
federal funding supporting state and local government emergency 
management personnel and organizations.

StormReady Program
    The International Association of Emergency Managers supports the 
NWS StormReady program, promoting adequate warning and alert systems, 
effective Emergency Operations Centers, and prompt dispatch of public 
safety resources. Encouraging communities to strive for StormReady 
designation is a partnership which will help communities be better 
prepared to save lives through emergency planning, effective warnings, 
education, and awareness of severe weather conditions.

FCC
    IAEM has not yet taken a position on the new regulations introduced 
by FCC last month, but our members are reviewing the proposals.

Research and Development
    There has always been a need for enhanced funding for research and 
development for public warning capability. We believe it has to be 
multi-faceted to be effective. We support research and development in 
the various phases and elements of warning systems, but we do not want 
it limited to promoting a single technology. Warnings need to be 
reliable, effective, redundant, and appropriate to local needs and 
flexible and adaptable to new technologies. We believe that having the 
ability to integrate several systems is still the most effective 
overall strategy, and research and development should look at the 
integration issues as well.

Summary
    There is clearly a role for the media, private sector, and 
government, but those roles need to be coordinated and integrated. 
While sirens may work in some areas, they would not be effective in 
many other areas. Weather radios work well in most areas, but their use 
by citizens is limited at best. A concerted national commitment is 
needed to expand the use of NOAA radios in all schools, hospitals, 
nursing homes, day and elder cares and other vulnerable institutions. 
The EAS system needs work and improved integration with state and local 
governmental entities. Today we are challenged by the mobility of our 
population that moves across jurisdictions for homes, work, and 
schools. We need to expand our capability to activate cell phones, 
pagers, Blackberries, and call telephones on a twenty-four hour basis. 
As noted before, it is time to look to new technologies to meet the 
needs of our citizens. Warning systems need to be reliable, effective, 
redundant, and appropriate to local needs with clearly devised 
messages. IAEM supports an integration of several systems, in 
coordination with state and local governments and organizations, as the 
most effective overall strategy for warning systems.
    Thank you again for the opportunity to participate in this 
important hearing. I would be pleased to answer any question you have 
and are available for any questions that you may have regarding this 
presentation.

    Mr. Shadegg. Mr. Hoover, let me begin with you.
    I don't know if you referred to all of these, but I 
understand FEMA has four pilot projects going on. I know you 
mentioned the digital EAS pilot project in the Capitol region 
with public television. There are three others, as I 
understand: the Integrated Public Alert and Warning System 
study, some $350,000; the EAS primary entry point satellite 
network upgrade; and the Geo-Targeted Telephone Alert and 
Warning System.
    For consumers of this kind of information, how soon can we 
expect these pilot projects to take us to the next step, that 
is, the implementation of an improved warning system? As the 
Ranking Member said, we are still dealing with somewhat of an 
outdated, outmoded system, and it seems to me the American 
people deserve to know not only that we are making progress but 
what the time line for that progress is.
    Mr. Hoover. Thank you, Mr. Chairman, for that question. And 
we are making great progress, and I think you summed up 
actually the four projects that we are doing.
    There are two very critical things going on at the same 
time. The first is this digital pilot that we are doing with 
public television here in the National Capital Region. That is 
a 6-month pilot; and we expect that the success of that pilot 
will then be able to take it nationwide. So within the next 6 
months we ought to be looking at is that system working to 
provide us the digital backbone that the APTS has offered to 
the Federal Government and to the Department of Homeland 
Security basically free of charge to be good partners with us 
in Homeland Security. That can then form the backbone of a 
national digital system that is interoperable.
    The other piece that is going on and is one of the findings 
that the MSRC and also PPW, Partnership for Public Warning, 
came up with was that we needed to improve and enhance the 
current EAS system, that is, those 34 primary entry point 
stations that I mentioned in my remarks. All of those folks 
have said we don't need to create a new system, we need to 
upgrade what we are doing. So with one of the four projects 
that you mentioned is to start the upgrade from the dial-up 
capability that we have now to a satellite-based system, and we 
believe we will have that in place by the end of next year.
    Mr. Shadegg. You mentioned in your testimony reverse 911. 
Can you explain reverse 911 for the committee and the public?
    Mr. Hoover. No.
    Mr. Shadegg. That was the answer my staff gave me when I 
asked that.
    Mr. Hoover. Mr. Chairman, my understanding of the reverse 
911, it builds on the capability to dial back to you from your 
home, from your home phone number, similar to the caller ID. 
And with my technical folks, maybe we can get you a much better 
explanation.
    But the specifics of what we are doing with this geo-
targeting capability takes the reverse 911 capability kind of 
to the next level that we have--they have basically geo-coded 
down to the individual household and business all of the phone 
numbers in the area, and so we will be able to pinpoint 
exactly, using plume modeling or any other model that is out 
there, a telephone call back to somebody and give them a 
particular warning or alert message. So we are very excited 
about the technology that has already been proven and NOAA has 
been demonstrating--I think in Houston is where they have used 
it--and now we want to take that and try to integrate that into 
the overall structure of the Integrated Public Alert and 
Warning System.
    Mr. Shadegg. AMBER alert has appeared to demonstrate pretty 
stunning success so far. There have been 150 children 
successfully recovered. Is AMBER alert the model for the future 
in terms of these warning systems, or are there things that 
should be taken from AMBER alert and expanded beyond that?
    Mr. Hoover. I think the second part of your answer, Mr. 
Chairman. AMBER alert is certainly one solution set that is out 
there. And what we need, and I think the members have pointed 
out, is we need to have a common alerting protocol so that as 
whatever the messages are that are common across the board from 
the State, from the local, and from the Federal Government as 
we use the system, the model that the AMBER alert folks have 
put forward, and certainly your State in Arizona with the AMBER 
alert portal, certainly seems to be something we are interested 
in; and we want to try to integrate a portal-like look to the 
digital pilot that we are doing here in the National Capital 
Region.
    Mr. Shadegg. Mr. Dailey, is your role limited to setting up 
the structure or are you active participants in creating the 
system? And I guess I am thinking of specifically the ability 
to use pagers, the ability to use this kind of a device for 
notification, the ability to use cell phones for notification.
    Mr. Dailey. We have multiple roles. The current system that 
is mandated for the Presidential delivery is in the FCC rules. 
The broadcasters must participate. They must install the 
equipment. We inspect the broadcast stations on a random basis 
to make sure the equipment is there and functional so that it 
can be used by the President when needed. And, as you said, it 
has never been used for that function. So when not used by the 
President, it can be used on a voluntary basis. But the 
equipment, the infrastructure is there.
    So the questions that we ask in our Notice of Proposed 
Rulemaking is, fundamentally, what do we need to do to mandate 
or should we mandate participation in alert and warning at 
various levels or can the marketplace forces and the community 
forces be sufficient to provide an appropriate alert and 
warning system?
    Because we are really talking about several layers of alert 
and warning. We have the Presidential or national alert warning 
or, for the command structure of the country, a system whereby 
the Secretary of the Department of Homeland Security can 
address the Nation. Then you want an alert and warning system 
that permits the governor the same option, and you want a 
system that permits the mayor or the county emergency manager 
or the county executive director to have that same option. So 
you are talking about a layered system, and how we would 
implement that and whether it needs to be mandated or not is 
really the broad question.
    Mr. Shadegg. Ms. Henning, although my time has expired, I 
will try to get you in the second round. You are the consumer 
on this panel who can tell us how these other gentlemen are 
doing their jobs.
    I would now call on Mr. Thompson, the Ranking Member, for 
his questions.
    Mr. Thompson. Thank you, Mr. Chairman.
    And I would--Mr. Hoover, Mr. Dailey, you can choose which 
one would want to go first, but since a lot of what we are 
talking about came about because of 9/11, can you tell me why 
we didn't have a Presidential alert on 9/11?
    Mr. Hoover. The current EAS system was designed during the 
Cold War; and I think, as one of the members pointed out, in 
the 1950s it was designed to warn the Nation of an impending 
nuclear strike on the country. It was designed to put the 
President on a nationwide message to the country to tell them, 
you know, that missiles are inbound or perhaps the missiles 
have already struck and give critical information to the Nation 
in time of emergency.
    This September 11th attack--and I was not in the government 
at the time. But the September 11th attack was not something 
that the system was necessarily designed to use at the national 
level but certainly could have been used at the State and local 
level. There are provisions, as Mr. Dailey pointed out, for 
State and local emergency managers to activate and use the 
system, as well as the State governors could use the system if 
they wanted to.
    Mr. Thompson. Well, you know, some of us were directly 
involved in it; and we saw no warning of any kind. And if 
members of Congress didn't get any warning, you know, the 
public is assuming that this system should work. And I guess 
the question been answered.
    The other part is, how many people actually got notified by 
our emergency warning system on 9/11?
    Mr. Hoover. Mr. Thompson, I don't know the answer to that, 
but we can try to find the answer for you.
    Mr. Thompson. Well, then I will take it another step. How 
many could potentially have been warned under the existing 
system?
    Mr. Hoover. Mr. Thompson, under the existing system we 
believe that we can reach at least 95 percent of the Nation.
    Mr. Thompson. At 9/11.
    Mr. Hoover. At 9/11, when the system that we currently 
have, which is the system that we had in place on 9/11, the 
system is designed through the 34 primary entry point stations 
to reach 95 percent of the American public.
    Mr. Thompson. But it is your testimony today that we didn't 
use it.
    Mr. Hoover. That is correct. We did not use it on September 
11th at the national level.
    Mr. Thompson. Well, that is kind of startling to have it 
and not use it, and the public would assume--but we will go 
forward. I understand that we put a working group together to 
start looking at some of these issues around our emergency 
warning system, and the White House report recommended that 
this group be put together to do a single, consistent, easily 
understood terminology, biohazards and situations. Had we put 
that group together?
    Mr. Hoover. I am not sure which group you are referring to, 
but there have been a number of groups. The FCC has put 
together a Media Security and Reliability Council that we have 
been a part of to look at all of the issues surrounding 
improving the EAS. And perhaps Mr. Dailey can talk a little bit 
more on that.
    I can tell you, from our perspective, we have brought 
together members of the State and local government, we have met 
with members of the media and our other partners within the 
government, NOAA and IAIP, to develop what we believe is a very 
useful and great potential solution to improving the current 
state of the--
    Mr. Thompson. Well, the specific report was a White House 
report issued in 2000 that recommended a working group be 
established. And my question is whether or not, to your 
knowledge, was it ever established?
    Mr. Hoover. No, I don't think so. But I will go back, and 
we can check back on that.
    Mr. Thompson. Okay. The report was entitled Effective 
Disaster Warnings, and it was quite clear that certain things 
ought to be handled.
    The other issue speaks to the same White House report, 
recommended that warnings should be delivered through as many 
communication channels as practical so that the users who had 
risks, inside or outside, at work, home, school, or shopping, 
or in transportation--have we done that today?
    Mr. Hoover. Yes, sir, we have. We are moving forward with 
funding that was provided in the President's 2004 budget that 
was $10 million dollars to IAIP. We have now developed the 
capability to do that. We have not deployed that capability, 
and we believe that using the digital backbone that the public 
television service stations are offering to us, that we will be 
able to do it.
    Mr. Thompson. Just to follow up. How far are we from having 
the system?
    Mr. Hoover. We are within weeks of deploying a digital EAS 
capability here in the National Capital Region, which will then 
be able to reach the re-transmission medium. And I should point 
out that we have also engaged the cell phone service providers 
to be involved in that project so that we can not only talk to 
folks or send messages out over the TV and radio but also call 
you on your cell phone, your pager, your PDA.
    Mr. Thompson. I understand. Capital Region. But what about 
Mr. Cox in California?
    Mr. Hoover. Mr. Cox in California does not yet have the 
capability that we have--we are going to demonstrate here in 
the National Capital Region. We believe that it will be 
successful and that by the end of next year we will be able to 
take that digital backbone and go nationwide with it.
    Mr. Shadegg. By unanimous consent, the Ranking Member of 
the full committee was to be afforded an opportunity to make an 
opening statement. He has now arrived.
    Mr. Turner, would you like to make any opening comments?
    Mr. Turner. I am fine. Thank you, Mr. Chairman.
    Mr. Shadegg. The Chair would call upon the chairman of the 
full committee, Mr. Cox, for questions.
    Mr. Cox. Thank you.
    I would just like to continue with Mr. Thompson's inquiry. 
The digital capability that we are exploring is aimed in the 
pilot project here in Washington at cell phones?
    Mr. Hoover. Yes. Mr. Cox, what we are doing with the 
Association for Public Television Stations and the public and 
the digital capability that they are offering us is we are 
trying to have an open architecture, non-proprietary system 
that will be interoperable with State and local government and 
other systems that States have already invested in.
    Mr. Cox. Did you say 60 days is the length of the pilot?
    Mr. Hoover. The pilot? Six months.
    Mr. Cox. Six months. And will you demonstrate within a 6-
month period cell phone capability?
    Mr. Hoover. Yes. We have been in active discussions with T-
Mobile, with Verizon and Nextel to be involved in and engaged 
in the pilot project with us.
    Mr. Cox. And do you know what happens if I am on a call?
    Mr. Hoover. I do not.
    Mr. Cox. Is this digital capability going to reach e-mail 
devices?
    Mr. Hoover. Yes.
    Mr. Cox. And will the capability be demonstrated, for 
example, on a Blackberry or on e-mail-equipped cell phones?
    Mr. Hoover. Yes. And I should point out as well, we have 
been in discussion with the Weather Channel, which has been a 
great partner with FEMA over the years, in using some of their 
capability. Because they also have that capability and have 
demonstrated a nationwide capability to alert you on your cell 
phone, on your pager, on your telephone of weather warnings in 
your area. That is a subscription service, and we are very 
interested in--next month in October--meeting with the Weather 
Channel as a follow-up to integrate them into this as well.
    Mr. Cox. How does the digital backbone open architecture 
pilot address Ms. Henning's main point, that you have got to 
reach people at 3:00 in the morning when they are asleep?
    Mr. Hoover. Well, that is certainly one of the challenges. 
And there are manufacturers that we are aware of that have 
developed some capability--maybe Mr. Dailey can address that--
where that will turn on your television or turn on your radio 
or shake the bed. And there is other technologies.
    Mr. Cox. I was trying to make this an easy question. Most 
people in America have telephones. Isn't that the good news?
    Mr. Hoover. Yes, sir.
    Mr. Cox. Can't we just call them?
    Mr. Hoover. We can. And that is the reverse 911, that geo-
targeting technology.
    Mr. Cox. Is that going to be part of this demonstration?
    Mr. Hoover. Yes, it is.
    Mr. Cox. So somebody can get a call at 3:00 in the morning 
as part of this pilot?
    Mr. Hoover. Potentially, yes, sir.
    Mr. Cox. Hopefully not potentially, or we haven't 
demonstrated much.
    Now, on the existing system that was designed for the 
President, my understanding is that legally, even though other 
people can use this system, only the President can make it 
mandatory. Is that right?
    Mr. Hoover. Yes, that is correct. The Presidential message 
is the only mandatory message that is required to be carried 
over the system. But there are four priority messages. The 
State governor has the capability to send a message as well. 
But the Presidential message will always take priority.
    Mr. Cox. When the governor decides to send a message, does 
that also--is that also command and control? So it is not 
discretionary for broadcasters?
    Mr. Hoover. It is discretionary. Only the President's 
message is a mandatory message.
    Mr. Cox. I am just now thinking about a real emergency; and 
if the ability to command the system is limited to the 
President or his constitutionally designated successor and 
there is something that happened to the President or the 
President just happens to be carried someplace where he can't 
access this, then we can't use it.
    It is also limited to only 2 minutes. Isn't that right?
    Mr. Hoover. No, the Presidential message, Mr. Cox, is an 
unlimited message, and we do have the capability to reach 
either the President or the statutory successor President from 
anyplace to get that system activated.
    Mr. Cox. Well, provided there is nothing wrong with him.
    Mr. Hoover. Provided there is nothing wrong with the 
President?
    Mr. Cox. I mean, what you have got to operate here is 
either the statutory succession process or you have got to have 
the President constitutionally disabled. But anything short of 
that and just that system is not going to work.
    What I want to ask you is how much of that is a regulation 
and how much of that can we clarify through executive action 
and how much of it needs to be fixed by Congress?
    Mr. Hoover. I would defer to Mr. Dailey to answer that 
question.
    Mr. Dailey. The short answer is I don't know. The basis of 
the Emergency Alert System is a Presidential statement of 
requirements that has been renewed over the years in which the 
President requests to have the capability to address the public 
within 10 minutes, and so the system is designed to do that. 
Whether or not it will take legislation or changes in the 
Presidential statement requirements to implement a more 
enhanced or expanded service--
    Mr. Cox. If you can get back to us, that is fine.
    Mr. Dailey. Okay.
    Mr. Cox. Now, the system is capable of being used 
regionally. Under existing law and regulations, can the 
President decide to use it regionally? Can we have a mandatory 
use of the system that does not operate nationwide?
    Mr. Hoover. I don't know the mechanics of that, Mr. Cox, 
but we can find the answer--and maybe you do. I don't know, if 
we turn it on at the national level, if that automatically 
every station has to carry or if it can be regionalized.
    Mr. Cox. My time has expired. I appreciate your answer and 
look forward to the follow-up information.
    Mr. Chairman, I think it is very important that the 
President not be the only person in extremis who might be able 
to issue these warnings, that there ought to be a process that 
the President is comfortable with for this to operate without 
interruption.
    I also think it is very important, as we have found in so 
many other hearings in this committee, that such a system be 
able to operate regionally and that it not be a discretionary 
system in that situation.
    Mr. Shadegg. I think the regional operation is very, very 
important.
    Mr. Hoover, you mentioned the ability to remotely turn on 
the television, and you actually touched on a topic that is 
very sensitive. Whenever I want to reach my wife, she has her 
cell phone off. And I have warned her that I am going to invent 
a cell phone that I can turn on remotely so that when I need to 
reach her I can remotely turn on her cell phone and reach her. 
And, apparently, somebody is already working on that, so I need 
to talk to those people.
    Mr. Hoover. Mr. Chairman, if I may, my technical folks and 
the guy that really runs the system tells me that the signal 
can be--the EAS message can be regionalized when we turn it on.
    Mr. Shadegg. I think most husbands in America would buy 
this cell phone and give it to their wives to turn it on 
remotely, because I am not the only husband who has this 
problem.
    The Chair would call on the gentleman from North Carolina, 
Mr. Etheridge, for questions.
    Mr. Etheridge. Thank you, Mr. Chairman. I am not going to 
turn the test the cell phone, turning it off or on. I have 
enough trouble keeping mine off.
    Thank you, and thank you all for being here.
    Let me follow up on some of the questioning as it relates 
to notification. Because we had a system in the 1950s that 
hasn't been upgraded. It is quite obvious you wouldn't want to 
drive a car--there aren't many on the road--built in the 1950s, 
truthfully. My question is this. Because, as we deal with--our 
country has changed dramatically since the 1950s. Languages 
have changed, the ability to--are we looking at how we can send 
this signal out in more than English, especially regionally, 
where areas are changing dramatically in terms of patterns of 
language?
    Mr. Dailey. Yes, sir. That is one of the questions 
specifically that we ask in our Notice of Proposed Rulemaking, 
is how we can address that.
    Mr. Etheridge. Is that now being done currently, in the 
current warning system?
    Mr. Dailey. In the current warning system, the broadcast 
stations--our rules permit them to broadcast alerts and 
warnings in the primary language of the station. So we--
previously, it was--the anticipation was that everything would 
be done in English. But we changed our rules years ago to 
permit a primarily Spanish language station--to permit it to 
carry its warnings in Spanish for its constituents.
    Mr. Etheridge. Well, it seems to me, having had a radio 
station at one time, it is very simple just to say to them when 
they send the message out, because it is broadcast by the 
Federal Government on emergencies--it seems to me to be a very 
simple matter. When you send it in English, repeat it in 
Spanish. That doesn't cost any money, right?
    Mr. Dailey. Well, there has to be the capability to do that 
conversion, which costs--I mean, you are talking about the 
staff time to do it.
    Mr. Etheridge. No, you misunderstand it. When you send it 
out to the radio and media markets, when you send one signal 
and you turn that signal on, the signal can be in English and 
it can be in Spanish, if that be the language that is 
predominant. That is not a problem, right?
    Mr. Dailey. That is correct.
    Mr. Etheridge. So why aren't we doing it?
    Mr. Dailey. The primary alert warning system input is 
spoken language, and so the simultaneous translation becomes 
the technology issue.
    Mr. Etheridge. That was not the issue. You can give it in 
English, and then you can give it in Spanish. It seems to me 
that is pretty simple. Would you agree?
    Mr. Dailey. Yes, sir.
    Mr. Etheridge. Who do we need to contact to get that done?
    Mr. Dailey. I think we have to talk to the Emergency 
Management Association. Ms. Henning may be able to comment on 
that. Because the people who have the information and who have 
the alert and warning are the people who can make that 
conversion, control the content.
    Mr. Etheridge. We are talking about apples and oranges 
here. What I am talking about, when the message comes out to 
the radio stations, the TV stations, the other media activate--
it is activated somewhere. You test it on a monthly basis.
    Mr. Dailey. Yes.
    Mr. Etheridge. It seems to me it is very simple. When they 
read it, we could read it in English, and then we could read it 
in Spanish. Could someone help me with that? I mean, I really 
don't understand why that can't be done, because I have been on 
the receiving end when it was activated.
    Mr. Cox. Would the gentleman yield? I have a question.
    If these are interruptions to normal programming, isn't it 
a fair assumption that somebody who doesn't speak Chinese isn't 
listening to a Chinese language station, or somebody who 
doesn't speak Spanish isn't listening to that Spanish language 
station? So that the approach, Mr. Dailey, I thought I heard 
you say you were taking already, would make more sense, which 
is that those messages get broadcast in the language that the 
person was just listening to before you interrupted.
    Mr. Etheridge. Reclaiming my time.
    Mr. Chairman, I can agree with that. But when you are 
watching TV, in many cases--TV is a different medium than 
radio, because I would assume it would be on radio. But, on TV, 
that may be the only one you have. And it is a very simple 
matter, I think, to add it; and I hope you will check into that 
and get back to me in writing. I will settle for that.
    Ms. Henning, let me ask you a question. Because when the 
Montgomery, Maryland, emergency problems were going on as it 
was with the sniper, you were there and involved in that. Let 
me give a couple questions and give you a chance to respond 
before my time runs out.
    During the attack, would you describe some of the obstacles 
you had to overcome to get fast, accurate information to the 
schools and to the parents? Because the whole community was 
involved, but this was a group that was really on the edge. And 
what did you do to overcome them?
    And, secondly, what recommendations do you have to counties 
and municipalities to change the communication you are sending 
out that would really help make a difference? I think this is 
one of those areas we tend to forget sometimes, and you have a 
lot of people in an area that really don't get the information.
    Ms. Henning. Thank you, sir.
    On that day, it was a very difficult and very challenging 
situation. The information came very quickly into our 911 
center, and so we were able to put it out to the emergency fire 
department, to police, and other public safety agencies into 
the emergency operation center and through networks out to the 
schools, so that the schools and the administrators were 
getting the information.
    But when you begin to talk about the information out to the 
public, that was an entirely different issue. We were not able 
to use the Emergency Alert System. It was not set up. The 
equipment was not in full operation at the time. We made calls 
from our public information office immediately to the broadcast 
industries who started putting the information out, and we got 
scrolls across the TV, and then the story was picked up. We 
were able to utilize the ability of having frequent press 
conferences to get the information out to the public and to 
advise the public to take the protective measures.
    It would have been extremely helpful had we had the ability 
to put information out to pagers PDA devices cell phones, and 
others devices, but we didn't have that capability coming out 
of our 911 center, and we had to rely on what was going on in 
the standard broadcast industry. It also meant that people who 
were watching on the cable stations or who had the satellite TV 
were not getting those messages, because a lot of that was not 
being put out. So one of the things that we look for as State 
and local emergency managers is to have the mandatory messaging 
that will go out on a broad spectrum of media to help us out.
    Mr. Shadegg. The time of the gentleman has expired.
    The Chair would now call on the gentleman from 
Pennsylvania, Mr. Weldon, for questions.
    Mr. Weldon. I thank the Chairman.
    I am going to take a different approach to my line of 
questions, because the focus by my colleagues is on the 
emergency warnings to public, and my line is going to deal with 
two specific initiatives that have caused me a great deal of 
frustration over the past dozen years that go to the first 
responder community and then directly to the public.
    The first deals with forest fires in America, a major 
concern to our homeland. We spend a billion dollars a year in 
responding to wild lands and forest fires--on average, we spend 
$3 to $5 billion--and we lose the--loss of life, both 
civilians, significant property, as well as to firefighters 
themselves.
    It was 8 years ago when I chaired the Defense R&D 
Subcommittee that I led the reallocation of money to create a 
program that used our classified and unclassified satellites 
that are used to detect rocket launches to detect the immediate 
start of a wild land forest fire the size of a quarter of an 
acre. That program developed and was tested and became known as 
FIRESAT. The Raytheon Corporation became a prime contractor. It 
involved multi-agencies: Geological Survey, the Forestry 
Service, Interior, NOAA.
    In 2000, after the test was done on the program, the 
Geological Survey abandoned the program for lack of funds. 
America is still burning each year, billions of dollars going 
up in smoke, requests for emergency appropriation measures 
after the fact when, for a few million dollars, we could have 
done the refined software to put the program in place.
    I went to Joe Allbaugh when he headed FEMA 2 years ago and 
said, Joe, NOAA is not moving on this. Neither is the 
geological survey. He said, transfer the program to FEMA. I did 
that legislatively. FEMA, despite tremendous opposition from 
NOAA, took over the FIRESAT program.
    Today, to my understanding, we still do not have the 
program that was first designed 8 years ago to detect the start 
of forest and wild lands fires which cost the taxpayers of this 
country between $3 and $5 billion a year. My understanding 
further is the software is sitting in boxes in Crystal City in 
Raytheon's offices.
    So my question to all of you and the second panel--and I 
may not be here for that panel. I have, Mr. Chairman, the 20-
some page brief on this program which I will enter into the 
record discussing both the strengths and the reforms necessary.
    [Information is in the committee file.]
    Mr. Weldon. If we are really concerned about notification 
of emergency response, why have we still not put into place a 
program that we have tested, that we know works, to give that 
information when a satellite detects a fire the size of a 
quarter of an acre to the first responder community to go put 
it out and save the taxpayers billions of dollars? Why has that 
not been done? Because a secondary benefit of that is, when you 
notify the responder community, you could also notify the 
public in that area. They can evacuate their homes. So it has a 
secondary benefit.
    My frustration is we talk a good game in this city, but 
when it comes down to the substance of putting programs in 
place, it just falls apart. It is like sand. It goes through a 
screen, and no one wants to be held accountable for it. So that 
is my first question.
    The second one results from an experience I had with an 
earthquake about 12 years ago, walking the freeway with the 
chiefs of San Francisco and Oakland, and they were looking for 
people that were allegedly still caught in cars and vehicles 
between the freeways, and they were talking about the use of 
dogs to detect people that were alive. And I said, why aren't 
you using thermal imagers that you could shoot through the 
crevices of the freeways? And the chiefs of Oakland and San 
Francisco said to me, Congressman, what are thermal imagers? I 
said, well, the Navy developed them 15 years ago to use to 
detect bodies on our ships. Now they are in every fire 
department in America. The chiefs of two of our largest 
departments in America weren't even aware that technology 
existed. So I came back and introduced legislation 12 years ago 
to have FEMA create a program to give the incident command 
officer a computerized ability to let the State and Federal 
agency network know what needs he had or she had on the scene.
    Chief Morris could have used that in Oklahoma city when he 
came and faced an exposed rebar concrete structure, had a 
massive rescue and didn't know where to go to get the engineers 
to assist him.
    To my knowledge, we still do not have a computerized 
inventory that an incident commander on the scene of a disaster 
can punch into with a PalmPilot or a laptop at the scene to 
know where to go to get some kind of specialized equipment or 
resources or consultation, that he doesn't know where to go.
    So my question in both of these cases is this: Why haven't 
we followed through on either of these and why aren't they in 
place today? And I am not aiming this at this administration, 
because the previous administration was just as derelict.
    Mr. Hoover. Mr. Weldon, I think the only thing I can say to 
you is I am familiar with the FIRESAT initiative. I was Chief 
of Staff to Director Allbaugh when you came over and offered 
that to us.
    With regard to the thermal imaging, you know, I don't think 
I have an answer for you on that one.
    Mr. Weldon. Well, it is not just thermal imaging. It is any 
kind of technology.
    Well, what is the status of FIRESAT?
    Mr. Hoover. I don't know. That is not something I deal with 
anymore. And what I would like to tell you is that, with plume 
modeling capabilities, with digital EAS and alert and warning 
capabilities that we have and the reverse 911 technology, using 
this geo-targeting, we think we can use that technology to warn 
homeowners of impending wild land fires.
    Mr. Weldon. Mr. Chairman, with all due respect, the plume 
modeling program was developed by Lawrence Livermore 
Laboratories. I have seen it 8 years ago. Other labs have done 
the same. You can't do plume modeling until you know where the 
incident is. The plume modeling is helpful for the first 
responder and for the incident commander, but the most 
important thing is not to know where it is going to go, it is 
to know when it starts. And that is a whole different topic. 
What good is a plume model if you don't know where the fire is 
when it occurs?
    And so my answer, Mr. Chairman, is this subcommittee and 
this committee ought to be holding the FEMA and the Homeland 
Security agency accountable. We have the technology. It has 
been developed. It has been tested. I put the document in the 
record. And my question is, we are spending billions of dollars 
after the fact and paying for these incidents. Why aren't we 
providing a couple of million dollars to put into place in 
front? Which is what Joe Allbaugh wanted to do when he headed 
up FEMA. Thank you.
    Mr. Shadegg. The time of the gentleman has expired.
    The Chair would call upon the Ranking Member of the full 
committee, Mr. Turner, for questions.
    Mr. Turner. Thank you, Mr. Chairman.
    Let me ask both Mr. Dailey and Mr. Hoover to give us a 
description of how much money is being applied in your agencies 
to carrying out the paths that we are talking about here today. 
What number of personnel, what kind of budget do you have, and 
how much are you going to accomplish in fiscal year 2005?
    Mr. Hoover. Mr. Chairman, within our office, within FEMA, 
we are the program office for EAS, for the national level EAS. 
I have a division that is--one of their primary functions is 
the upgrade of the EAS and the PEP stations. We are using--
currently, we have allocated just over $4 million for several 
projects that Chairman Shadegg outlined to upgrade and improve 
the EAS system as well as, as I mentioned in my testimony, the 
IPAWS, the Integrated Public Alert and Warning System. There is 
an additional $2 million that is in the President's 2005 budget 
that is specifically earmarked for EAS upgrades. And I am not 
sure what IAIP additional funding they in the 2005 budget for 
alert and warning, but I understand there is some funding 
there, and we can get you those numbers.
    Mr. Dailey. Mr. Turner, as the regulatory agency we do not 
do grant programs and we do not supply equipment, so there is 
no specific funding for EAS enhancement. My office is a staff 
of 18 people. One of our primary responsibilities is the EAS 
program management, and so we are responsible for the rules and 
regulations implementing EAS, but we have no particular grant 
programs or any funding sources for implementation of EAS.
    Mr. Turner. I was looking at a survey that was done by this 
Media Security and Reliability Council, and I thought it was 
interesting because the results of the survey seem to indicate 
that our State activities in conveying the emergency messages 
doesn't seem to work very well. I was reading a comment by the 
State of New York State Communications Committee and they said 
that when a test is done of the EAS system, that the message, 
and I am quoting here, the message never made it more than 50 
to 70 miles from Albany. Encoders were set incorrectly. The 
control room was not manned. Broadcasters just weren't passing 
the message along. The tests at the local level don't indicate 
success at the State level. In theory there is a statewide 
system, but in reality there is not.
    Do you think that is a fair comment, Mr. Hoover?
    Mr. Hoover. I think there are issues regarding the 
reception capability of the EAS and I think we have known that 
for some time, and we are now correcting that as we move from a 
dial-up capability to satellite capability. And what we are 
also doing is we are expanding the 34 primary entry point 
stations so that there is a PEP station in every State, and we 
would also like to expand it to having an entry point at the 
emergency operation centers in all the States and Territories 
as well.
    Mr. Turner. But where are you going to get the funding to 
do that? The budget numbers you shared with me, I believe you 
said $4 million, doesn't seem like anywhere near the funding 
necessary to accomplish what you just described.
    Mr. Hoover. Well, for example, Mr. Turner, the upgrade to 
the existing 34 primary entry point stations to a satellite 
system is only costing us just over a million dollars, and that 
is part of that initial $4 million. And as I mentioned, there 
is another $2 million in the President's budget to continue 
that upgrade, and we think we can do that with that $2 million 
as well as the additional funding that IAIP has.
    Mr. Turner. So you are saying that you can accomplish 
everything you think we need to accomplish within the budget 
that you have for 2005?
    Mr. Hoover. Yes, I sure do.
    Mr. Turner. And the system will be up and running?
    Mr. Hoover. I would hope to have it up and running by the 
end of 2005, and I think the key there is we are not building 
any brand new infrastructure. We are building out, we are 
improving and upgrading existing infrastructure, whether it is 
EAS or using the digital backbone that public television is 
offering us. So we are not having to build from scratch an 
infrastructure. And once we get the signal in a digital format 
into satellite the reception capabilities, and I am not a 
technical guy, but the reception capabilities are endless for a 
very small amount of investments.
    Mr. Turner. I might ask, Ms. Henning, if you would comment 
on the report that I referenced, and the quote I read from the 
New York State Emergency Communications Committee.
    Ms. Henning. Thank you, Congressman. In fact, tomorrow, as 
I understand it, New York is having a press conference to talk 
about EAS. I haven't had a chance to talk with the director 
about the subject on that, but I understand that they have some 
concerns. One of the things that we are most concerned about is 
for the equipment to be able to reach out to all the various 
areas, to urban and rural areas. And once we have the 
capability and FEMA does provide the installation, there must 
be training of the personnel for this, and there must be a very 
simple installation process. Am I answering the question, 
Congressman?
    Mr. Turner. I mean are you saying there is needs at the 
local level in order to implement this?
    Ms. Henning. Absolutely, it is not going to end simply by 
providing this equipment to the States. In order for this to 
work to effectively, for the State to be able to talk to the 
counties, to be able to talk to the cities, we are going to 
have to look at improvements to the emergency operations 
centers and the equipment that is there, and that means a 
follow-up not only to the installation, but to providing the 
training and other needs.
    Mr. Shadegg. The time of the gentleman has expired.
    Mr. Turner. Thank you.
    Mr. Shadegg. Having made it just under the wire to question 
this panel, the Chair would now call upon the gentlelady from 
New York, Ms. Lowey.
    Mrs. Lowey. And thank you, Mr. Chairman. I do apologize to 
the panel for being delayed in another important event.
    In its February 2004 report on emergency alert systems the 
Partnership for Public Warning noted that no government agency 
is in charge of the current EAS and recommended that the 
Department of Homeland Security take the lead in creating an 
effective national warning capability. Now, I am a New Yorker. 
It is 3 years after 9/11, 3 years after 9/11 and we are still 
asking these questions.
    Why hasn't the Department played a greater role in 
coordinating and advancing efforts to create a working and 
useable national alert system? What is the Department in 
conjunction with other relevant Federal agencies and 
stakeholders doing to encourage the creation or updating of 
State and local EAS plans? And what kind of enforcement exists 
at the Federal level to ensure the development of State and 
local EAS plans? Are there any Federal guidelines or standards 
that exist to help State and local governments develop these 
plans?
    I must say, if my question is asked with a wide eyed glaze, 
it is because I find this, as many other issues, extraordinary, 
and my neighbors are absolutely concerned. They are worried. In 
fact the messages from the administration are, as you know, 
this could happen again, it could happen any day. We were lucky 
that we got by the convention in New York, thank God, safely. 
But perhaps you can answer this. I mean, why is it 3 years 
later and we are still talking about standards? When are we 
going to develop this. A lot of people walking around looking 
very important, but who is doing it?
    Mr. Hoover. Thank you for that question, and I would share 
your concern in terms of a lot of folks were walking around 
saying, you know, we need this, we need this, we need this. And 
a lot of folks--it was talk and we weren't doing anything. I 
can tell you that in the two and a half years that I have been 
involved with EAS we have done a lot of things and we have made 
some great progress in terms of upgrading and recognizing the 
deficiencies.
    Certainly the Partnership For Public Warning's report came 
out and made a number of recommendations, and we think that we 
are implementing a number of those recommendations with regard 
to using digital technology, with regard to upgrading the 
existing EAS capability in the PEP stations. We have active 
involvement with the partner in the Media Security and 
Reliability Council of the FCC. Our office, in answer to your 
question who is responsible, I would say the Department of 
Homeland Security is responsible, and more specifically my 
office serves at the executive agent for the national level EAS 
and we take responsibility for that and we take it very 
seriously. And in fact last week I was in New York at Channel 
13 and talked to the public television station folks up there 
about a pilot that they are doing, along with the National 
Geospatial-Intelligence Agency--it used to be the old NIMA--the 
NGA folks where they are using some spectrums specifically for 
two-way communications to first responders and looking at ways 
that we might be able to integrate that in this digital pilot. 
So specifically to New York we are looking and have been in 
talks with Channel 13 in New York as part of this public 
broadcasting initiative, and our office is responsible and we 
think we are making some great progress.
    Mrs. Lowey. If I could follow up, you said you have been in 
this position two and a half years.
    Mr. Hoover. Yes, ma'am.
    Mrs. Lowey. I feel a real sense of urgency. Can you give me 
an idea how long it will take to develop an efficient national 
warning capability, or will it be like interoperability? We 
still don't have the standards. The RFP still didn't go out. 
The police, all the first responders, firefighters, still don't 
have an adequate interoperable communications system. When will 
this get done with your best estimation?
    Mr. Hoover. Well, first of all, we already have in place a 
national level emergency alert and warning system and that is 
through the 34 primary entry point radio stations and we 
believe that system works and is operational. The upgrades to 
that are beginning within weeks in terms of upgrading the PEPs, 
the primary entry point stations, and as well as demonstrating 
the capability of using the digital broadcast capabilities that 
public television brings to the table, and I would hope to see 
great progress in that by the end of next year.
    Mrs. Lowey. Is it correct that the system has never been 
used?
    Mr. Hoover. The national level EAS system has never been 
activated, however--
    Mrs. Lowey. How do you know it works?
    Mr. Hoover. Because we test it every week from the FEMA 
operations center to the primary entry point radio stations, 
which is the first point of entry to the system. We test that 
on a weekly basis.
    Mrs. Lowey. Okay. Could you tell me what kind of 
enforcement there is at the Federal level to ensure the 
development of State and local EAS plans? Are there Federal 
guidelines, standards, directives?
    Mr. Dailey. The Commission's rules anticipate the 
development of the State and local plans for the implementation 
of EAS and when those plans are developed they are sent to me 
personally and my staff reviews them and we sign off on the 
plans and make sure that they comply with the national level of 
requirements.
    Mrs. Lowey. Excuse me. Are there requirements that the 
States do it?
    Mr. Shadegg. The time of the gentlelady has expired, so if 
you could finish your question.
    Mr. Dailey. They are not required.
    Mrs. Lowey. Why not?
    Mr. Shadegg. Maybe she didn't hear. The time of the 
gentlelady has expired quite some time ago, more than a 
question ago. So the Chair would call upon the gentlelady from 
the District of Columbia, Ms. Norton, for questioning.
    Ms. Norton. Thank you, Mr. Chairman, and I appreciate this 
hearing, regret that other business in the Capitol kept me from 
being here earlier. This is an especially important issue all 
across the country, but none--but there is no place much more 
important than in this region with its tunnels, with its subway 
systems, with the entire Federal presence here, for that 
reason. An amendment that I sponsored was elaborated in the 
Senate that requires the Department of Homeland Security to 
have a special coordinator for the National Capital Region, and 
that person is in place. I must say that that coordination was 
deeply called into question--has been deeply called into 
question, although I don't lay it at the feet of the 
coordinator himself. It is clear that when checkpoints were put 
in place along Pennsylvania Avenue and Constitution avenue 
there was no coordination within the city, much less this 
region, there was not even consultation with the local police 
department, which has all the cops, by the way. So I am not at 
all satisfied with the coordination aspect nor is the committee 
that has jurisdiction over the Capitol Police, which is going 
to have a hearing next week. I have called for a citywide 
coordination plan so that the various sectors who have 
independent control can know what one hand or the other is 
doing. I think we are at terrible risk in the Nation's capital 
because there is no coordination of all the security officials.
    In light of that I am particularly interested in a pilot 
project, a 6-month pilot, for a digital emergency alert system. 
That obviously would help with the coordination problem that is 
so plain in this region. I wonder if--I understand that it may 
have been mentioned before I came in by Mr. Hoover. I would 
like more details on that project. When will it start? If it is 
6 months when does month one start? What technologies will be 
demonstrated? I would like to know who specifically is involved 
in--who are we talking about in this 6-month project? And I 
would like to know whether they will be working with the 
private sector, with State and local government. In other 
words, how in the world does this work?
    Mr. Hoover. Thank you, Ms. Norton, for the question, and 
perhaps we can give you a more detailed briefing and I can give 
you the kind of 30,000-foot view at this moment on--
    Ms. Norton. Yeah. Just give me the 2-foot.
    Mr. Hoover. Right. It is with--the pilot and we expect to 
start within weeks, within the next couple of weeks. We are 
just down to the final transfer of the funds actually to the 
Association For Public Television Station, who is the primary 
focus of our effort. We have through APTS brought in the 
private sector. We have had some active discussions with T-
mobile, with Verizon and with Nextel in terms of having the 
cell phone service providers involved. Our office that is 
actually doing the coordination has worked with Ken Wall in the 
National Capital Region Coordinating Office within the 
Department to make sure that the Council of Governments is 
involved and the emergency managers in the area involved, and 
we are planning actually in October to have a kind of an 
umbrella session to bring all of the players together to be 
able to do that. I should also mention that the local public 
television station is involved. Channel 4, the network 
affiliate, and we have been in discussion with NBC to also be 
involved in the pilot project as well.
    So it is taking in a broad spectrum of the population of 
not only the providers of but also the users because we want to 
be able to reach you and to be able to test the capability on 
as many retransmission mediums as possible.
    Ms. Norton. Thank you very much. Thank you, Mr. Chairman.
    Mr. Shadegg. I want to thank this panel, both for your 
written statements and also for your testimony here this 
morning. It is very, very helpful. Obviously we could continue 
this discussion at length. There is a lot of work to be done, 
though I think it is very encouraging to see how many different 
technologies are out there and are being explored to improve 
the current notification system and the possibilities that lie 
ahead, and I am glad we are making progress on those. And with 
that this panel is excused, and I will invite our second panel 
to join us.
    That panel is composed of Dr. Peter Ward, the Founding 
Chairman of the Partnership for Public Warning and a retired 
member of the U.S. Geological Survey; Mr. Frank Lucia, Vice 
Chairman of the Washington, D.C. Emergency Alert System 
Committee and a member of the Public Communications and Safety 
Working Group for the Media Security and Reliability Council; 
and Ms. Patricia McGinnis, President and CEO of the Council for 
Excellence in Government.
    Welcome and thank you very much for your testimony here 
today. We appreciate your input. Several of your organizations 
have already been mentioned for their work in this area in the 
questioning on the first panel. Now we get to talk to the 
experts directly. So with that, Mr. Ward, Dr. Ward, would you 
begin?

STATEMENT OF DR. PETER L. WARD, FOUNDING CHAIRMAN, PARTNERSHIP 
      FOR PUBLIC WARNING, U.S. GEOLOGICAL SURVEY (RETIRED)

    Mr. Ward. I would like to thank the committee and 
especially Congressman Shadegg for calling us together to talk 
about public warning, an issue of really key importance during 
these troubled times. Warnings save lives. If you get people 
information about what is happening or what is likely to happen 
they can take action that will save lives, reduce loss, speed 
recovery.
    One of the problems we have, as you have gotten to earlier 
here today, is the current warning systems, you put them all 
together, are pretty ineffective. You can do different 
estimates, but today if we needed to warn of a dirty nuclear 
device being exploded right now on the Mall, we could only 
reach at best maybe 30 percent of the people directly that 
needed to know. And we would probably reach a lot of people 
that didn't need to know. At night when there is a tornado 
coming down on a community we can only reach perhaps a few 
percent of those who need to know that that is in their path. 
And again, we may wake up a lot of people who really don't need 
to know.
    So the problem is we don't have an adequate warning system 
and it is not well focused. Now, my name is Dr. Peter Ward. I 
have worked on warnings issues for more than 41 years of my 
career, mostly 27 years as a Federal Government employee for 
the United States Geological Survey, working on earthquakes and 
volcano issues. I have also had the pleasure and opportunity to 
work with a wide number of people, especially in the last few 
years, on committees looking at warning issues.
    The executive summaries of two of the critical reports are 
in my written testimony and have already been mentioned today. 
This red book, Effective Disaster Warnings, was written by 
Federal employees from all the different Federal agencies and I 
had the chance to chair that committee. And this was released 
in 2000, after being approved by all of the Federal agencies 
involved, and it is considered the foundation upon which to 
build modern warning systems. Out of this has already come a 
common alerting protocol and several other major steps forward 
in developing warning systems and improvement to warning 
systems.
    Another major report is the National Strategy For 
Integrated Public Warning Policy and Capability that came out 
of the Partnership for Public Warning. It was put together by 
experts from across the country to say what do we need to do to 
go forward with this? How soon can we make changes?
    All of these reports and many more come up with four 
principle conclusions. First, we need to involve all the 
stakeholders. There are many stakeholders in Federal, State, 
local government in emergency planning and emergency response, 
and in fact every one of us is a stakeholder when we are at 
risk.
    The second major requirement is we need to have national 
standards, not only so we can communicate with each other, but 
so that industry can build new pieces or build into existing 
pieces of electronics the ability to receive those warnings. 
Once we have those standards there are all kinds of 
opportunities for industry to compete to do all kinds of new 
things to deliver those warnings the last mile.
    Third major conclusion is that technology is not the issue 
here. It is not the problem. We are technology enabled. There 
are all kinds of technologies out there that when properly 
mobilized can get the warnings to the people at risk no matter 
where they are, no matter what they are doing.
    The fourth conclusion is the most important. The weakest 
link currently in warning systems is the link between the 
people who have warnings to issue, the officials with warnings 
to issue, and the companies, organizations, groups that operate 
systems that can deliver those warnings directly to the people 
at risk.
    What is needed here is a pipeline or a backbone, a place 
where the warnings can be put in by the officials and that will 
immediately disseminate those throughout, to all the different 
dissemination groups. This pipeline or backbone needs to 
consist of four key elements:
    First a secure, reliable input from all official sources. 
Obviously, we don't want the system to be misused by terrorists 
or others.
    Secondly, it needs a common alerting protocol, and the good 
news is that one already exists under the OASIS standards. It 
has been widely tested. It will need to be tested more, but 
there is a digital protocol into which we can put the warning 
information so it will go out in a standard way.
    The third thing needed in this backbone or pipeline is a 
multi-stranded pipeline that can actually get information out. 
In the AMBER alert program I will talk about in a minute we are 
using Internet. For All Hazard alert we have to be able to deal 
with major catastrophic loss, and so the same information could 
be sent out by State emergency operation communication 
networks, by the Association of Public Television Stations, by 
all these different groups. There are many ships of opportunity 
in the communication world where without spending extra 
government money we can distribute the warnings, the 
information, and make sure that it is redundant enough that 
during the worst catastrophes information is still getting out.
    And finally, we need a wide variety of delivery mechanisms 
that can take the warning from this pipeline and deliver it the 
last mile to the users. Believe me, industry is teeming with 
ideas. They say we need a standard and we need to have a 
pipeline of information that we know is official and that we 
have no liability in transferring that information to the 
public. Once that exists industry will wow us. Already RCA 
Television and other groups have televisions that will turn 
themselves on when they receive a signal that there is a 
warning that applies to that particular county where the 
television is located, and will wake someone up in the middle 
of the night if necessary.
    This is just the tip of the iceberg. There are many other 
devices out there, digital watches, for example, on the market 
now that could easily warn you with that information.
    Now, over the past 20 months we have developed a pipeline, 
an example of this, how this pipeline could work that is for 
AMBER alerts. It is operational in the State of Arizona and in 
Washington State. Thirteen more States are being brought up in 
the near future and 20 others are expressing a strong interest. 
We simply say that this is a consortium of, many, many 
different people, the State police, State broadcaster 
associations, media, major corporations, emergency managers, 
departments of transportation, border control. ESRI has offered 
mapping software, Hewlett Packard, Intel, hardware and funds, 
Symantech security to make sure it works right, Limelight 
Networks and Proteus Digital Communications.
    The capabilities are there and we have demonstrated we 
could do it. So I am really here today to ask the help of 
Federal people to not only work in your district and in your 
State to improve warning, but that by working together we can 
make very significant changes in public warnings in a very 
short time.
    Thank you.
    [The statement of Mr. Ward follows:]

                Prepared Statement of Dr. Peter L. Ward,

    I wish to thank the subcommittee and specifically Congressman 
Shadegg for calling this hearing to discuss public warning, an issue of 
great importance to public safety and Homeland Security in America 
today.
    I personally have worked on public warning issues for 41 years and 
was a senior leader at the United States Geological Survey for 27 
years. I chaired a Committee of Federal government employees under the 
Office of Science and Technology on warning and was founding Chairman 
of the Partnership for Public Warning. I am convinced we can improve 
current warning capability significantly in a very short time if we 
work together.
    Hundreds of very knowledgeable and talented people throughout our 
society have sought ways to improve public warning over many years. 
Their work has come to focus on what I will discuss today. The 
fundamental problem is the need for teamwork among the wide variety of 
stakeholders and I sincerely hope this Committee can help bring the 
American people what they deserve and expect--timely, accurate, 
official information to help them deal with natural and manmade 
disasters. While the country has been fixated on terrorism since 9/11, 
recent events remind us that Homeland Security also involves responding 
to major, frequent, tragic natural disasters.
    Warnings save lives. They empower citizens with knowledge of what 
is happening or what is about to happen. People at risk can then make 
wise decisions about what to do to reduce loss of life and property and 
how to best deal with adversity. First responders can then decide on 
the most effective ways to respond. The Media can provide more detail 
from a basis of up-to-date knowledge.
    Today, if we needed to warn people that a dirty nuclear device had 
just been detonated on the Mall and that they should avoid downtown 
Washington, we could only reach directly perhaps 30% of those who need 
to know using all means of warning currently implemented. And the time 
delay could be many minutes when every second counts. If we needed to 
warn of a tornado in the middle of the night, we might only reach a few 
percent of the people directly at risk. Also current warning systems 
tend to warn more people not at risk than those directly at risk, 
dulling their response to future warnings.
    We live in the midst of a digital revolution where tens of millions 
of our citizens carry cellular telephones and other devices that could 
warn them no matter where they are or what they are doing. Many types 
of electronic signals are being broadcast locally and from space that 
could trigger a wide variety of electronic devices to warn people when 
they are directly at risk. We are technology enabled. Technology is not 
the problem.
    It is a severe national problem that we are not using modern 
technology effectively to save lives and reduce losses from natural and 
manmade disasters in America. While I know there is a desire to do so, 
I believe it is frustrating for all involved that collectively we have 
not been able to make the simple fixes needed to solve this serious 
problem.
    So what is the problem? Simply put, the problem is teamwork--
getting the major stakeholders to work together. The need for teamwork 
or ``unity of effort'' related to Homeland Security were highlighted 
over and over in the recent 9/11 report.
    An effective warning system involves most Federal Agencies, 
thousands of State and local agencies, dozens of industries, thousands 
of companies. An effective warning system sooner or later involves 
every person and organization across the country that is at risk.
    I am sure each of you has been visited by companies who have THE 
solution for public warning. As founding Chairman of the Partnership 
for Public Warning, I received many telephone calls from company 
Presidents who said that we were irrelevant because they had already 
solved the problem. It usually took only a few minutes to help them 
realize that they had an important solution but that it was a small 
part of the larger problem.
    There are hundreds if not thousands of American entrepreneurs who 
have developed impressive techniques for warning people. Technology is 
not the problem. The problem is the lack of a national warning 
infrastructure and the teamwork to implement it. When industry has a 
place from which to received official warnings securely and reliably, 
they can deliver those warnings in an impressive number of ways. You 
will unleash the immense imagination and capabilities of American 
industry when they can clearly see a market and when they can relay 
real-time warnings with no liability for warning content.
    In just a few years we could reach the point where your car radio 
suddenly is interrupted or turns on to say:
        ``Major traffic accident 5 miles ahead at intersection of 495 
        and 50.'' Or
        ``Tornado 10 miles west heading toward you.'' Or
        ``Chemical explosion at 9:02 am near Metro Central. Stay at 
        least 5 miles away.''
    This is not science fiction. This is all readily possible with 
current technology, with good old American marketplace competition, and 
with a national warning infrastructure.
    What do I mean by a national warning infrastructure? This does not 
need to be some big government program. This does not need to be some 
massive pile of hardware built specifically for warning. We simply need 
to utilize better public and private systems we already have. We need 
to create a logical framework that will enable future systems being 
built and maintained for other reasons to provide warning capability.
    Warning messages are very low bandwidth. They require very few bits 
and bytes of information. They can easily be multiplexed within digital 
signals broadcast for quite different purposes. For example, the public 
television stations of the Association of Public Television Stations 
(APTS) are implementing a fully digital television broadcasting network 
across the country. When finished, more than 95% of the American 
population will be able to receive these signals. APTS has made many 
presentations here on the Hill detailing its stations? offer to use a 
small piece of their digital spectrum not only to carry warnings, but 
to broadcast more detailed information about imminent disasters and 
disasters under way. These signals could be received by much more than 
televisions. These signals could be received by any type of electronics 
in your pocket, on your wrist, in your home, in your car, at work, at 
play. And this is just one example of a major national infrastructure 
built and maintained for other reasons that can provide a national 
warning infrastructure at no additional cost to Federal, State, or 
Local governments or to the American people.
    A national warning infrastructure needs to consist of four critical 
components:
        1. Secure reliable input from all official sources of warning 
        information.
        2. Encoding of messages into a standard digital format or 
        protocol that can be readily distributed and processed by small 
        computers.
        3. A multi-stranded pipeline or backbone that can instantly and 
        reliably send these messages to all types of delivery systems.
        4. Wide varieties of delivery systems that can automatically 
        re-broadcast or address these messages to those directly at 
        risk and to others who need to know.
    Many of these elements exist and a prototype national warning 
infrastructure is already operating in the States of Arizona and 
Washington and will soon be operating in a majority of States.
    With cross-jurisdictional confusion on the Federal side, many 
concerned people, local government organizations, and private companies 
have banded together in a Consortium to implement an AMBER Alert Web 
Portal that exponentially improves delivery of warnings of abducted 
children and demonstrates clearly how each of the four critical 
components for a warning infrastructure can be implemented and can work 
together to improve warning systems immediately.
    This consortium grew out of a pilot project led by the state of 
Washington in partnership with several other states including Arizona. 
It was started over 20 months ago with a combined investment in 
technology and development of $4 million dollars. What is remarkable is 
that all the key stakeholders State and local Police, the State 
Broadcasters Associations, media, major corporations, Emergency 
Managers, Departments of Transportation, Border Control agencies and 
many others openly agreed to participate and all contributed 
significant insight and have taken important leadership and ownership 
in its development and now its success. (You have a recent Press 
Release noting the successful activation and homecoming of a missing 
child.).
    Major corporations like ESRI have contributed dynamic mapping 
software that plots in real time the region in which the abductor and 
child could be located. Symantec has contributed the security software 
and procedures to assure the system is not misused. Hewlett Packard and 
Intel have contributed hardware and financial support. Limelight 
Networks and Protus have contributed digital communications capability 
that demonstrates capacity to manage a national alert network. The 
AMBER Alert Consortium is based on a variety of agreements signed by 
all parties on who is responsible for what and how the various pieces 
all fit together. It has been very successful at building teamwork 
among a large number of companies and organizations that have and 
continue to contribute time, money and expertise. This has been done in 
a way where all software and hardware is in the public domain and 
controlled by the States.
    The AMBER Alert Web Portal Consortium has been unanimously 
supported by the National Alliance of State Broadcaster Associations 
and is operational in both Arizona and Washington State. Final training 
and implementation is underway in 12 additional States and many more 
have expressed a desire to join. Most importantly, a number of States 
and stakeholders in the process have expressed publicly that they are 
looking forward to the expansion of the AMBER Alert Web Portal 
Consortium to respond to other alerting needs since all the major 
stakeholders are in place and the Portal was designed by its founders 
to be scalable. This Consortium demonstrates clearly how technology and 
teamwork locally and nationally can be combined successfully to 
implement a National All-Alert Warning Infrastructure.
    While I greatly admire what the AMBER Alert Web Portal Consortium 
has done, I am not here today to promote any one system, I am here to 
assist you in crafting a vision of how a public warning capability in 
this country can be improved very rapidly with some leadership and with 
contributions from a broad spectrum of players. The methods 
demonstrated with AMBER Alerts can readily be scaled up to all-alert.
    If we go back to the four critical components of a national warning 
infrastructure:
        1. Inputs: All-hazard public warning requires secure reliable 
        inputs from police, fire, emergency managers, Homeland 
        Security, the National Weather Service, the U.S. Geological 
        Survey, the U.S. Coast Guard, critical facilities such as 
        chemical or nuclear plants, and many other sources. The AMBER 
        Alert Consortium has demonstrated a secure format that enables 
        the official to initiate an alert directly from the incident or 
        information source.
        2. Standard format: The Common Alerting Protocol (CAP) has been 
        developed under the OASIS standards process specifically for 
        transmitting all types of warning information. CAP is 
        implemented in Internet Protocol, the common communication 
        protocol used by nearly all digital electronics. The AMBER 
        Alert Consortium is CAP compliant.
        3. Pipeline or backbone: This has been implemented over wired, 
        wireless, and satellite-based public Internet and private 
        networks. It can easily be implemented over State Emergency 
        Communication Networks, NOAA Weather Wire, NOAA Weather Radio, 
        the Emergency Managers Weather Information Network (EMWIN), 
        etc. The AMBER Alert Consortium has demonstrated that such a 
        digital signal sent via Internet or any land or satellite-based 
        digital network, can be used to directly trigger all Emergency 
        Alert System (EAS) encoders across the country and thus be 
        broadcast on all land-based radio and television transmitters 
        or by cable television. A national presidential message of 
        unlimited length can also be streamed in this way. The AMBER 
        Alert Consortium has tested such a network using Internet and 
        is pursuing the use of a satellite system used by most 
        commercial broadcasters to disseminate alerts.
        4. Delivery Systems: These are already being provided by 
        numerous vendors including email, pagers, fax, auto-dial 
        telephone calls, auto-dial Short Message Service to cellular 
        telephones, digital signs along highways and in other 
        locations, websites, etc. Some NOAA Weather Radio receivers and 
        some new televisions can turn themselves on and set the volume 
        to announce warnings. New technologies such as wrist-watches 
        and pocket computers are being introduced that can relay 
        warning messages. Cell broadcast that can transmit warnings to 
        all cellular telephones within one or many cells is being 
        introduced in many states in 2004. All modern digital 
        electronics such as radios, televisions, portable music 
        players, computers, automobile navigation systems and such 
        could easily turn themselves on and announce warning 
        information specifically to those at risk once a standard 
        signal is available across the country. The AMBER Alert 
        Consortium has built this interconnectivity with these re-
        broadcasters and is providing them live feeds for all their 
        different modes of communication. Industry is now beginning to 
        see a market and how they can receive a secure official stream 
        of warning information that they can relay without liability 
        for content.
    Thus a National All-Alert Warning Infrastructure can rapidly 
improve public warning and provide a smooth path to modernize the EAS 
and other existing national warning capabilities.
    The purpose of an alert or warning is to get the attention of 
people at risk so that they can seek more detailed information and 
decide on appropriate action. The AMBER Alert Consortium demonstrates a 
web portal that contains all detailed information instantly after it is 
available to officials. This information shows up not only on an 
official website for each state, but is fed directly and automatically 
onto the website of media and others who request the links as well as 
news desks, emergency operation centers, etc. Thus a National All-Alert 
Warning Infrastructure can not only improve delivery of warnings, but 
can provide a continuing stream of official information as the crisis 
develops. Different delivery systems could offer different levels of 
detail as required by the user.
    There is another very important function a National All-Alert 
Warning Infrastructure could provide: instant notification of officials 
nationwide or in any region. The system could address telephones, 
pagers, faxes, email, etc. to any list of government officials. An 
encrypted message could be broadcast nationally and as new receivers 
are being developed, could be received and released only to authorized 
officials within certain affinity groups. Many government agencies are 
buying such service now, but the services are typically not compatible 
between agencies. A National All-Alert Warning Infrastructure could 
feed the information to these service providers for dissemination. With 
appropriate planning, this means that in the future when most pieces of 
electronics are capable of receiving and announcing warnings, these 
same pieces of equipment when owned by legislators, first responders, 
emergency managers, health officials, and such could announce to them 
official messages not released to the general public.
    Consider a scenario where terrorists planted a person infected with 
smallpox on a major international airliner and infected people were 
quickly scattered across the country. When the presence of the Small 
Pox virus was identified, all appropriate officials across the country 
could be notified instantly no matter whether at work, at home, 
traveling, or enjoying recreation.
    A warning distributed in standard digital format can readily be 
used to trigger devices to warn the hearing or sight impaired. As new 
receivers are built, they could easily turn the digital codes into any 
language.
    The options are many. The intent of the National All-Alert Warning 
Infrastructure is to deliver official information instantly to service 
providers who could disseminate the information to the people at risk. 
Public warning can be improved exponentially if we work together 
adopting some basic standards.
    Finally, I would like to give you some background for what I have 
explained today. This comes from a long history of studies and pilot 
efforts by a wide variety of people. As I stated earlier, I personally 
have worked on warning issues for 41 years and was a leader in the 
United States Geological Survey for 27 years.
    In the 1970's there was considerable scientific evidence that 
earthquakes might be predictable and Congress established the National 
Earthquake Hazard Reduction Program. I was fortunate to be able to do 
much of the staff work in developing and implementing that program. As 
Chief of the Branch of Earthquake Mechanics and Prediction, we worried 
in considerable detail on how do you tell people that an earthquake 
could occur soon that may kill 3,000 people, but we are only 5% 
certain? What happens if you had warning information but failed to 
release it? What happens if you release it, no earthquake occurs, but 
significant loss resulted? These questions are quite similar to some 
issues we face today with respect to terrorism. Physical and social 
scientists worked intently on these issues. Many studies were done. 
Since World War II, a vast body of knowledge and experience has been 
developed on how to warn people in ways that they will take the most 
appropriate action. Unfortunately little of this expertise has been 
applied to Homeland Security issues.
    In 1997 and 1998, I was fortunate to chair a working group under 
the Subcommittee on Natural Disaster Reduction within the Office of 
Science and Technology. We included the Federal government employees 
most involved with and experienced with warnings in each of the 
relevant Federal agencies. Our report ``Effective Disaster Warnings'' 
was reviewed by all relevant Federal Agencies before release. This 
report has been widely acclaimed. It explains what exists and what 
could exist. It is considered as the foundation upon which to build a 
modern national warning system. Chapter 6 (The Universally Encoded 
Digital Warning) was the basis for the Common Alerting Protocol, now a 
national warning standard under the OASIS Standards Process.
    The primary recommendation of this Federal working group was the 
need for a Public/Private Partnership to move warning forward. In late 
2001, after I had retired from Federal service, I heard of a group 
interested in forming such a partnership. I ended up being the founding 
Chairman of the Partnership for Public Warning. MITRE Corporation 
contributed start-up money. I volunteered 60-80 hours of labor a week 
for 18 months, and FEMA finally contributed some funds. Thus I 
personally funded about one third of the effort. We established a board 
of 16 trustees from leaders in warning in government, industry, and 
academia. We met regularly and held several multi-day workshops 
bringing together the people from across the country who were most 
experienced in warning issues. We interfaced with the Office of 
Homeland Security and all of the Federal Agencies with responsibilities 
for warning. We talked with many on Capitol Hill and worked with the 
Natural Hazards Caucus to put on a very well attended informational 
luncheon on warning. We published several reports that have been well 
received and that help us all focus on the key issues.
    What I have presented today is a logical result of all of this 
effort and much more on the part of those across the country who are 
concerned with and experienced with public warning. There are thousands 
who work hard to keep current systems working as best as possible, who 
have worked on many committees to seek ways to improve current systems, 
and who are eager to make our homeland safer through effective 
warnings. Teamwork is not easy to build, but we all fervently hope you 
will join us in this effort to save lives, reduce losses, and reduce 
trauma from natural and manmade disasters throughout America.
    ADDENDA:
Effective Disaster Warnings
        Report by the Working Group on Natural Disaster Information 
        Systems
        Subcommittee on Natural Disaster Reduction
        National Science and Technology Council Committee on 
        Environment and Natural Resources
        November 2000 (www.sdr.gov/NDIS_rev_Oct27.pdf)

Working Group on Natural Disaster Information Systems
    Peter Ward -Chairman, Seismologist and Volcanologist, 
U.S.Geological Survey
    Rodney Becker -Dissemination Services Manager, National Weather 
Service
    Don Bennett -Deputy Director for Emergency Planning, Office of the 
Secretary of Defense
    Andrew Bruzewich -CRREL, U.S. Army Corps of Engineers
    Bob Everett -Office of Engineering, Voice of America, International 
Broadcasting Bureau, U.S. Information Agency
    Michael Freitas -Department of Transportation/Federal Highway 
Administration
    Karl Kensinger -Federal Communications Commission, Satellite and 
Radio Communications Division
    Frank Lucia -Director, Emergency Communications, Compliance and 
Information Bureau, Federal Communications Commission
    Josephine Malilay -National Center for Environmental Health, 
Centers for Disease Control and Prevention
    John O'Connor -National Communications System
    Elaine Padovani -National Science and Technology Council, Office of 
Science and Technology Policy, Executive Office of the President
    John Porco -Office of Emergency Transportation, Department of 
Transportation
    Ken Putkovich -Chief, Dissemination Systems, National Weather 
Service
    Tim Putprush -Federal Emergency Management Agency
    Carl P. Staton -National Oceanic and Atmospheric Administration, 
NESDIS
    David Sturdivant -Federal Communications Commission
    Jay Thietten -Bureau of Land Management
    Bill Turnbull -National Oceanic and Atmospheric Administration
    John Winston -Federal Communications Commission

                 Executive Summary and Recommendations

    People at risk from disasters, whether natural or human in origin, 
can take actions that save lives, reduce losses, speed response, and 
reduce human suffering when they receive accurate warnings in a timely 
manner. Scientists are developing more accurate and more numerous 
warnings as they deploy better sensors to measure key variables, employ 
better dynamic models, and expand their understanding of the causes of 
disasters. Warnings can now be made months in advance, in the case of 
El Nin, to seconds in advance of the arrival of earthquake waves at 
some distance from the earthquake. Computers are being programmed to 
respond to warnings automatically, shutting down or appropriately 
modifying transportation systems, lifelines, manufacturing processes, 
and such. Warnings are becoming much more useful to society as leadtime 
and reliability are improved and as society devises ways to respond 
effectively. Effective dissemination of warnings provides a way to 
reduce disaster losses that have been increasing in the United States 
as people move into areas at risk and as our infrastructure becomes 
more complex and more valuable.
    This report addresses the problems of delivering warnings reliably 
to only those people at risk and to systems that have been 
preprogrammed to respond to early warnings. Further, the report makes 
recommendations on how substantial improvement can be made if the 
providers of warnings can become better coordinated and if they can 
better utilize the opportunities provided by existing and new 
technologies. Current warnings can target those at risk at the county 
and sub-county level. The technology presently exists to build smart 
receivers to customize warnings to the users'; local situation, whether 
at home, at work, outdoors, or in their cars. It should also be 
possible to customize the information for trucks, trains, boats, and 
airplanes. The problem is to agree on standards and dissemination 
systems.

Disaster Warnings: Technologies and Systems
    Disaster warning is a public/private partnership. Most warnings, 
including all official warnings, are issued by government agencies. 
Most dissemination and distribution systems are owned and operated by 
private companies. Liability issues make it problematic for private 
entities to originate warnings. Public entities typically cannot afford 
to duplicate private dissemination and distribution systems.
    Effective warnings should reach, in a timely fashion, every person 
at risk who needs and wants to be warned, no matter what they are doing 
or where they are located. Such broad distribution means utilizing not 
only government-owned systems such as NOAA Weather Radio and local 
sirens, but all privately owned systems such as radio, television, 
pagers, telephones, the Internet, and printed media. If warnings can be 
provided efficiently and reliably as input to private dissemination 
systems, and if the public perceives a value and desire to receive 
these warnings, then private enterprise has a clear mandate to justify 
the development of new distribution systems or modification of existing 
systems. What if a warning-receiving capability were simply an added 
feature available on all radios, televisions, pagers, telephones, and 
such? The technology exists not only to add such a feature, but to have 
the local receiver personalize the warnings to say, for example, 
``Tornado two miles southwest of you. Take cover.'' What does not exist 
is a public/private partnership that can work out the details to 
deliver such disaster warnings effectively.
    The Emergency Alert System (EAS) is the national warning system 
designed primarily to allow the President to address the nation 
reliably during major national disasters. All radio and television 
stations (and soon all cable systems) are mandated by the Federal 
Communications Commission (FCC) to have EAS equipment and to issue 
national alerts. The stations and cable systems may choose whether they 
wish to transmit local warnings and they may also delay transmission 
for many minutes. The warnings consist of a digital packet of 
information and a verbal warning of up to two minutes in length. The 
EAS interrupts normal programming or at least adds a ``crawl'' to the 
margin of the television screen. Program producers and advertisers want 
to minimize unnecessary interruptions. As a result, only a modest 
percent of severe weather warnings issued by the National Weather 
Service are relayed to citizens by available stations. The warnings 
that are relayed may only apply to a small part of the total listening 
area but are received by all listeners. When people receive many 
warnings that are not followed by the anticipated events, they tend to 
ignore such warnings in the future.
    The information and technology revolutions now underway provide a 
multitude of ways to deliver effective disaster warnings. Digital 
television, digital AM radio, and FM radio offer the capability to 
relay warnings without interrupting programming for those not at risk. 
Techniques exist to broadcast warnings to all wireless or wired 
telephones or pagers within small regions. Existing and planned 
satellites can broadcast throughout the country and the world. The 
Global Positioning Satellite (GPS) systems are providing inexpensive 
ways to know the location of receivers. The technology exists. The 
problem is to implement standards and procedures that private industry 
can rely on to justify development and widespread distribution of a 
wide variety of receivers.

Recommendations
    This report provides the background information to justify the 
following recommendations:
    1. A public/private partnership is needed that can leverage 
government and industry needs, capabilities, and resources in order to 
deliver effective disaster warnings. The Disaster Information Task 
Force (1997) that examined the feasibility of a global disaster 
information network has also recommended such a partnership. The 
partnership might be in the form of a not-for-profit corporation that 
brings all stakeholders together, perhaps through a series of working 
groups, to build consensus on specific issues for implementation and to 
provide clear recommendations to government and industry.
    2. One or more working groups, with representatives from providers 
of different types of warnings in many different agencies, people who 
study the effectiveness of warnings, users of warnings, equipment 
manufacturers, network operators, and broadcasters, should develop and 
review on an ongoing basis:
        <bullet> A single, consistent, easily-understood terminology 
        that can be used as a standard across all hazards 
        andsituations. Consistency with systems used in other countries 
        should be explored.
        <bullet> A single, consistent suite of variables to be included 
        in a general digital message. Consistency withsystems used in 
        other countries should be explored.
        <bullet> The mutual needs for precise area-specific locating 
        systems for Intelligent Transportation Systems andEmergency 
        Alert Systems to determine where resources can be leveraged to 
        mutual benefit.
        <bullet> The potential for widespread use of the Radio 
        Broadcast Data System (RBDS) and other technologies thatdo not 
        interrupt commercial programs for transmitting emergency 
        alerts.
        <bullet> Cost effective ways to augment existing broadcast and 
        communication systems to monitor warninginformation 
        continuously and to report appropriate warnings to the people 
        near the receiver.
    3. A standard method should be developed to collect and relay 
instantaneously and automatically all types of hazard warnings and 
reports locally, regionally, and nationally for input into a wide 
variety of dissemination systems. The National Weather Service (NWS) 
has the most advanced system of this type that could be expanded to 
fill the need. Proper attribution of the warning to the agency that 
issues it needs to be assured.
    4. Warnings should be delivered through as many communication 
channels as practicable so that those users who are at risk can receive 
them whether inside or outside, in transportation systems, or at home, 
work, school, or shopping, and such. Delivery of the warning should 
have minimal effect on the normal use of such communication channels, 
especially for users who will not be affected.
    The greatest potential for new consumer items in the near future is 
development of a wide variety of smart receivers as well as the 
inclusion of such circuits within standard receivers. A smart receiver 
would be able to turn itself on or interrupt current programming and 
issue a warning only when the potential hazard will occur near the 
particular receiver. Some communication channels where immediate 
expansion of coverage and systems would be most effective include NOAA 
Weather Radio, pagers, telephone broadcast systems, systems being 
developed to broadcast high-definition digital television (HDTV), and 
the current and Next Generation Internet.

A National Strategy for Integrated Public Warning Policy and Capability

              Partnership for Public Warning, May 16, 2003

              (ppw.us/ppw/docs/nationalstrategyfinal.pdf)

                           Executive Summary

    Public warning empowers people at risk to take actions to reduce 
losses from natural hazards, accidents, and acts of terrorism. Public 
warning saves lives, reduces fear, and speeds recovery. Its success is 
measured by the actions people take.
    Warning is an important element of providing for public safety. 
Public safety is a fundamental duty of municipal, county, and tribal 
government and, for larger hazards, of state and Federal government. 
Public safety is also the responsibility of citizens to take action not 
only to protect themselves and their loved ones, but also to make 
society safer through their jobs and community activity.
    The American people believe that a public warning system exists. 
While current warning systems are saving lives, they are not as 
effective as they can be or should be. This document explains the 
inadequacies of our national warning capability and charts a course for 
improving current warning capability to provide what the American 
people need and expect.
    The National Weather Service issues the majority of public warnings 
in the United States and has developed sophisticated warning procedures 
and systems. The National Oceanic and Atmospheric Administration (NOAA) 
Weather Wire System operated by the Weather Service and the National 
Warning System operated by the Federal Emergency Management Agency 
(FEMA) provide ways to collect and distribute warning information to 
emergency managers and other key personnel nationwide. The Emergency 
Alert System and NOAA Weather Radio provide ways to deliver warnings to 
some of the people at risk. A wide variety of other warning systems 
reach people at risk around critical facilities such as dams, chemical 
plants, oil refineries, and nuclear facilities. Many private businesses 
will deliver warnings to subscribers through telephones, wireless 
devices, and email.
    A basic concern with current public warning systems is that they do 
not reach enough of the people at risk and often reach many people not 
at risk. Few local emergency managers or first responders have 
effective ways to input information and warnings directly into these 
systems. Warnings from different sources are rarely available to all 
warning systems in a given region. Many of the systems are not 
interoperable. There are very few standards, protocols, or procedures 
for developing and issuing effective and interoperable warnings. 
Warnings from different sources use different terminology to express 
the same issues of risk and recommended action. Even the national 
Emergency Alert System has increasing inconsistencies and increasing 
potential points of failure due to decreased funding, failure in some 
localities to develop state and local plans for proper utilization, and 
recent introduction of new codes in a non-standard manner.
    All stakeholders involved in public warning should be represented 
in developing an effective national public warning capability. The 
Federal government needs to provide leadership, but cannot do it alone. 
The primary responsibility for warning resides with county, municipal, 
and tribal government, but they often need state and Federal 
assistance. Scientists, intelligence experts, and other authorities 
develop warning information on regional, national, and even 
international scales. The news media relay and explain warnings, and 
the broadcasters and cable operators operate the Emergency Alert 
System. Industry plays a key role in developing, building, refining, 
and operating warning systems. Certain industries also provide public 
warnings around critical facilities. Many professional and trade 
associations as well as nonprofit organizations and volunteers 
represent the needs of various groups involved in delivery or 
utilization of warnings.
    Our national warning capability needs to be focused on the people 
at risk at any location and at any hour, be universally accessible, 
safe, easy to use, resilient, reliable, and timely. Numerous 
technologies exist to do this and in many ways technology is the 
easiest part of the solution. The bigger challenges are to provide 
accurate, understandable, specific, and informative warnings and to 
develop procedures and processes for collecting and disseminating those 
warnings in standard and secure ways.
    For warnings to be readily available to all people at risk, no 
matter where they are or what they are doing, the warning capability 
should be ubiquitous, but in an unobtrusive manner that respects 
privacy and individual choice. This requires partnership and teamwork 
among all the different stakeholders. An effective warning strategy 
must enable industry to develop a wide range of market-based solutions. 
Industry needs a clear statement of government intent and clearly 
articulated standards that specify required interoperability for a 
national warning capability. Industry will be naturally motivated to 
augment basic interoperability with competitive capabilities and 
refinements. Industry also needs an official stream of all-hazard 
warnings that industry can deliver without liability for the content. 
An effective warning strategy must also integrate efforts by government 
not only to issue warnings but also to deliver them..
    States, counties and municipalities have developed disparate alert 
networks at a cost of hundreds of millions of dollars; these networks 
are not particularly effective, are not interoperable, and will be 
difficult to consolidate. To alleviate this unduly expensive and 
massive duplication of effort, national policy should be adopted 
calling for partnership in linking all stakeholders and the public with 
critical community-specific information that can be used to save lives 
and reduce losses. A public/private partnership is needed to develop 
the policies for and implementation of a national warning backbone that 
will deliver a stream of all-hazard warning information using standard 
terminology and procedures to a wide variety of warning delivery 
systems for any region. Such a capability should leverage existing and 
developing public and private network capabilities.
    The President and Congress need to make public warning a national 
priority, assign lead responsibility to the Secretary of Homeland 
Security, appropriate the necessary funds to engage the suitable 
stakeholders effectively to develop national standards and protocols, 
and set deadlines for implementation. Public warning should also be 
made a priority for other federal programs so that information is 
gathered in a manner that will support this endeavor.
    Working together in partnership, the stakeholders should assess 
current warning capability, carry out appropriate research, and develop 
the following:
        <bullet> A common terminology for natural and man-made hazards
        <bullet> A standard message protocol
        <bullet> National metrics and standards
        <bullet> National backbone systems for securely collecting and 
        disseminating warnings from all available official sources
        <bullet> Pilot projects to test concepts and approaches
        <bullet> Training and event simulation programs
        <bullet> A national multi-media education and outreach campaign
    If we the stakeholders act now, each and every American at imminent 
risk can have immediate access to warnings, knowledge of how to take 
appropriate action, and a choice on selecting what information is 
delivered and under what circumstances. Although this document deals 
with national strategy, the authors of this draft feel it is important 
to estimate initial costs required to bring it to fruition. A 
significantly improved national public warning capability can be up and 
running within two years, at a Federal outlay of no more than $15 
million annually. The majority of initial Federal funding should be 
used to initiate and support stakeholder involvement in developing 
interoperable standards and procedures for an all-hazard warning 
capability. Then state and local money can help in developing specific 
details of local warning input and industry can play a major role in 
developing consumer products for delivery of the warnings. Large 
amounts of additional Federal funding should not be required. Thus the 
strategy is that most federal government costs are up front. . .to 
prime the pump.
    Many key stakeholders are already making an investment and effort 
and have laid the groundwork for a federal authority to step up to the 
challenge. All stakeholders have a shared duty and obligation to act. 
September 11th taught us that the unthinkable is no longer an excuse 
for delay. Future tragedies--whether natural or man-made--are not a 
matter of if, but when. Lives can be saved and losses reduced through 
effective public warning. Americans expect their government to protect 
them and believe an effective warning capability exists. However, an 
effective warning capability does not exist, and it is only as matter 
of time before our nation will come to wish it did.

    Mr. Shadegg. Thank you very much. Mr. Lucia.

   STATEMENT OF FRANK LUCIA, VICE CHAIRMAN, WASHINGTON, D.C. 
EMERGENCY ALERT SYSTEM COMMITTEE MEMBER, PUBLIC COMMUNICATIONS 
 & SAFETY WORKING GROUP, MEDIA SECURITY AND RELIABILITY COUNCIL

    Mr. Lucia. I thank the subcommittee and Congressman Shadegg 
for the opportunity to participate in this hearing.
    I retired from the FCC in January 2001, after a 36-year 
career. My last 25 years were spent on public warning issues 
and Federal Government preparedness. At the FCC I served as 
Director of Emergency Communications and Senior Adviser, EAS. I 
oversaw the technical operations of EBS and EAS and 
participated in EAS State and local planning workshops across 
the country. I was one of the government employees on the OSTP 
committee and recently chaired the PPW committee that developed 
the EAS assessment report.
    Presently, I volunteer as a member of the Public 
Communications and Safety Working Group of the FCC advisory 
committee, the MSRC, as the EAS representative to PPW, and as 
the Vice Chair of the Washington, D.C. EAS committee.
    The key points of both the MSRC and PPW reports are that a 
single Federal entity should be responsible for assuring that 
public communications capabilities and procedures exist, are 
effective, and are deployed for distribution of warnings to the 
public by appropriate Federal, State and local government 
personnel agencies and authorities; that lead responsibilities 
are established at the Federal, State and local levels within 
the overall discipline of emergency management; and that a 
national uniform All Hazard risk communications warning process 
is implemented from a public and private consensus on what best 
meets the needs of the public, including people of diverse 
language and/or with disabilities.
    MSRC and PPW assert that effective delivery of emergency 
information to the public should be achieved through a public-
private partnership that makes coordinated use of mass media 
and other dissemination systems.
    My written statement contains the specific recommendations 
that were developed by MSRC and PPW.
    My main concern is that EAS and the warning structure in 
general are in need of resources so that they can become truly 
effective to warn our citizens. Through the years, volunteers 
have carried the load in developing EAS emergency plans. 
However, no one has taken responsibility to see that emergency 
management officials or other first responders know EAS is in 
place and available to deliver emergency messages. We know of 
no one who used EAS on 9/11, even though it was available. Very 
few emergency managers are connected to EAS. They need to be 
trained to use it. Some frustrated broadcasters set up the 
AMBER program and persuaded local law enforcement to use the 
idle EAS equipment to save abducted children. The remarkable 
and near instant success of the AMBER alerts is clear evidence 
about the efficacy of the EAS and the astonishing impact 
broadcasters and cable operators offer by making their 
audiences available.
    Emergency personnel need tools to convey emergency messages 
to the populace at risk. EAS, NOAA and all weather radio, the 
common alerting protocol, the AMBER portal and other industry 
systems need to be at their disposal to distribute warnings.
    Presently the President's EAS message is transmitted by 34 
primary entry point radio stations. These 34 radio stations can 
reach only portions of the public. On air tests need to be 
conducted to ensure that the message reaches every State and 
local area.
    Early warning has been proven to reduce the loss of life 
and property. The National Weather Service provides excellent 
service by transmitting early warning messages over their 
communications assets. We need to extend similar capabilities 
to all emergency managers at the State and local levels.
    When EAS was established the Internet and cell phone usage 
did not have a significant market share of the populace. These 
and other new distribution systems can now provide access to 
millions of our citizens. They all need to be connected to form 
a total warning structure.
    After the end of the Cold War, government resources in the 
planning and warning area began to dwindle. The volunteer State 
EAS chairs need assistance to hold workshops, to update their 
plans, train industry personnel, refine test procedures and 
ensure that EAS is integrated with other warning capabilities 
at the State and local levels. States and localities need 
assistance with emergency plan development, equipment and 
training.
    In today's environment the government at all levels must 
have immediate and reliable communications with the public. It 
is an important part of our Nation's defense.
    [The statement of Mr. Lucia follows:]

                   Prepared Statement of Frank Lucia

    I thank the Subcommittee and Congressman Shadegg for the 
opportunity to participate in this hearing.
    I retired from the FCC in January 2001, after a 36-year career. My 
last 25 years were spent on public warning issues and Federal 
government preparedness. At the FCC, I served as Director of Emergency 
Communications and Senior Advisor Emergency Alert System (EAS). I 
oversaw the technical operations of Emergency Broadcast System (EBS) 
and EAS and participated in EAS state and local planning workshops 
across the country. I was one of the government employees on the OSTP 
committee and recently chaired the Partnership for Public Warning (PPW) 
committee that developed the EAS Assessment Report.
    Presently, I volunteer as a member of the Public Communications and 
Safety Working Group of the FCC Media Security and Reliability Council 
(MSRC), as the EAS Representative to PPW, and as the Vice-Chair of the 
Washington DC EAS Committee.
    The key points of both the MSRC and PPW reports are that a single 
federal entity should be responsible for assuring;
    That public communications capabilities and procedures exist, are 
effective, and are deployed for distribution of warnings to the public 
by appropriate federal, state and local government personnel, agencies 
and authorities,
    That lead responsibilities are established at the federal, state 
and local levels within the overall discipline of emergency management,
    And that a national, uniform, all-hazard risk communication warning 
process is implemented from a public and private consensus on what best 
meets the needs of the public, including people of diverse language 
and/or with disabilities.
    MSRC and PPW assert that effective delivery of emergency 
information to the public should be achieved through a public/private 
partnership that makes coordinated use of mass media and other 
dissemination systems. My written statement contains the specific 
recommendations that were developed by MSRC and PPW.
    My main concern is that EAS and the warning structure in general 
are in need of resources so they can become truly effective to warn our 
citizens. Through the years volunteers have carried the load in 
developing EAS emergency plans. In establishing EAS, the broadcast and 
cable industries complied with the FCC rules to install and test EAS 
equipment at a cost of millions of dollars. They installed EAS and 
special equipment at every broadcast station and cable system to make 
possible instantaneous communication to the public about any critical 
emergency. However, no one has taken responsibility to see that 
emergency management officials or other first responders know the 
system is in place and available to deliver emergency messages.
    We know of no one who used EAS on 9-11 even though the EAS was 
available. Very few emergency managers are connected to EAS and trained 
to communicate the information that can save lives and property.
    Some frustrated broadcasters set up the Amber program and persuaded 
local law enforcement to use the idle EAS equipment to save abducted 
children. The markable and near instant success of the Amber alerts is 
clear evidence about the efficacy of the EAS system and the astonishing 
impact broadcasters and cable operators offer by making their audiences 
available.
    Understandably, resources are needed to equip emergency personnel 
with the tools needed to respond to a terrorist attack and other 
disasters. However, they also need tools to convey emergency messages 
to the populace at risk. EAS, NOAA Weather Radio, the Common Alerting 
Protocol (CAP), the Amber Portal and other industry systems need to be 
at their disposal to distribute warnings.
    EAS was created to allow the President of the United States to 
communicate with the public in an emergency. Because of the failure to 
coordinate EAS at the state and local level, the efficacy of the system 
to disseminate the President's message is undermined. Presently, the 
President's message is disseminated by 34 Primary Entry Point (PEP) 
radio stations. Those 34 radio stations can reach only portions of the 
public; so the plan anticipates that other broadcasters and cable 
operators will relay the president's message. Yet no on air tests have 
been performed to insure that the message reaches every state and local 
area.
    Early warning has been proven to reduce the loss of life and 
property. Casualties and property losses were greatly reduced as a 
result of early warnings prior to the arrival of the recent hurricanes 
and tornadoes. The National Weather Service provides excellent service 
by transmitting early warning messages over their communications 
assets. We need to extend similar capabilities to all emergency 
managers at the state and local levels.
    When EAS was established, the Internet and cell phone usage did not 
have a significant market share of the populace. These and other new 
distribution systems can now provide access to millions of our 
citizens. They all need to be connected to form a total warning 
structure.
    After the end of the cold war, government resources in the planning 
and warning area began to dwindle. The volunteer state EAS Chairs who 
have been working developing EAS plans need assistance to hold 
workshops to update their plans, train industry personnel, refine test 
procedures, and insure that EAS is integrated with other warning 
capabilities at the state and local level. States and localities need 
assistance with emergency plan development, equipment and training.
    In today's environment, government at all levels must have 
immediate and reliable communications with the public. It is an 
important part of out nation's defense.

MSRC Public Communications and Safety Committee Recommendations
    1. A single Federal entity should be responsible for assuring:
        <bullet> public communications capabilities and procedures 
        exist, are effective, and are deployed for distribution of risk 
        communication and warnings to the public by appropriate 
        federal, state and local government personnel, agencies and 
        authorities.
        <bullet> lead responsibilities and actions under various 
        circumstances are established at Federal, State and Local 
        levels within the overall discipline of emergency management
        <bullet> a national, uniform, all-hazard risk communication 
        warning process is implemented from a public and private 
        consensus on what best meets the needs of the public, including 
        people of diverse language and/or with disabilities, including 
        sensory disabilities.
    Effective delivery of emergency information to the public should be 
achieved through a public/private partnership that makes coordinated 
use of mass media and other dissemination systems to quickly reach 
large numbers and diverse groups of the public at risk to deliver 
emergency information to the public.
    2. Consistent with best practices in emergency management and 
business continuity planning, local and State governments and the media 
should cooperate to create, review and update emergency communications 
procedures, such as EAS, Amber plans and their components, to quickly 
disseminate critical information to the largest possible audience.
        <bullet> Effective use should be made of current, emerging, and 
        legacy systems, including television, radio and weather radio 
        that includes EAS.
        <bullet> Local media must be included in the creation of the 
        communications and warning plan and understand their key role 
        in its successful implementation.
        <bullet> The skill set of both federal and local agency 
        participants should include training and process knowledge of 
        how to work with and the benefits of utilizing the media to 
        inform the public in a timely fashion during emergencies. 
        Emergency managers should have a working knowledge of how to 
        access EAS and other public warning systems.
        <bullet> Local media should assist government to create and 
        deliver more effective public education about emergencies and 
        preparedness.
                <bullet> Local Media should assist State and Local 
                government to develop a public education program that 
                includes actions that the public can take (and refrain 
                from) that will assist in the response to and recovery 
                from disasters.
                <bullet> State and Local public education programs 
                should be coordinated with Federal government programs 
                of public information and education.
        <bullet> Local media should agree to develop consistent 
        presentation guidelines to ensure that all emergency delivery 
        systems work well together to accurately deliver emergency 
        information to the entire community.
        <bullet> Government and local media should conduct regular 
        testing and rehearsals of emergency communications plans.
        <bullet> Appropriate policies for the judicious use of 
        Emergency Communications should be created to preserve public 
        confidence and the integrity and urgency of such 
        communications.
    3. All local media should form emergency jurisdiction / market 
cooperatives to assure delivery of local government emergency messages 
in a coordinated way to all constituencies in the community.
        <bullet> Local media in each market should be encouraged to 
        create media pools for risk communication and warning; in 
        markets where pools exist, a working committee should take the 
        pool to the higher level of security, isolating it from the 
        traditional news coverage pool concerns.
        <bullet> Local media should consider the creation of an 
        Emergency Communications Coordinator position to serve as 
        single media point of contact for government and develop a 
        cooperative relationship with the local government lead agency.
        <bullet> State and Local government should consider equipping 
        their Emergency Operating Centers (EOCs) with the basic audio 
        and/or video equipment that allows them to provide feeds of 
        local government officials to the local media
    Government and Media representatives from their technical staffs 
should meet regularly to ensure that joint plans and procedures have 
been implemented properly and that the supporting infrastructure is 
maintained in good working condition.
        <bullet> Media and government jurisdictions should agree to 
        take pre-planned actions upon authenticated notice from 
        authorized government agencies, and incorporate these pre-
        planned actions in overall emergency management training 
        exercises.
                <bullet> Local media and appropriate public safety and 
                other government agencies should establish local and 
                state emergency communication committees to plan well-
                coordinated community responses for disasters.
                <bullet> Local media should engage in coordinated 
                activities to assure the flow of emergency information 
                using multiple languages and means to make this 
                information available to persons with disabilities in 
                their communities.
        <bullet> Pre-planned coordinated activities / roles appropriate 
        to local conditions for each media under various scenarios 
        (e.g. the type & number of delivery systems continuing to 
        function) should be created, developed, rehearsed and tested.
                <bullet> In particular, emergency communications plans 
                must take into account the probability of widespread 
                power outages when AM and FM radio is the only way to 
                communicate to battery powered receivers in the 
                community.
    4. As the nation's current means to issue timely warnings through 
mass media, the Emergency Alert System should be periodically tested, 
upgraded as necessary, implemented and maintained at the local, state, 
and national levels.
        <bullet> EAS equipment should be uniformly implemented to make 
        use of the latest EAS codes approved by the FCC.
        <bullet> Written State and local EAS plans should be brought up 
        to date with close participation by broadcasters and cable 
        operators.
        <bullet> Wired and wireless paths to EAS entry points from 
        warning sources designated in State and local EAS plans should 
        be in good working order.
        <bullet> State and Local EAS plans should consider the use of 
        the FM radio sub-carriers as a means of providing additional 
        entry points on a cost effective basis.
        <bullet> The Primary Entry Point system that gives the 
        President the ability to address the Nation through EAS should 
        be in good working order and be regularly reviewed and improved 
        if necessary in terms of reliability, reach and robustness.
        <bullet> Ongoing development of Presidential emergency 
        communication systems and procedures should be coordinated with 
        the ongoing development of new and legacy state emergency 
        communication systems and procedures, including EAS.
    5. Research into development of alternative, redundant and/or 
supplemental means of communicating emergency information to the public 
should be accelerated.
        <bullet> An expanded government partnership with the media, 
        consumer electronics and computer industries should harness 
        free market innovation, foster competition, and enhance 
        interoperability to meet changing national warning needs.
                <bullet> The partnership should explore the use of 
                emerging new technologies to improve and / or 
                complement existing infrastructures and to leverage 
                emerging new infrastructures.
    6. Local jurisdiction / market cooperatives should be encouraged to 
share their locally developed best practices for coordinating their 
efforts, delivering risk communications and warnings to their diverse 
public constituencies, and joint continuity planning to maintain 
communications under crisis conditions.

PPW EAS Assessment Report Recommendations
    Based upon this assessment, the Partnership for Public Warning 
makes the following recommendations regarding the future of the 
Emergency Alert System:
    The Department of Homeland Security should assume a leadership role 
for creating an effective national public warning capability. DHS, in 
concert with other appropriate federal agencies, should strengthen the 
Emergency Alert System by doing the following:
    1. Provide leadership and oversight as necessary to manage the EAS 
system.
        <bullet> Evaluate and support the implementation of new and 
        emerging technologies, which provide greater bandwidth 
        capabilities and reach large segments of the population.
        <bullet> Ensure that any new technologies are backward 
        compatible with the existing EAS/SAME equipment at 15,000 
        broadcast stations, 10,000 cable head ends and 1,000 NWR 
        transmitters.
        <bullet> Integrate the EAS and NWR systems with the emergency 
        management community, by providing a cost effective, reliable, 
        and secure method of activating the EAS system by state and 
        local emergency management agencies.
        <bullet> Institute reporting requirements for system 
        activations to allow for the development of effective after 
        action and service assessment reports.
        <bullet> Develop and administer procedures and standards for 
        the requirement, analysis, evaluation, and approval of state 
        and local plans and a needs assessment of system equipment and 
        connectivity.
        <bullet> Require mandated compliance with EAS system upgrades 
        within 180 days of official notice or regulation adoption date.
        <bullet> Provide training resources for all EAS stakeholders 
        designed to insure that the EAS system is maintained in an 
        operational status, and that all participants are trained and 
        qualified as necessary to perform their role in the use of the 
        system.
                <bullet> Distribute and promote these resources through 
                course offerings at FEMA's Emergency Management 
                Institute, and by providing regional, state, and local 
                training workshops as necessary, including on-site 
                assistance.
                <bullet> Involve strategic partners in this training 
                effort such as NEMA. IAEM, SBE, NAB, SCTE, NCTA, and 
                state broadcaster associations.
                <bullet> Attend and participate in broadcast and cable 
                industry events and conventions to form a closer 
                alliance with the broadcast and cable communities.
        <bullet> Develop and administer an education initiative using 
        public service announcements to raise public awareness of the 
        role of the EAS system in public warning.
    2. Strengthen and improve the PEP system.
        <bullet> Improve delivery methods to enhance system security, 
        reliability, and robustness.
        <bullet> Increase testing (to include on air tests as 
        necessary) to ensure that the PEP system is maintained in a 
        ready state.
        <bullet> Expand the reach of the system by adding PEP stations 
        and including major broadcast networks, national cable program 
        suppliers, and satellite based media outlets.
        <bullet> Implement policies and procedures at the activation 
        points to allow the use of the PEP system for the purpose of 
        public warning.
    3. Update the existing Memorandum of Understanding that defines a 
framework for a cooperative effort for developing and evaluating state 
and local plans, to more accurately reflect current EAS capabilities 
and to clearly delineate management and oversight responsibilities. As 
appropriate, the MOU should also incorporate other federal and non-
federal agencies participating in the EAS.
    4. Find avenues to provide appropriate federal government funding 
and resources to support and operate the EAS and ensure that the 
federal government does not impose un-funded mandates on state and 
local governments, or the broadcast and cable communities. Study 
incentives for industry to participate voluntarily.
    5. Support a public private partnership to develop the standards, 
policies and procedures to integrate the EAS into a comprehensive 
national public warning capability.

    Mr. Shadegg. I thank you very much, Mr. Lucia, for your 
testimony. And now Ms. McGinnis.

STATEMENT OF PATRICIA McGINNIS, PRESIDENT AND CEO, COUNCIL FOR 
                    EXCELLENCE IN GOVERNMENT

    Ms. McGinnis. Thank you very much, Mr. Chairman, and 
members of the subcommittee for including me in this hearing. I 
want to congratulate you on focusing on this important issue--
really getting to the heart of the matter to think about and 
look at what would actually happen if we had to mobilize the 
public in real time in an emergency. I think that is a great 
test of our Homeland Security enterprise.
    The Council for Excellence in Government is a nonprofit 
organization which for 20 years has focused on two goals, 
improving the performance of government and engaging citizens. 
I think those are your goals in this hearing and in this 
subcommittee.
    Last fall we launched a very ambitious effort called 
Homeland Security from the Citizens' Perspective. We looked at 
the whole enterprise, Federal, State and local, public-private, 
the volunteer and civic community from the bottom up, through 
the eyes of ordinary citizens, and we did that by holding a 
series of seven town hall meetings across the country in St. 
Louis, Miami, San Diego, Houston, Fairfax Boston and Seattle.
    In addition to having those conversations with hundreds, 
actually thousands of citizens across the country, we conducted 
a national poll based on what we heard from citizens to test 
their ideas and gauge their concerns in terms of whether they 
were representative of the whole country. We had experts from 
the public and private sector in working groups looking at 
citizens' concerns and ideas to help us produce this report, 
which you have a copy of, called ``We the People: Homeland 
Security from the Citizens' Perspective.''
    The major finding of this work is very pertinent to what we 
are talking about today, and that is that there is a tremendous 
communications gap between government and citizens in homeland 
security, and we think that citizens, the public, ultimately is 
the most important and most untapped resource not only in an 
emergency response situation, but also to help prevent and 
prepare for emergencies. Repeatedly in the town halls, and this 
was so powerful, we had State and local and Federal officials 
together in conversations with the public, representatives from 
both parties, very--this was a very constructive conversation. 
They were very proud of the plans that they have come up with, 
particularly at the local level, and the hard work that has 
been done bringing different agencies together. And then when 
we asked the people in the audience and in our polling in the 
local areas if they were aware of these plans, if they had any 
idea of what to do in an emergency, if they knew where to get 
the information, and the answer is a resounding no. And that is 
a huge issue.
    And the thing that was striking in the moment of these 
discussions was that the officials in charge were surprised by 
that because the plans are on their Web sites. There is 
information out there. A lot of information has been mailed to 
people. But it is simply not user friendly. Everyone is not 
going to a Web site. We have a huge communications gap. We 
asked people how they would get their information in the 
absence of knowing or thinking ahead of time about what to do, 
and they say they would turn on the television first, and the 
Internet for guidance. But if power is shut down, what would 
they do, and how many people have battery powered radios and 
who knows what stations to turn to if we need information 
immediately. And, as we talked about before, how many of our 
televisions, radios and other equipment can receive these 
digital signals in the kind of emergency alert system that we 
envision that would get information out in a very broad way in 
real time?
    Information sharing emerged as the top concern in every 
single town hall meeting and the top recommendation of the 
public. People want the government to have the tools necessary 
to share information and communicate with them, and this gets 
to both the issues of interoperability in terms of sharing and 
analyzing the information and making decisions before you get 
to a point where you can issue an instruction, an emergency 
instruction. That has to be right because the information has 
to be reliable. It has to be geographically specific. And then 
you have to be able to get it out to everyone regardless of 
language or location or disability.
    We made a number of recommendations in four areas, and I 
think they can serve as principles for your work. Collaborative 
leadership, information sharing, engaging citizens in the 
process and measuring readiness. And I am not going to go 
through all those recommendations. You can read them. But I am 
going to highlight a few.
    We need an updated National Strategy for Homeland Security. 
The National Strategy for Homeland Security was prepared in 
2002. It is excellent but it has not been updated and needs to 
be updated to provide a framework for State and local plans, 
for workplace, school, hospital, other kinds of plans, and it 
needs to be very specific in terms of goals, assignments of 
responsibilities, performance measures, and the vulnerability 
assessments which have to be part of that planning should 
include examining emergency alert systems. The critical 
infrastructure owned mostly by the private sector, should 
definitely include private broadcasters and we should be 
focused on their plans and coordinating them with the national 
strategy. We need plans and we need to practice them.
    In terms of information sharing, we have talked a lot, and 
we absolutely agree that we need the standards and protocols so 
that decisions can be made and communications with the public 
can take place. We absolutely agree and made some 
recommendations that information should be shared through many 
channels. You really need to think from the perspective of a 
citizen in terms of how they are going to get their 
information. And so all the channels that we have talked about 
from radio to television, to the Internet, to cell phones to 
personal computers and--we need to have all of that.
    In terms of engaging citizens, and this is a point I will 
make generally and we have a lot of specific recommendations, 
we think that citizens need to be part of building this, 
understanding it and practicing it, because right now if you 
have an emergency the response is likely to be quite chaotic 
regardless of how effective even a digital emergency alert 
system is if people aren't aware of what they are supposed to 
be listening for and what they should do under a variety of 
scenarios.
    We suggested that local government should provide people 
with information that is really boiled down, maybe to an index 
card that gives them an idea of what they have to have and what 
they should do and where they should turn in different 
scenarios of emergencies. In some cases you would shelter in 
place. In some cases you would evacuate. And if you think that 
through ahead of time and talk with your family about it, 
practice it in your schools, workplaces, et cetera, there is 
going to be a lot more calm, ability to tune in, get the 
instructions and follow them.
    The readiness measure--
    Mr. Shadegg. If you could wrap up as quickly as you can.
    Ms. McGinnis. I will wrap up. I will just say that what we 
are working on now is the notion of measuring readiness and 
creating scorecards for a variety of institutions and actually 
having a readiness index for the public.
    Thank you.
    [The statement of Ms. McGinnis follows:]

                Prepared Statement of Patricia McGinnis

    Thank you Mr. Chairman and members of the Subcommittee for inviting 
me here today to participate in this important discussion about 
emergency warning systems and communicating with the public in this new 
era of homeland security. I congratulate you on getting to the heart of 
the matter--to look at what would actually happen--or not happen--in 
the real time mobilization of the public as an emergency unfolds.
    As a nonprofit organization, which for 20 years has focused on 
improving the performance of government and engaging citizens, the 
Council for Excellence in Government shares your concern about the 
timely and effective communications with the public in emergency 
situations.
    In the fall of 2003, the Council launched an ambitious effort 
called Homeland Security from the Citizens' Perspective. We looked at 
the entire homeland security enterprise from the bottom up--through the 
eyes of ordinary citizens. Our goals were to solicit ideas and 
articulate a vision of safe and secure communities across the country, 
and to identify the communications and actions necessary to get us 
there.
    To foster dialogue between citizens and leaders, we organized seven 
town hall meetings across the country in St. Louis, Miami, San Diego, 
Houston, Fairfax, Boston and Seattle. In doing so, we reinvented the 
traditional town hall by adding interactive polling technology and the 
internet to gauge citizens' views and encourage questions, feedback and 
participation. We arranged to have many of the town hall meetings 
broadcast live on radio and television, allowing countless others to 
participate from home.
    In tandem with these town hall meetings, we convened working groups 
comprised of thought leaders from the public, private and nonprofit 
sectors. They took the ideas and concerns from the town hall meetings 
and provided guidance about approaches and solutions to achieve the 
safety and freedom that citizens want. Our national poll amplified and 
clarified what we heard both in the town hall meetings and in the 
working groups.
    A major headline of this work is the existence of a tremendous 
communications gap between government and citizens, whom we believe are 
the nation's most important and most untapped resource to help prevent, 
prepare for and respond to a terrorist attack in this country.
    Repeatedly in our town halls, we asked the audience whether they 
were aware of their state, city, work, or school emergency plans. Time 
and again, I saw the panelists--local and state homeland security 
directors, police and fire chiefs, and federal officials too--quite 
surprised that the people in their communities have little or no 
awareness of their plans, how they 

[GRAPHIC] [TIFF OMITTED] T6275.001

[GRAPHIC] [TIFF OMITTED] T6275.002

[GRAPHIC] [TIFF OMITTED] T6275.003

[GRAPHIC] [TIFF OMITTED] T6275.004

[GRAPHIC] [TIFF OMITTED] T6275.005

[GRAPHIC] [TIFF OMITTED] T6275.006

[GRAPHIC] [TIFF OMITTED] T6275.007

[GRAPHIC] [TIFF OMITTED] T6275.008

[GRAPHIC] [TIFF OMITTED] T6275.009

[GRAPHIC] [TIFF OMITTED] T6275.010


    Mr. Shadegg. Thank you very much. I want to thank each of 
you for your testimony and for your written testimony as well.
    I want to begin with you, Mr. Lucia, because quite frankly 
I am a little confused. A great deal of the discussion here 
today has been on the EAS system, and your points about needing 
more resources were well taken. It was a system that was 
created, as has been explained earlier here today, to warn 
Americans of an impending nuclear attack. Quite frankly, over 
time that became a remote possibility, quite fortunately, and 
now I think we need a better system. Quite frankly, I think you 
are right about needing more resources.
    However, one of the things that I was concerned about is 
that you made reference to the system not being activated as 
often as it should be or not having been activated in the 9/11 
incident except that as I understand it, and here is my 
confusion, as I understand it, the current EAS system can only 
be, I guess, activated or utilized by the President. And Mr. 
Cox pointed out in his earlier questioning, it seems to me, 
there ought to be a capability of regional activation. And I 
think that is what you said in your testimony, is that correct?
    Mr. Lucia. Yes. It is set up technically so that it can be 
activated regionally. It depends on which of the 34 stations 
are activated to bring the President's message. So it could be 
done regionally. Using that method. FEMA can control which of 
the 34 are going to put out the message.
    Mr. Shadegg. But should it be able to be activated at a 
much lower level? For example, the AMBER alert system can be 
activated by a local police department when a child is 
abducted.
    Mr. Lucia. Right. The AMBER plans are excellent examples of 
how you can take an originator who makes up a message, have 
connection capability to the broadcasters and cable operators 
in a given area and put on an AMBER alert instantly. There are 
other systems that go with that, you know, the AMBER portal and 
so forth.
    But the problem is the local, State and local EAS plans are 
now done voluntarily. And several years ago--and I keep going 
back to the past--we had a program where we do workshops around 
the country to develop these State and local plans and make 
sure that they were effective. Now, they are still being done, 
but I think there needs to be more government resources to lift 
that planning program, you know, off of dead center and get 
started again really.
    Mr. Shadegg. Dr. Ward, in your testimony you said that 
technology is not the problem, and I would agree with that. But 
the weakest link is this link between people who have a warning 
to put out and those who actually disseminate the warning, and 
there are many mechanisms for the dissemination of the warning. 
The question is how do you implement that? Would you agree that 
there needs to be the capability of a regional warning?
    Mr. Ward. Yes, there needs to be a capability of a regional 
warning. There needs to be a capability of focusing that 
warning on a specific region, not just which of the PEP 
stations are activated but a specific geographic region. I 
think one of the really remarkable successes of the AMBER Alert 
Web Portal is the way it can focus on exactly the areas it 
needs to go and how it can get these from either the State 
police or from any patrolman on duty who can get approval from 
the State police to enter that information can go out 
immediately everywhere it needs to go.
    Mr. Shadegg. I think this committee, this subcommittee, is 
interested in actually taking action. I know the full committee 
is interested in that. On that point is there a need for a 
specific legislation? Mr. Cox in his earlier question said is 
this an executive branch issue, or is this a legislative branch 
issue? I think there is frustration here that we through the 
AMBER alert model have a much better mechanism to notify 
people, but we apparently don't have that for incidents that 
don't involve the abduction of a child. The kind of incident of 
9/11 I am not sure you would want to have issued an alert 
nationwide. You certainly needed the more important alert 
regionally, here for example, on Capitol Hill, during that gap 
between the first three planes crashing and where the fourth 
plane was going. You didn't necessarily need a national alert 
but you certainly needed a regional alert, and I guess the 
question is there something this committee or this Congress can 
do to move the ball down the court?
    Mr. Ward. As I said earlier, one of the biggest problems 
everybody has identified is teamwork, the need to work 
together. The fact is for local warnings, local people have the 
responsibility to do it, and they want to do it. So the Federal 
Government can't just tell them what to do, and one of the 
problems with EAS is the fact that it is mandated on the 
broadcasters, and while many of them do it very voluntarily and 
want to do it, it is not evenly mandated. So I think what you 
need to do from the Federal level is somehow empower the local 
groups to solve this problem.
    Again, I think the AMBER Alert Web Portal Consortium has 
given us a model for how you can get all of the different 
stakeholders involved. They put the agreements together as to 
how to--who is going to be responsible for what; how is it 
going to work. They then get the system going and it works very 
nicely. So I think we do have an excellent pilot out there that 
shows how we can get around all those different groups and get 
them working together.
    Mr. Shadegg. Now there was Federal legislation to get AMBER 
Alert going. Is there a need for similar legislation here?
    Mr. Ward. What there is a need for now, for example in the 
AMBER area, is to expand that effort to be an All Alert, and 
there is a need for Federal interest to do that. In talks with 
FEMA there is definitely an interest there. It is a question of 
going forward and getting it done.
    Mr. Shadegg. So you think there is a need for Federal 
enabling legislation to convert essentially AMBER Alert into an 
All Hazards Alert so you could warn of anything, not just the 
abduction of a child?
    Mr. Ward. Yes. It is a question of exactly how much 
legislation is required for the purpose of just getting forward 
and getting the job done. I mean for very small amounts of 
money this could be put nationally because you are not building 
new things.
    Mr. Shadegg. I think every member of this subcommittee 
would like to see the job done, if not every Member of 
Congress. I think one of the issues is that the American public 
isn't consciously aware of how inadequate the warning system is 
right now and even probably not consciously aware of the 
importance, the increased importance of a warning system today 
following 9/11 versus in the nuclear era.
    My time has expired. The Chair would call upon the ranking 
member, Mr. Thompson, for his questions.
    Mr. Thompson. Thank you, Mr. Chairman. I agree with you on 
the inadequacy of the system and just in the testimony of the 
two panels we have heard a little bit about the inadequacy. Mr. 
Hoover testified that we can notify 94 percent of the people in 
this country with our existing system, and I have heard two 
gentlemen say we can do about 30 percent.
    So can you help me out so at least we will leave today with 
some--
    Mr. Ward. Let me first explain reverse 911. When you pick 
up the telephone and dial 911, in the center for the 911 calls 
your address is physically displayed on the screen. Now, this 
requires a database that has to be updated. More than 10,000 
telephone numbers change every day in the United States. There 
is a major effort to keep that database operational. Anyway, 
there is a database and of course cell phones add a whole other 
problem here. But there is a database that links your phone 
number to your physical location. You could use that to dial 
out but if you--as soon as you start dialing thousands of 
people you overload the switch system. As soon as you start 
sending short messages service, messages to Blackberries and 
cell phones you overload the switching system to get it out 
there. You need to broadcast the information. Now, there are 
hundreds of companies out there that will provide the service 
of calling telephone numbers, sending faxes, sending e-mails. 
What we are talking about in this pipeline is empowering all 
those companies to do their thing, to do it any way they want. 
But here is the official information, and they all will have it 
instantaneously.
    Mr. Lucia. With respect to the 90 percent, 30 percent, the 
34 radio stations that are a part the PEP system, their signal 
coverage is about 95 percent of the country. The problem comes 
in when the volunteers develop a State EAS plan, they develop a 
monitoring structure whereby all the stations and cable systems 
in that State monitors in such a way to form like a pyramid so 
that the governor can put messages into that system. Similarly 
that State EAS entry point monitors a PEP station. So what you 
need to do is to ensure that each of those PEP stations is 
being monitored by each State EAS entry point, and then that 
message can then flow down to all the stations and cable 
systems in that State.
    Mr. Thompson. So is that being done now?
    Mr. Lucia. Well, some of the States have developed--can 
reliably monitor those 34 PEP stations. Some State EAS entry 
points cannot.
    Now, Mr. Hoover said they were going to add more PEP 
stations and they were going to put in a satellite system. That 
would solve the problem of getting the EAS national message to 
each of the State EAS entry points. The problem still exists 
below in the State EAS plans there are a lot of communities 
that need their own EAS structure, D.C. being one, and we are 
working on a plan for D.C. right now. So cities like New York, 
Chicago, St. Louis, they need to have State and local plans, 
and not only include EAS. It has got to include all of these 
systems working together because no one system can reach 
everybody. So that is--
    Mr. Thompson. So do we need to from a legislative 
standpoint, in your opinion, and I will throw it out, just 
mandate that operation in one agency, or--
    Mr. Lucia. Well, it appears DHS is that agency. The only 
question is the development of the State and local warning 
plans, integrated plans. That is still a voluntary thing.
    Mr. Thompson. Right.
    Mr. Lucia. I don't--I mean, if--and when you do the plans 
voluntarily, I think you get a better cooperation from all of 
the industries. If you mandate it, I am not so sure it will be 
done, but I am not so sure that--I don't know if the effects 
would be as well taken by the State and local officials, if you 
know what I mean.
    Mr. Thompson. Well, if you were trying to get a uniform 
systemSec. 
    Mr. Lucia. Correct.
    Mr. Thompson. Mandating it wouldn't give you--
    Mr. Lucia. Well, the national system is mandated. In other 
words, the code that the President uses on the EAS system will 
automatically take over all the EAS equipment that it sees, 
that it gets to. All the other codes. Tornado warnings, 
evacuations, all those codes presently in the FCC regulations 
are used on a voluntary basis. The officials request the 
broadcasters to put out a tornado, you know, the Weather 
Service requests the broadcaster to put out a tornado warning. 
The local emergency manager requests that the broadcaster put 
out an evacuation order. But these are done on a voluntary 
basis. And when you have a plan where the originator says, 
well, do you agree with me, Mr. Broadcaster, that we should put 
tornado warnings out and the broadcaster says, sure, I will do 
it. So when you have that plan structure and when you have that 
cooperation in advance, I think it works better that way. But 
the question is, how do we get it done across the country that 
way?
    Mr. Ward. The only mandate that exists at the moment for 
Federal agencies is to deliver the President's message. Both 
the FCC and FEMA have that mandate. Nobody has the clear 
mandate to make sure the public is warned.
    Mr. Thompson. Thank you.
    Mr. Shadegg. The time of the gentleman has expired. The 
Chair would call on the gentleman from California, the chairman 
of the full committee, Mr. Cox.
    Mr. Cox. Thank you. I wonder if any of our three witnesses 
would care to describe with some particularity how the Internet 
might be used as part of the digital warning system.
    Mr. Ward. The AMBER Alert Web Portal that is now 
operational in Arizona and Washington State is using the 
Internet, and it is quickly confused. It is not just a Web 
site. The information shows up on many Web sites. But that is 
just the window into what is going on behind that. What happens 
is there is a form that the local policeman can fill out. When 
he hits return, it immediately goes out over the Internet to 
hundreds of locations, to news desks, to--it can--we have shown 
it could drive the EAS system. It can go anywhere you want to 
go.
    Mr. Cox. Well, I want to ask the question a little 
differently, because I am obviously well aware of that. But 
what we have been talking about here is how, for example, in 
your own testimony, we can be driving along and our radio is 
turned on and gives us a message, or our radio, if we had it 
on, already is interrupted. Likewise that is the way our 
emergency television broadcast system is going to work. What is 
the Internet equivalent?
    Mr. Ward. Well, what the Internet does is get the 
information to the people that can operate those systems. It is 
the pipeline from the warning originator to the people that 
operate those systems. So, for example, it is through Internet 
and other digital networks that would get it to the Association 
of Public Television Stations that would broadcast it 
nationwide. Or whatever--
    Mr. Cox. Well, I understand how we can e-mail one another 
essentially. But what I am asking is whether there is a real 
time interruption capability that we could introduce for use on 
the Internet or whether that is not envisioned by any of our 
three witnesses.
    Mr. Ward. No, you can send high speed messages immediately, 
either by Internet or by all kinds of public and private 
digital networks. That will immediately trigger these issues. 
Now, if the Internet is clogged that is one reason you can't--
    Mr. Cox. Mr. Ward, do you understand my question though?
    Mr. Ward. Yes, I believe so.
    Mr. Cox. Let's say that you have your computer turned on. 
We will make this easier. It is already turned on and you are 
actually using the Internet. You are viewing a Web site. Is 
there any push technology that will pop something up on your 
screen that anyone envisions that will provide this kind of 
emergency warning in a comparable way to the example that you 
gave in your own testimony about the driver going down the 
highway whose radio is interrupted with this kind of a message?
    Mr. Ward. Yes. Many of us now when we get e-mail a little 
pop up comes up on the screen and says you have new e-mail. 
That same capability could take over the screen and give you 
that warning.
    Mr. Cox. Now I know that is theoretically possible. Is 
there anything in prospect that you know that anyone has 
developed?
    Mr. Ward. Yes.
    Mr. Cox. Who is that?
    Mr. Ward. I can't give you the name of the companies, but 
many companies are working on that. Many networks are working 
on it. It is--you can send it to the screen and there are 
already over Internet systems that you can download that will 
put it up there.
    Mr. Cox. How is that going to work external to the computer 
with nothing pre-installed?
    Mr. Ward. The important part at the moment is that the 
Internet is used to communicate that out and you are going--it 
will eventually be built into the systems to be able to display 
it in any way you want. Maybe not even display it on screen, to 
give you sound. But what the Internet and all the digital 
networks give us is the capability to get the information 
there. When we have it there in standard ways, there are all 
kinds of companies that can give us ways to sound that, to turn 
it into words, to make it visible.
    Mr. Cox. I think the question that Mr. Thompson put both to 
the first panel and to this panel is getting us close to the 
nub of the problem. We have the potential to reach almost 
everyone in the country if time were not of the essence, 
because so many people do have televisions. So many people do 
have radios, and so on. But at any given moment they may not be 
watching television. They may not be in the place where they 
can listen to the radio. We are a good example right here in 
this room. I mean we have got a screen up there. We have got 
all sorts of wiring and broadcast capability right in this room 
and none of it is turned on. So if we were to hear something 
about an emergency, a dirty bomb has gone off in the Capital, 
evacuate, it would have to be external to us, somebody would 
have to come in the door and tell us or we would have to hear 
the thundering herds rumbling down the hallway because they 
have gotten their notification in some other way.
    So the task is to take advantage, and I think much of your 
testimony has touched on this, is to take the technologies that 
is already deployed because we are all using so much of it so 
often. You know, I have a cell phone in my pocket. Some of us 
have pagers, some of us have Blackberries. There are all sorts 
of other equipment, and get that message out to as many people 
as possible right away, not through intermediation. If all we 
are using the Internet for is to send an e-mail to somebody who 
might broadcast it through some separate service that we are 
not watching anyway, we haven't come close to solving this 
problem, it seems to me.
    Mr. Ward. There is already a system being demonstrated this 
summer in several months across the country. It is operated by 
the U.N. in Iraq and other areas that can broadcast a signal to 
all cell phones, every cell phone, without knowing who the 
people are, within a cell, within a specific geographic region. 
Those are the kind of technologies that are readily available 
to be implemented once we have the standard source of data 
coming over the networks.
    Mr. Cox. Now I am a little bit troubled by something you 
said earlier, which is that we are going to overload the system 
with SMS messages, and SMS are tiny bandwidth. But if that is 
going to overload the system--you also said if you call 
everyone on their cell phones that is going to overload the 
system. Why is it then that you say this is readily available?
    Mr. Ward. If you need to address an individual telephone, 
it takes several seconds to do that through the network. If you 
broadcast to all cell phones in the area without addressing a 
telephone, you can get to all of them instantaneously.
    Mr. Cox. It is going to overload the system. My time has 
expired, Mr. Chairman. Thank you.
    Mr. Shadegg. I cut off Ms. McGinnis, and in all fairness 
even though you are the full committee Chair I think I have to 
proceed. The Chair would call upon the gentlelady from the 
District of Columbia for her questioning.
    Ms. Norton. Thank you very much, Mr. Chairman. I had 
indicated my own concern about this region. That really went to 
implementation. I suspect that we probably have as good an 
early alert system as you are going to find. I know you have a 
lot of technology in this region, as you might expect. I am 
interested that--I guess it was Mr. Ward said that the 
technology is not the problem. There should be, you say, a 
single Federal agency responsible for assuring that these 
communication procedures exist throughout the country. I mean, 
I would hope that that is what the Homeland Security Department 
is there for. The notion that you have to recommend it at this 
point is itself troubling. In this city we now have with the 
region interoperability, we can talk all through the region. We 
can talk deep into burning buildings and the rest of it. On 
tomorrow the District of Columbia is going to demonstrate a 
broadband digital wireless network, the first in the country, 
that will really allow you to see, for example, inside a tunnel 
if something is happening. They are leading a Spectrum 
Coalition For Public Safety and are going to demonstrate this 
tomorrow here in the Capitol.
    So you know, you would think, technology seems to be 
gathering steam. But let me show you where I think the 
technology falls real short.
    When the Orange alert came to the District of Columbia, the 
Capitol Police and the security officials reverted to 19th 
century technology, you know, closing up streets, closing up a 
street, checkpoints. My grandfather entered the D.C. Fire 
Department in 1902. That is exactly what he would have done. So 
I wasn't very impressed with what they were doing to prevent a 
disaster. And I think this notion of communication and early 
warning goes far more to the notion that you want to prevent a 
disaster from getting anywhere close to targeted areas than it 
does to hey, you know, the British are coming, so everybody get 
under your desks.
    I asked the security officials here, the Sergeant at Arms, 
both sides, the Capitol Police, whether there wasn't some 
technology that could keep us from, you know, peering into--you 
know, having checkpoints that lined cars up, peering into the 
back of cars because I understand what they were after, and 
they said no. I said I just don't believe that. The one, quote, 
technology they used or tested after the Orange alert was very 
low technology indeed. But it is rather interesting and common 
sense that as--the way in which this would work is if there 
were a large vehicle, like a truck coming toward the targeted 
area, the Capitol, they could turn on lights red, they say, and 
they tested this, and stop this truck or get to this truck. And 
that is not exactly 21st century technology, but that is the 
only thing they have shown us. I am very interested in whether 
or not there is early warning technology that gets us 
somewhat--that does not require that warnings and action be 
taken as the event is about to occur.
    Ms. Norton. So that we send the signal to everybody, baton 
down your hatches.
    I am interested in what you can tell me about technology or 
methodology for, for example, an orange alert, or a situation 
where you really want to communicate to people that--or use 
technology to keep an area safe and communicate to people that 
they should perhaps should not come into an area or should use 
another area. I am not impressed, if this is a test of what we 
do when we are trying to prevent an event, if what is happening 
around the Capitol is a test. All I can say is I think we have 
failed the test. And I would look to technology, I would look 
to whether or not, for example, in place of a checkpoint, there 
is some technology you could use that would allow cars to come 
up, at least the average car if not the large cars, to come up. 
I would look to some technology that could keep you from 
closing streets.
    And I wonder if in the work of any of you, you have seen 
either technologies or methodologies that would in fact 
safeguard such areas well in advance of the event through the 
use of technology or other approaches.
    Mr. Ward. The technology we need is for an emergency 
manager or other authority, when they have the information, 
whenever they get it, whether it is long before or just as it 
is happening or whatever, to be able to get that to the people 
who need to know it. That is the warning system we are talking 
about.
    And, again, we have that technology, but it is in many 
scattered forms; it is not integrated into a system. And what 
we are talking about is the need to have that system to 
integrate it so that the emergency manager doesn't have to 
worry about how the technology works, just knows that if they 
put the information here they can designate exactly where that 
information will go.
    Ms. Norton. Does anyone else have any--for example, what we 
have around the Capitol also, we have these pop-up, what do you 
call it, barriers. That is good. But that means something is 
coming right at you right now, I suppose; or it means that 
maybe just trying to stop something in case something comes at 
you. And, of course, we have the barriers that are around here.
    But, again, you would think at this point there would be 
some way to more quickly scan the kinds of vehicles you are 
concerned about, the kinds of people you are concerned about. 
And yet I really don't see any evidence of that anywhere. And 
we are really stopping up the society. This is a commercial 
society. Things need to go happen. Even if they don't have to 
happen in the Capitol, they need to happen in the rest of the 
world. I do not see much evidence of that in the use of 
technology in particular.
    Mr. Shadegg. Does anybody wish to respond?
    Mr. Lucia. Well, the only thing I think I can offer is the 
first responders have to have the capability to communicate 
messages to the systems that will then notify the public. If 
they need special systems to do that, like around, you know, 
the nuclear plants or wherever, then that needs to be done; 
because without it, they are not going to be able to get their 
messages to the people at risk.
    Mr. Shadegg. Ms. McGinnis, did you want to comment?
    Ms. McGinnis. I think this is a subject for probably 
another hearing, because it is a different sort of technology 
that you are talking about in terms of scanning, you know, 
devices that we are seeing now in airports and having to do 
with baggage and cargo and that sort of thing.
    But I guess the one thing I would offer in terms of 
prevention is we recommended that there be a way, a simple way 
for the public to report suspicious behavior into a system like 
a 311 or a 911 system that would be received locally, but in 
which the information would be shared, as appropriate, so that 
it could be turned into an alert, if that were necessary, or 
used by intelligence officials or others.
    So it is not just getting information out to people in a 
timely way, but it is also having a simple, well-organized 
system to receive information and use it appropriately.
    Mr. Shadegg. Mr. Ward, I want to clarify one point. In the 
discussion with Mr. Cox, I think you had said that if you have 
to dial every phone number, that that could overburden the 
phone system and bring it down--as actually happened here in 
the Capitol Hill area on 9/11 when our cell phones became 
useless. And I understand the same would be true if you had to 
dial a phone number for every single cell phone number.
    What I understood your testimony, however, to be was that 
there are systems in place--you mentioned in Iraq--where, by 
not dialing each individual number but, rather, sending a radio 
signal, you could in fact send a signal to all cell phones at 
least without clogging the system. Is that correct?
    Mr. Ward. Yes. It is actually a transmission from the cell 
tower which dominates an area of a few miles. And any cell 
phone within that, that is communicating with that tower, will 
get that message immediately. That is one example. There are 
many technologies to do that.
    Mr. Shadegg. I want to conclude with one kind of question 
and ask each of you to comment on it. To a certain degree, I at 
least--and I think this may be true of other members of the 
panel--feel some degree of frustration. All of us feel the 
system is not adequate. All of us would like to see it be 
better. We have heard encouraging testimony about the 
technology that can make it better.
    But if I understand the overall thrust of the testimony, it 
is that while there is a Federal alert system, its 
implementation requires voluntary work by local entities. And 
in the sense that we don't have one right now that we can use 
in the event of a next terrorist attack, it appears that at 
least passing a bill at the Federal level won't solve the 
problem. So that is somewhat frustrating for us because we are 
here to solve problems. And we want to have a single mechanism 
that will allow all Americans to be notified, whether it 
requires a national notice or whether it requires a regional 
notice, because there is a terrorist attack or a dirty bomb on 
Capitol Hill or in north Phoenix where I live.
    I guess my--given that circumstance--and let me give you 
each an opportunity to say, if you can encourage this 
subcommittee and the full committee to do one thing, would you 
make a recommendation; and, if so, what would that be? For each 
of you.
    Mr. Ward. I should say on the National Strategy for Public 
Warning, there is on page 29 a clear recommendation of what the 
President and Congress should do and what Homeland Security 
should do. Without going into all that, the biggest issue we 
face is this frustration that you mentioned of getting people 
to work together.
    To me, having worked in this area for a long time and 
talked to a lot of people that are frustrated that way, what we 
are seeing in the Amber Web alert portal is a breath of fresh 
air. It is a way of getting people to work together. And I am 
really hopeful that we are going to find a way to move that 
into all hazards, because it is a model that gets past this 
frustration and gets the job done.
    Mr. Shadegg. Mr. Lucia.
    Mr. Lucia. Yes. Some States and local areas have developed 
excellent local emergency plans. They are model plans. The 
question is, how do we get the other States and localities to 
model their plans after that, because each State and local area 
is so unique, they have different assets? That is a question. I 
mean, we could mandate it and say you are going to do it this 
way?
    Mr. Shadegg. Maybe financial incentives.
    Mr. Lucia. Possibly. And also providing, let us say, if a 
particular emergency manager doesn't have a radio system to get 
into these systems, how do we get money to him so that he can 
do that? Just these little things here and there, I think, can 
add a lot of impetus to all the areas to develop plans.
    Ms. McGinnis. I mentioned that the National Strategy for 
Homeland Security is out of date. I think we need an up-to-date 
national strategy with a clear goal around being able to reach 
everyone in an emergency situation. And the measures, I think, 
are pretty obvious. We could--you know, the performance 
measures could be specified, roles and responsibilities for 
State and local government; and you would see with that kind of 
strategic approach funding that goes out to State and local 
government focused on meeting those goals, achieving those 
measures, and actually, you know, by a date certain, if time 
frames are established, having a system that can reach 
everyone.
    Mr. Shadegg. That is certainly the goal and that is what we 
need to do. Thank you very much for the testimony. The hearing 
record will be remain open for 10 days. There may be additional 
questions submitted by members who weren't able to attend. They 
will be submitted to you, and we would appreciate your 
cooperation in responding to those. Again, thank you very much 
for your testimony. The subcommittee stands adjourned.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]

                             FOR THE RECORD

                        Questions for the Record

                 From the Honorable Bennie G. Thompson

                           For Reynold Hoover

                           September 22, 2004

    In the Administration's fiscal year 2005 budget, you requested an 
additional $2 million for Emergency Alert System (EAS) upgrades. 
Specifically, you indicated that these funds would be used to enhance 
communications linkages between the 34 Primary Entry Points and the 
FEMA Operations Center.

    Question 1(a): What is the total proposed FEMA budget for EAS for 
fiscal year 2005, and what specific activities does this budget 
support?
    Answer: The total FEMA budget specifically designated for Emergency 
Alert System (EAS) upgrades in fiscal year 2005 is $2.15 million. This 
budget provides for satellite connectivity upgrades for the Primary 
Entry Point (PEP) stations and for expanding the PEP network to all 50 
states and four U.S. territories. In addition FEMA, in coordination 
with the Department of Homeland Security's (DHS) Information Analysis 
and Infrastructure Protection Directorate (IAIP) will spend an 
additional $18 million on other public alert and warning initiatives, 
to include pilot programs and a compendium of studies to develop an 
Integrated Public Alert and Warning System (IPAWS) architecture. This 
architecture will serve as a consolidated DHS roadmap for the future of 
EAS and for public alert and warning and mass notification.

    Question 1(b): How many full-time FEMA employees work solely on the 
EAS?
    Answer: FEMA's Office of National Security Coordination (ONSC), 
provides Program Management for the EAS as well as for other public 
alert and warning initiatives. This effort is directly linked and 
coordinated with IAIP. While there are no full-time employees working 
solely on the EAS, there are eight employees within ONSC who provide 
support to the EAS. In addition, an integrated project team within FEMA 
that includes our Information Technology Services Division and the 
Response and Preparedness Divisions provide support to ONSC and the 
EAS. Further, employees assigned to the FEMA Operations Center and 
Alternate Operations Center are directly involved with EAS testing, 
activation, and operation.

    Question 1(c): Does FEMA provide any guidance to state and local 
governments regarding EAS messages, or do your activities focus only on 
``Presidential Alerts?''
    Answer: As an ``all hazards'' agency, FEMA is not solely focused on 
``Presidential Alerts'' and, while we serve as the Executive Agent for 
the operation of the national-level EAS, we do provide guidance to 
State and local emergency managers regarding a variety of alert and 
warning systems, including outdoor warning systems.

    Question 2: Why wasn't a Presidential Alert issued through the EAS 
on September 11, 2001? This would seem to be exactly the type of 
incident where use of the EAS would be necessary and appropriate.
    Answer: The national level EAS assumes that the President will have 
access to national media outlets during a crisis and that the System 
would only be used as a Presidential contingency communications means 
when other outlets are unavailable. On September 11, 2001, the national 
level EAS was operational, but was not activated, because national news 
outlets already were providing the latest information and the President 
was able to use those media sources to communicate with the nation.

    In 2000, the White House issued a report entitled ``Effective 
Disaster Warnings.'' The report recommended that a working group of 
Federal agencies should develop a single, consistent, easily understood 
terminology that can be used as a standard across all hazards and 
situations.

    Question 3(a): Was this working group ever assembled, and has any 
standard warning terminology been developed? If not, why not?
    Answer: While this group was never established, DHS, including 
FEMA, IAIP and the National Communications System, the Federal 
Communications Commission (FCC), the National Oceanic and Atmospheric 
Administration (NOAA) and other Federal agencies have participated in 
the activities of the Partnership for Public Warning (PPW), which 
examined issues related to standard warning terminology. Many of the 
recommendations on alert, warning and EAS improvements offered by PPW 
and the FCC's Media Security and Reliability Council are under 
consideration by DHS. We believe the recent launch of DHS's IPAWS; 
combined with the FCC's Notice of Proposed Rulemaking on EAS, will help 
address common alerting protocol recommendations.

    Questions 3(b): Since September 11, has there been any effort to 
develop specific messages that would inform the population of what 
actions they should take in the event of a chemical, biological, 
radiological, or nuclear attack?
    Answer: Yes. DHS has provided several sources for such information 
to include, the www.Ready.Gov website and ``Are You Ready? An In-depth 
Guide to Citizen Preparedness.'' These information resources, and 
others that the Department has developed in consultation with the 
private sector, provide the public with guidance on what to do before, 
during, and after such attacks. Furthermore, the National Response Plan 
(NRP) Incident Communications Emergency Policy and Procedures (ICEPP) 
is the primary incident communications plan for use by the Federal 
interagency community. It is used in conjunction with State and local 
authorities to manage incident communications and Public Affairs 
activities during domestic incidents. The NRP-ICEPP incorporates 
specific incident communications guidance on operations in support of 
weapons of mass destruction (WMD) or catastrophic incident scenarios. 
This appendix will be used in conjunction with the NRP-ICEPP during 
such incidents. It provides detailed information on Departmental and 
Agency incident communications resources to support response 
contingency plans.

    The White House report also recommended that warnings should be 
delivered through as many communication channels as practicable so that 
those users who are at risk can get the message whether inside or 
outside, at home, work, or school, while shopping or in transportation 
systems.

    Question 4: Has there been any effort to implement a national 
warning system that could reach the public through multiple 
communications systems, other than the EAS system?
    Answer: Yes. DHS has several efforts underway to implement a 
national warning system that could reach the public through multiple 
communications systems, other than the legacy EAS. In coordination with 
the FCC, NOAA, television and radio broadcasters, wireless service 
providers and others, we are exploring the use of digital and other 
cutting edge technologies that will enable the government to provide 
``all hazards'' alerts, warnings, and Presidential messaging to the 
greatest number of people all of the time. This includes persons with 
disabilities and individuals for whom English is a second language. We 
are confident that the IPAWS under development and undergoing pilot 
testing in the National Capital Region will provide the backbone for a 
national warning system that can reach the public through multiple 
communications systems.
    In addition, FEMA's Preparedness Division has several studies 
underway to facilitate the design, development, implementation and 
maintenance of a national warning system. These include the following: 
``Outdoor Public Alerting System Guide'' dated December 2004; ``Public 
Warning System Redevelopment Project'' in draft form; and ``Warning 
America'' dated February 2004. These studies are being or will be 
coordinated fully with the Office of National Security Coordination.
    DHS and the Departments of Commerce and Education are conducting a 
pilot program to distribute NOAA All Hazards Radios to public schools 
in rural states and in top threat cities around the country. This pilot 
will significantly improve our ability to provide alert and warning 
messages to the nation.
    Finally, the National Science and Technology Council, author of 
``Effective Disaster Warnings'' will be revisiting the original report 
this year and will take into account changes since the 2000 issuance.

    We can likely all agree that in times of national crisis, reliable 
and timely information is crucial. Most Americans presently get their 
emergency information from the antiquated Emergency Broadcast System. 
But in the event of a local or regional power failure, these 
information sources are mostly unavailable. We should have the 
capability to use a quick, accurate and versatile official 
communications alternative that can focus in on specific neighborhoods 
or cities, or be expanded if necessary to whole regions or the entire 
country. Because of this need, Representative Meek, a member of the 
Homeland Security Committee, introduce HR 2250, referred to as the 
READICALL bill. The bill requires the Secretary of Homeland Security to 
use existing resources--just like the present emergency broadcast 
system using existing resources--to create a fast, efficient and 
reliable emergency communications system based on the nation's public 
telephone system, including cellular phones, on a 24 hour/365 days-a-
year basis. The system could only be activated by the Secretary of 
Homeland Security, and only to keep the public informed of imminent or 
current hazardous events or on measures that should be taken to 
alleviate or minimize danger. The aim of the legislation is to keep our 
citizens informed in the terrible event that there is a national, 
regional, or local terrorist emergency and present sources of 
communication are not simply available. Minutes can make a huge 
difference in an attack or disaster; accurate information pin-pointed 
to the affected area can make all the difference.

    Question 5: Has anyone at FEMA or DHS researched or considered such 
an emergency warning system? What are your initial thoughts on such a 
system?
    Answer: As a point of clarification, the current EAS replaced the 
Emergency Broadcast System in 1997, and operates at the national level 
from the FEMA Operations Center to 34 PEP stations across the country. 
FEMA does agree that in times of national crisis, reliable and timely 
information is crucial. Moreover, we take our responsibility to provide 
critical, and life saving, information to our homeland security 
partners and the public very seriously. In that regard, DHS has several 
initiatives underway within the IPAWS program to examine how to best 
use the nation's telecommunications systems to perform public alert and 
warning missions. For example, we are working with wireless service 
providers as part of the Digital Alert and Warning System pilot project 
in the National Capital Region; and, we are working with NOAA to 
demonstrate geo--targeted reverse--911 technology that will allow us to 
call specific households or businesses in an impacted or threat area to 
provide emergency information.

 Responses from Patricia McGinnis, President and CEO, The Council for 
                        Excellence in Government

                       To the Questions Submitted

             By the Subcommittee on Emergency Preparedness

                 Select Committee on Homeland Security

                 United States House of Representatives

                            October 29, 2004

    Questions from the Honorable Jim Turner, Ranking Minority Member

    Question: You said in your statement that one of the biggest 
findings of your report was a communications gap between government and 
citizens, both in terms of planning that is going on and what 
specifically the public should do in times of emergencies related to 
terrorism. Despite 3 years of efforts by all levels of government to 
tackle homeland security, why do you think this gap exists?
    Response: Our May 2004 Hart/Teeter poll revealed that most 
Americans felt safer then than they did two years ago. This is 
partially the result of three years of visible efforts by all levels of 
government to improve the homeland security posture of the country.
    However, despite all the planning being done at the federal, state 
and local government in coordination with first responders, our town 
hall meetings in seven major cities and our national public opinion 
poll confirmed that most citizens are not familiar with local emergency 
plans or those in their workplaces or children's schools. As a father 
in our San Diego town hall said, ``We were told by my son's school that 
we should come up with a family evacuation plan. . .but it's hard to 
come up with a plan when you don't know what the school plans to do in 
the event of an emergency.''
    Information about homeland security is available on many websites 
but it can be remarkably difficult to find the emergency plans of most 
local governments. To encourage dissemination and awareness, we have 
recommended that information be marketed through many channels of 
communication, including the media, schools, and workplaces.
    Our Hart/Teeter poll also found first responders are aware of a 
communications gap with citizens. A solid majority (60%) rated the 
communication between their agency and citizens as only somewhat 
effective and efficient. Fully 86% of first responders, however, say 
there is a role for average citizens in homeland security. Marketing 
information to the public is not a primary skill set of first 
responders and government officials. The challenges we face require 
unusual communication strategies and many trusted messengers.
    Another reason for the communications gap is the low participation 
in emergency preparedness drills. Nearly three in five Americans say 
that neither they nor anyone in their family participated in an 
emergency drill in the past year. Among those who have participated in 
a drill, school are the most common location, workplace drill 
participation is nearly as common at 18%. Just 3% of Americans have 
participated in a drill with their family, and just 4% have 
participated in a community drill.
    The communication gap between governments and citizens shows the 
real need for a concerted outreach strategy that not only informs the 
public but actively seeks their participation in preparing for homeland 
security.

 Questions from the Hon. Bennie Thompson, Subcommittee Ranking Member 
                    for Patricia McGinnis Responses

    Question: Your recent survey and follow-up report found that more 
than half (53%) of Americans say that they would turn on their 
television to find information about preparing for a terrorist attack, 
learn about the latest threats, and receive guidance on security 
precautions. Given this information, would you recommend that any 
changes to the warning system be focused on delivering messages via 
television?
    Public warning systems should recognize that citizens will 
naturally rely on television to receive information in almost any 
emergency or hazardous situation. Indeed, over half of the respondents 
in our survey said they would rely on television for information about 
what to do if there were a terrorist attack near them. One in five or 
21 percent said they would rely on radio, followed by cell phones at 9 
percent and landline phones at 8 percent.
    But, what if they power is out, or for other reasons, access to 
television is not possible. In addition to battery operated radios, new 
communications systems are being deployed that can broaden the reach of 
current warning systems. For instance, we learned that the Texas 
Education Agency now has the ability to simultaneously communicate with 
multiple people within the school district on various self-selected 
communication devices. In addition, the system is capable of initiating 
a voice-only alert via the public telephone network and interfacing or 
connecting to other communication devices. Relying exclusively on 
television for warnings may not be as timely as that provided by 
instantaneous and on-the-spot information services delivered to mobile 
phones, pagers, and other wireless communication devices.
    We should move in the direction of having televisions, radios and 
other communications devises equipped to receive digital signals of 
emergency warnings.

    Question: Based on the town meetings that you held around the 
Nation, what preparedness information does the public want, and how 
does the public go about gathering preparedness information?
    We asked this specific Question as a part of our national public 
opinion poll released in May 2004. The public wants easy to use 
preparedness and incident response information on key threats: Bio-
terrorism, chemical attacks, and attacks on power plants, water 
facilities and other critical infrastructure. In our poll, nearly half 
of Americans put bioterrorism at the top of their list, chemical 
weapons were second at 37 percent and a nuclear attack was third with 
23 percent.
    When asked to rank which potential targets remain a concern for 
them 49 percent of Americans responded that an attack on a power plant 
is their top concern followed by 46 percent of respondents worried 
about an attack on airports or airplanes, and 44 percent listed water 
facilities as a target of concern.
    Our research showed that the public gathers preparedness 
information from a variety of sources. Television was the number one 
choice of citizens (53 percent) when asked where they would look first 
if they wanted to find information on preparing for a terrorist attack, 
learn about the latest threats, and get guidance on security 
precautions. Three in ten (31%) of Americans when asked the same 
Question said they would turn toward the internet. Young adults were 
particularly likely to choose the Internet over television. Eight 
percent of the public said they would choose the radio first and just 3 
percent said they would open a newspaper first.
    Following our recommendation, the Department of Homeland Security 
made a step in the right direction by designating September as 
``Emergency Preparedness Month''.
    In our report, we made several recommendations on how communities 
and organizations can be more proactive and creative in getting 
preparedness information to the public. For example,
        <bullet> Schools could engage parents and students in their 
        emergency plans during ``back-to-school'' activities and PTA 
        meetings. Private employers should have up-to-date and 
        comprehensive workplace plans, kits and activities, which 
        should include: emergency information posted on employee 
        bulletin boards, periodic all-staff meetings to share 
        information, and an in-house alerting strategy to quickly 
        inform employees with evacuation procedures or other actions to 
        perform in an emergency.
        <bullet> Local governments should produce an index card of 
        critical information in a user-friendly format that can be 
        distributed in multiple languages, through many channels to 
        homes, workplaces, and schools.
        <bullet> State and local governments should include reporters 
        in homeland security training exercises as active participants.
        <bullet> Local officials should offer citizens a service that 
        will send homeland security information or alerts to cell 
        phones, email addresses, pagers and other personal 
        communication devices. This system should have the capacity to 
        ensure continuity of operations and the accurate and timely 
        flow of information in an emergency.
        <bullet> Members of Congress should include an emergency 
        preparedness ``at-a-glance'' card in their September 
        constituent newsletter.
        <bullet> Managers of privately owned critical infrastructure 
        facilities should communicate to citizens through ongoing 
        corporate affairs, advertising and marketing campaigns about 
        specific steps they have taken to secure their facilities.
        <bullet> Broadcast media organizations should partner with 
        business and local government to run public service 
        announcements about homeland security and emergency 
        preparedness.

    Question: What information should the public receive in a warning 
message? How tailored or specific should warning messages be in order 
to be effective? Do the current warning systems provide enough 
information for the public to take appropriate action in response to a 
disaster, emergency, or act of terrorism?
    The public should receive warnings that are specific to their 
location, describe the threat with clear instructions about who should 
do what, when, where and how.
    Clearly, most current warning systems do not deliver detailed or 
geographical specific information to the public, and not everyone has 
access to our national emergency alert system. As we know from our 
polling, the American public is worried about many different but 
specific types of emergencies, bio-terrorism, chemical attacks, nuclear 
attacks as well as attacks on critical infrastructure, and often these 
are not covered by current warning messages.
    Different types of emergencies require different actions by 
citizens, but our older warning systems were not built with this in 
mind. Would the average citizen know when it is better to shelter-in-
place instead of moving locations? Would they be comfortable enough 
with detailed emergency plans distributed by their children's schools 
to know that the school was keeping their children safe too? The 
integration and coordination of threat specific emergency warning plans 
is essential.
                      U.S. House of Representatives
                               Select Committee on Homeland
                                   Washington, DC, October 27, 2004
Dear Chairman Cox,
    This document is submitted in response to your letter of 
October 13, 2004 containing several additional questions 
concerning the oversight hearing entitled ``Emergency Warning 
Systems: Ways to Notify the Public in the New Era of Homeland 
Security,'' on Wednesday, September 22, 2004.
    Attached are my answers to the questions supplied by the 
Honorable Bennie Thompson, Subcommittee Ranking Member.
    Thank you for the opportunity to appear before the 
Subcommittee on Emergency Preparedness and Response. Thank you 
especially for your strong continued interest in improving our 
public warning capability in America.
                                         Sincerely,

                                          Dr. Peter L. Ward

    Question: 1. In February of this year, the Partnership for Public 
Warning assessed the EAS, and made a number of recommendations for 
improvement. In particular, you recommended that DHS take the lead in 
creating an effective national public warning capability.<bullet> What 
organization in DHS should take the lead on updating or replacing the 
EAS? Should it remain a "national security" based system, or should it 
be changed to better address the all- hazards nature of most warnings?
    The national need is to upgrade public warning systems of which the 
EAS is a part.
    Approximately 75% of the public warnings typically issued each year 
come from the National Weather Service and are for severe weather or 
flooding. Approximately 15 to 20% relate to accidents or ongoing 
hazards issued by first responders or emergency managers. The balance 
includes missing children (AMBER Alerts) and many other hazards such as 
volcanoes, earthquakes and such. Specific National Security Warnings 
are likely to be less than 1% of the warnings issued based on current 
experience.
    Coordinating an effective National Warning System involves working 
with most groups in DHS including:
        <bullet> Emergency Preparedness & Response (FEMA has the 
        deepest roots in the communities and with the emergency 
        managers and fire services)
        <bullet> Information Analysis & Infrastructure Protection
        <bullet> Border & Transportation Security
        <bullet> Science & Technology
        <bullet> Coast Guard
        <bullet> Citizenship & Immigration Services
        <bullet> Homeland Security Advisory Council
        <bullet> National Infrastructure Advisory Council
    It also involves close interaction with many other agencies 
involved in warnings or regulating warning services including:
        <bullet> Federal Communication Commission
        <bullet> Department of Commerce/NOAA/National Weather Service
        <bullet> Department of Interior/US Geological Survey
        <bullet> Department of Agriculture/Forest Service
        <bullet> Department of Justice
        <bullet> Department of Transportation
        <bullet> Department of Health and Human Services/CDC and others
        <bullet> Nuclear Regulatory Commission
    Thus the overall responsibility for warning within DHS should rest 
with a person or small office within the Office of the Secretary for 
Homeland Security.
    You also need to ask the question: What is the appropriate role of 
the Federal government in national public warning?
    (1) The primary responsibility for public warning lies with county, 
city and tribal government and nearly all public warnings issued are 
focused on very specific localities. Thus the primary role of the 
Federal government is to support State and local government with 
technical information from organizations such as the National Weather 
Service and with intelligence information from law enforcement and 
intelligence agencies. The Federal government may issue warnings, but 
it is on behalf of local government where time is of the essence.
    (2) The other primary role of the Federal government in public 
warning is to assure that nationally standardized public warning 
systems are available nationwide, that they are effective, and that 
they are properly utilized.
    These issues are addressed more fully in A National Strategy for 
Integrated Public Warning Policy and Capability published by the 
Partnership for Public Warning on May 16, 2003 (ppw.us/ppw/docs/
nationalstrategyfinal.pdf).
    It is also important to realize that most infrastructure for 
warning the public is and will be privately owned and operated. Thus 
the Federal government needs to work closely not only with local 
government but also with industry. Development of an effective public 
warning system requires a public/private partnership. A top down 
approach from Washington has not worked effectively in the past. The 
Federal government needs to provide leadership by bringing the key 
stakeholders together. Thus within DHS, it seems very appropriate to 
establish a National Public Warning Advisory Committee.
    As I explained in my testimony, a public/private partnership among 
law enforcement, emergency managers, first responders, the nations 
broadcasters and industry has already implemented the AMBER Alert Web 
Portal warning system in two States and it will soon to be implemented 
in 12 more States. The National Association of State Chief Information 
Officers (NASCIO) has proposed to DHS to extend this approach to all-
hazard warning through a pilot project in the National Capitol Region 
and Washington State over the next 6 months. I believe that such a 
partnership working closely with DHS and other Federal agencies has the 
best chance for significantly improving public warning capability 
within the near future. As you know, Congressman Shadegg has introduced 
an amendment included in the House version of the 9/11 bill supporting 
this approach.
        <bullet> What roles should the FCC and the National Weather 
        Service play if DHS is the lead agency for the EAS and other 
        warning systems?
    The FCC carries the big stick with respect to the communication 
industries and infrastructure. They need to be involved in encouraging 
and potentially regulating all types of warning capabilities, not just 
EAS.
    The National Weather Service issues most warnings and has an 
excellent operational capability throughout the United States. They 
need to play a major role and perhaps should assign an employee to work 
with the warning coordinator or Office within DHS.
        <bullet> Do you believe legislation is required to clarify 
        responsibility and accountability for warnings? What would such 
        legislation do?
    The primary reason for the poor warning systems existing today in 
America is that no one agency has been assigned legislated 
responsibility or has assumed it. While the FCC, FEMA, and NOAA/NWS 
signed a Memorandum of Understanding in 1981 for operation of EBS (now 
EAS), all three agencies have reduced their involvement and funding 
over the years citing their legislative mandates and priorities. Thus 
legislation is required to assign and clarify responsibilities. The 
content of the legislation needs to be discussed in detail but should 
include:
        <bullet> A statement that an integrated public warning 
        capability is a national priority
        <bullet> Assign lead responsibility to the Secretary DHS for 
        ensuring that national public warning systems and procedures 
        exist, are effective, and are properly utilized to distribute 
        warnings and information for all types of hazards from all 
        official warning providers, to all potential warning 
        disseminators, and ultimately to all people directly at risk.
        <bullet> A statement that development of an effective public 
        warning system in America depends on a public/private 
        partnership between Federal, State, and local government and 
        industry.
        <bullet> Possibly establish a small office within the 
        Secretary's office or leave this for the Secretary to decide
        <bullet> Possibly establish a national advisory committee that 
        would involve the many stakeholders in warning systems
        <bullet> Discuss the need to coordinate with other Federal 
        agencies and what their roles might be
        <bullet> Describe what the relationship of the Federal warning 
        program should be in assisting the States, counties, and cities 
        who have the primary responsibility for public warning
        <bullet> Perhaps specify some characteristics of the national 
        warning capability
        <bullet> Provide appropriate funding for integrating public 
        warning policy and capability
    The pilot project proposed by NASCIO will provide an excellent test 
bed for refining such legislation.

    Question: 2. The February report also recommended that the 
Administration provide the necessary funding and resources to support 
and operate the EAS system.
        <bullet> What is the appropriate level of funding to adequately 
        maintain the current EAS system, and how much funding would be 
        required to significantly upgrade the system to reach multiple 
        communications modes and to be regularly utilized for purposes 
        other than ``Presidential alerts?''
    Proper maintenance and operation of EAS requires restoring the 
roles that FCC and FEMA played in training locals and working with them 
to develop warning plans. A minimal effort might involve approximately 
$1 million per year and several times that could be spent wisely.
    To upgrade public warning capability significantly within the 
United States, the first step is to establish a digital national 
warning infrastructure as outlined in my testimony. Those involved have 
proposed to DHS (FEMA, Science and Technology, and the DHS CIO) through 
the National Association of State Chief Information Officers (NASCIO) 
to carry out a pilot project in the National Capitol Region and 
Washington State within 6 months to demonstrate how such an 
infrastructure would work and to evaluate issues that would need to be 
resolved to expand nationally. That proposal requests $1.65 million. 
Expansion to a national capability can probably be done for 
approximately $10 million. Once this national warning infrastructure 
exists, warning capability will be significantly improved. The next 
step is to evaluate ways to improve specific technologies for 
delivering warnings directly to the people at risk. The issue becomes 
how much the government should fund versus what can be done through a 
public/private partnership and in the competitive marketplace. With 
clear national standards and a place for industry to receive official 
warnings for delivery, warning capability could be built into a wide 
variety of electronics as a way to sell new products. The government 
could spend some millions of dollars to stimulate these activities or 
some hundreds of millions to pay for them all.

    Question: 3. Based on your work, are there any particular 
technologies that would be best suited to improving the nation's 
warning systems? Rep. Meek, a member of the Full Committee, has 
introduced legislation that would implement a landline-based 
interactive notification system that would convey national, regional, 
and local emergency messages via the public switched telephone network 
to wire-line telephone subscribers located in the specific geographic 
areas affected by emergencies. Would this type of system be more 
effective than the current EAS?
    An effective public warning system needs to utilize all available 
technologies:
        <bullet> The EAS reaches only people listening to the radio or 
        watching television broadcast from ground based transmitters. 
        Few people listen or watch many hours per day. More than 20% 
        receive television via satellite and satellite radio is 
        increasing in popularity. For EAS to work via satellite there 
        needs to be intelligence built into the receiver to relay only 
        warnings that apply to that specific location. Receivers could 
        be built that turn themselves on upon receipt of a warning.
        <bullet> Most homes and offices have wire-line telephones and 
        warning by telephone would reach a large number of people 
        during the evening and night at home and during the day at 
        work. But it would not reach people who are out and about. Many 
        modern telephone handsets do not work during a power failure. 
        Equipment similar to Caller ID devices could receive, display, 
        and sound an alarm for a warning without answering the phone. 
        These could be built into future telephones.
        <bullet> 170 million Americans now have cellular telephone 
        service that may be the best way to reach them during the day. 
        Many have their handsets switched off at night. Cellular 
        telephones receive their signals from local transmitters so 
        broadcasting an alert to all cell phones within receiving 
        distance of a local transmitter is one of the most promising 
        technologies available currently for warning just the people at 
        risk. While this technology exists for most types of cell 
        phones, industry has not been supportive of implementation.
        <bullet> Internet is revolutionizing the way we share 
        information and programs are available to not only issue email 
        to a specific region but to push a warning directly onto your 
        screen and sound an alarm. This technology is most effective 
        for the 50% of Internet users in the US who are connected to 
        broadband Internet service typically 24 hours a day. Once a 
        warning has been issued, people often want more information. 
        Internet and an 800 number service are excellent sources.
        <bullet> NOAA Weather Radio (NWR) is a government sponsored 
        service with special receivers owned by up to 11% of the 
        population. Many of these receivers can turn themselves on to 
        broadcast a warning and one television manufacturer uses the 
        NWR signal to turn televisions on to broadcast a warning. Such 
        technology to turn on and sound a warning can easily be built 
        into all radio and television receivers when there are widely 
        accepted national standards.> Numerous other devices typically 
        carried by people could provide warnings including pagers, 
        pocket computers, digital wrist watches, and portable music 
        players.
        <bullet> Automobile navigation systems and On-Star type systems 
        could relay warnings.
        <bullet> Sirens and digital signs are two of the few ways to 
        reach people who are outside or at places of public gatherings 
        and not carrying some type of warning receiver.
    All of these types of technologies and many more need to be 
integrated into an effective national warning system using the approach 
described in my testimony. No one system will be sufficiently 
effective.

    Question: 4. We can likely all agree that in times of national 
crisis, reliable and timely information is crucial. Most Americans 
presently get their emergency information from the antiquated Emergency 
Broadcast System. But in the event of a local or regional power 
failure, these information sources are mostly unavailable. We should 
have the capability to use a quick, accurate and versatile official 
communications alternative that can focus in on specific neighborhoods 
or cities, or be expanded if necessary to whole regions or the entire 
country. Because of this need, I introduced HR 2250, referred to as the 
READICALL bill. My bill requires the Secretary of Homeland Security to 
use existing resources--just like the present emergency broadcast 
system uses existing resources--to create a fast, efficient and 
reliable emergency communication system based on the nation's public 
telephone system, including cellular phones, on a 24 hour/365 days-a-
year basis. The system could only be activated by order of the 
Secretary of Homeland Security, and only to keep the public informed of 
imminent or current hazardous events or on measures that should be 
taken to alleviate or minimize danger. The aim of this legislation is 
to keep our citizens informed in the terrible event that there is a 
national, regional or local terrorist emergency and present sources of 
communication are not simply available. Minutes can make a huge 
difference in an attack or disaster; accurate information pin-pointed 
to the affected area can make all the difference.
    <bullet> What are your initial thoughts on such a system?
    In theory this seems like an excellent approach. In practice there 
are some serious issues:
    The primary problem is that the number of telephone calls that a 
local telephone switch can handle per minute is severely limited. 
Telephone systems are built to handle typical peak traffic loads but 
can become overwhelmed even on Mother's Day and especially by computers 
trying to dial every number in a region. It is hard to get specific 
numbers of calls that could be dialed per minute because industry is 
concerned about their liability if the phone system crashes. One 
developer of telephone technologies claims they have a new approach 
that they tested using a modern switch in a major city and were able to 
dial 68,000 numbers every 30 seconds and to deliver a recorded 20 
second message. Others have yet to be convinced that such rates are 
achievable. It will take significant testing to establish which 
techniques will work best and what rates they could achieve using the 
variety of switches currently installed within the US.
    A second issue is that most people are not near their wired 
telephone for large parts of the day. A third issue relates to people 
at work and how calls would be routed to large offices. A fourth issue 
is that most modern telephone handsets require power and do not work 
during major disasters involving power failures. A fifth issue is that 
phone systems are typically overloaded as a major disaster unfolds, 
which is why broadcast techniques tend to reach more people without 
overloading the infrastructure.
    Research and testing of this approach should be pursued. No one 
system is the ultimate answer to public warning as discussed above, so 
we need to pick a few good ones and push those forward.
    5. What information should the public receive in a warning message? 
How tailored or specific should warning messages be in order to be 
effective? Do the current warning systems provide enough information 
for the public to take appropriate action in response to a disaster, 
emergency or act of terrorism?
    Public warning delivered with little choice by the recipient, 
should be limited to hazards that are life threatening or of major 
financial impact. People should have the opportunity to request 
warnings for less significant events.
    The key characteristics of a public warning are:
        <bullet> A warning is a communication that directs attention to 
        new information about a hazard or threat for the purpose of 
        causing focused action that reduces harm.
        <bullet> A warning may alert people to an imminent hazard or 
        may notify them about a hazardous event that is in progress or 
        just happened.
        <bullet> A warning should communicate what, where, when, and 
        how severe the hazard is, how likely the hazard is to occur, 
        and what action is appropriate.
        <bullet> A warning needs to communicate clearly and succinctly 
        the risk people face, to motivate them to take specific action, 
        and to provide guidance as to what that action should be.
        <bullet> The success of a warning is measured by the actions 
        people take.
        <bullet> Public warning is a public good that is generally 
        delivered through privately-owned communication networks and 
        devices.
        <bullet> A warning is basically a terse ``heads up'' alert. A 
        warning ideally should specify places to get more information.
    Current warning systems generally provide sufficient information 
but there is room for improvement. The Homeland Security Advisory 
System is not a warning system because it does not provide specific, 
actionable information.

   Responses From Fank Lucia for Questions From the Hon. Jim Turner, 
                        Ranking Minority Member

    Question: How many states actually have an existing plan to 
implement the Emergency Alert System?
    According to the February 12, 2003 report of the FCC Media Security 
and Reliability Council (MSRC) Working Group, almost all states have 
EAS plans on paper but the operational capability varies greatly. There 
are very few emergencies that affect an entire state at the same time. 
Most emergencies occur at the local level and that is where almost all 
EAS activations occur. About 80% of the EAS activations originate from 
the National Weather Service (NWS). The activations are received on the 
EAS equipment at broadcast stations and cable systems via NOAA Weather 
radio (NWR). Each EAS local area has an EAS Local Primary (LP), usually 
a high power broadcast station. LPs transmit the EAS message to all of 
the other broadcast stations and cable systems in the area. Each 
broadcast station and cable system decides if they want to broadcast 
the EAS message to their audiences. LPs are identified in EAS plans.

    How many states have designated EAS coordinators to ensure that any 
messages that are sent to the Primary entry stations are further 
distributed throughout the EAS system nationwide? For example, if a 
Presidential Alert had been sent out through the EAS on September 11th, 
how confident are you that the Alert would have been distributed 
throughout the New York City region?
    According to the FCC EAS web site (www.fcc.gov/eb/eas), almost all 
of the states have an EAS Chair. These individuals are dedicated 
volunteers. It is imperative that the FCC encourages and recognizes 
their efforts. They need to receive assistance from the federal 
government, even if it is only expense assistance for their EAS 
workshops.
    As to September 11, the closest Primary Entry Point (PEP) station 
to New York City is WABC (AM). Their transmitter is in Lodi, New 
Jersey. The President's message would have been broadcast over the WABC 
(AM) transmitter if FEMA could have connected with the EAS equipment at 
the WABC (AM) transmitter site using the Public Switched Telephone 
Network. If the President wanted his message to be sent only to the New 
York region, then FEMA would have to successfully implement ad hoc 
procedures to selectively activate the EAS equipment at WABC (AM). 
Otherwise his message would go out to all 34 PEP stations assuming FEMA 
established successful connectivity to them.
    In addition to its PEP connection for national EAS messages, WABC 
(AM) serves as one of the EAS Local Primary (LP) stations for the New 
York City EAS Local Area. Many of the New York City radio and 
television broadcast stations and cable systems monitor WABC (AM) on 
their EAS equipment. LPs are the disseminators of local EAS messages. 
Their importance to the local EAS system is critical. Local emergency 
managers need to know about these LP stations and how to request EAS 
activation through them. This information is specified in local EAS 
plans. The plans need to be developed, maintained, and tested regularly 
with local emergency managers. EAS plans need to be a part of a 
comprehensive local emergency plan that includes other public 
distribution systems such as the Internet, telephones, sirens, private 
alerting systems, etc.
    There are over 500 EAS local areas. They generally follow radio and 
television market boundaries. A best guess is that less than 30% of the 
500 local areas have EAS plans, and many of those are 5 years old or 
older.
    1. In February of this year, the Partnership for Public Warning 
assessed the EAS, and made a number of recommendations for improvement. 
In particular, you recommended that DHS take the lead in creating an 
effective national public warning capability.

    What organization in DHS should take the lead on updating or 
replacing the EAS? Should it remain a ``national security'' based 
system, or should it be changed to better address the all- hazards 
nature of most warnings?
    What roles should the FCC and the National Weather Service play if 
DHS is the lead agency for the EAS and other warning systems?
    Do you believe legislation is required to clarify responsibility 
and accountability for warnings? What would such legislation do?
    1. FEMA and its predecessor agencies had always assisted in the 
administration of the old Emergency Broadcast System (EBS) and even 
CONELRAD. They administered special programs set up to assist industry 
with the development and implementation of warning systems. When EAS 
replaced EBS in the mid 1990s, FEMA provided some assistance but 
resources slowly dwindled.
    Today, the FCC, FEMA, and NWS each have responsibilities to ensure 
EAS works properly. The FCC inspects the EAS equipment at broadcast 
stations and cable systems. NWS ensures its digital warning messages 
over NOAA Weather Radio (NWR) are compatible with EAS equipment. FEMA 
provides training and planning aids for state and local emergency 
managers. FEMA also funds NAWAS facilities throughout the nation. 
NAWAS, NWR and the EAS equipment form the three arms of the federal 
warning capabilities at the local level. They need to be integrated 
with public and private warning systems at the local level to form 
integrated warning systems.
    In 1981, the FCC, FEMA, NWS and the FCC National Industry Advisory 
Committee (NIAC) signed a Memorandum of Understanding (MOU) to develop 
EBS state and local plans. Over 400 local EBS plans were developed in 
the late 1970s and early 1980s. The MOU needs to be updated to reflect 
the capabilities of EAS. Legislation is needed to require an updated 
MOU or some other governmental agreement document to develop EAS local 
plans as part of a comprehensive integrated local warning plan. This 
would insure the agencies work together and prevent lapses in 
cooperation. A copy of the 1981 MOU is attached. It details the 
responsibilities of each agency.
    2. The February report also recommended that the Administration 
provide the necessary funding and resources to support and operate the 
EAS system.
    What is the appropriate level of funding to adequately maintain the 
current EAS system, and how much funding would be required to 
significantly upgrade the system to reach multiple communications modes 
and to be regularly utilized for purposes other than ``Presidential 
alerts?''
    2. I believe the 10 million dollars funded to FEMA in FY 2004 to 
begin upgrades to warning systems is a good start. Congress needs to 
oversee the funding to insure that EAS is being improved not only on 
the national level but also at the state and local levels as well. 
Additional funding is needed to assess the nation's existing warning 
capabilities; correct deficiencies identified in the assessment; 
provide equipment and training; develop state and local models of 
integrated warning plans; assist states and local areas to develop 
integrated plans; schedule planning workshops; assess the performance 
of warning plans and assets before, during and after disasters; and 
ensure that the plans and personnel training are up to date.
    3. Based on your work, are there any particular technologies that 
would be best suited to improving the nation's warning systems? Rep. 
Meek, a member of the Full Committee, has introduced legislation that 
would implement a landline-based interactive notification system that 
would convey national, regional, and local emergency messages via the 
public switched telephone network to wire-line telephone subscribers 
located in the specific geographic areas affected by emergencies. Would 
this type of system be more effective than the current EAS?
    3. Any additional technologies to distribute warnings to the public 
are always welcome. But they must fit into the overall integrated 
warning plan. Since EAS was established, Internet and cell phone use 
have mushroomed. These and other distribution systems need to be 
integrated into the warning structure. Emergency managers need to be 
trained in how to develop the warning messages that would be 
distributed by an integrated interoperable warning system. Such a 
system should include EAS, NWR, NAWAS, the Internet, telephone, sirens, 
private systems, etc.
    4. We can likely all agree that in times of national crisis, 
reliable and timely information is crucial. Most Americans presently 
get their emergency information from the antiquated the Emergency 
Broadcast System. But in the event of a local or regional power 
failure, these information sources are mostly unavailable. We should 
have the capability to use a quick, accurate and versatile official 
communications alternative that can focus in on specific neighborhoods 
or cities, or be expanded if necessary to whole regions or the entire 
country. Because of this need, I introduced HR 2250, referred to as the 
READICALL bill. My bill requires the Secretary of Homeland Security to 
use existing resources--just like the present emergency broadcast 
system uses existing resources--to create a fast, efficient and 
reliable emergency communication system based on the nation's public 
telephone system, including cellular phones, on a 24 hour/365 days-a-
year basis. The system could only be activated by order of the 
Secretary of Homeland Security, and only to keep the public informed of 
imminent or current hazardous events or on measures that should be 
taken to alleviate or minimize danger. The aim of this legislation is 
to keep our citizens informed in the terrible event that there is a 
national, regional or local terrorist emergency and present sources of 
communication are not simply available. Minutes can make a huge 
difference in an attack or disaster; accurate information pin-pointed 
to the affected area can make all the difference.
    What are your initial thoughts on such a system?
    Because of their widespread use, cell phones and the Internet 
should be part of an integrated warning system. Projects demonstrating 
their capabilities should begin immediately.
    With respect to system activation by the Secretary of Homeland 
Security, presently only the President can activate the national level 
EAS. Activation would be through the PEP system using a special code. 
Upon receipt of the special code, EAS equipment throughout the nation 
would override the programming of radio, television and cable 
television for the President's message. The override would occur even 
if a state Governor or local official were broadcasting an EAS message. 
Whether special code authority should be extended to the Secretary of 
Homeland Security is a question for discussion.
    Most if not all EAS Local Primary stations have generators for 
emergency power. WTOP, Washington, DC is one of the DC EAS Local 
Primary stations. These Local Primary stations function well in 
disasters, including power outages. During the recent hurricanes and 
power outages, portable radios were the primary means of communication 
with the public. Part of the problem is that the local EAS systems need 
to be part of an integrated local system to reach citizens using other 
communications devices such as cell phones and computers. Some of these 
devices are capable of reaching very specific areas and even groups of 
citizens. It begins at the local level.
    5. What information should the public receive in a warning message? 
How tailored or specific should warning messages be in order to be 
effective? Do the current warning systems provide enough information 
for the public to take appropriate action in response to a disaster, 
emergency or act of terrorism?
    5. Citizens at risk need timely and specific instructions. Consumer 
devices should have the capability to be programmed by their users for 
warning messages they want to receive. It is equally if not more 
important that officials with emergency authority have the knowledge 
and training to develop effective warning messages and access the 
warning systems.

[GRAPHIC] [TIFF OMITTED] T6275.011

    [Information is in committee file.]

                                 <all>

</pre></body></html>
